TABLE OF CONTENTS
Appendix A – Order Granting Plaintiff’s
Motion for Preliminary Injunction and Denying
Defendants’ Motion to Dismiss
(D.D.C. July 15, 2020) ............................................ 1a
Appendix B – Declaration of Rebecca E.
Woodman in Support of Plaintiff’s Renewed
Motion for Preliminary Injunction Barring
Execution of Wesley Purkey Pending Final
Disposition on the Merits
(D.D.C. June 22, 2020) ......................................... 15a
Appendix C – Supplemental Declaration of
Rebecca E. Woodman to Plaintiff’s Reply in
Further Support of Motion for Expedited
Discovery (D.D.C. July 2, 2020) ......................... 245a
Appendix D – Appendix A to Plaintiff’s Motion
for Expedited Discovery to Plaintiff’s Reply in
Further Support of Motion for Expedited
Discovery (D.D.C. July 2, 2020) ......................... 287a
Appendix E – Second Declaration of Thomas
M. Hyde, M.D., Ph.D. (July 15, 2020) ............... 296a

1a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 1 of 14

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

WESLEY I. PURKEY,
Plaintiff,
v.
WILLIAM P. BARR, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 1:19-cv-3570 (TSC)

ORDER
Plaintiff Wesley Ira Purkey is 68 years old. As a child, he experienced repeated sexual
abuse and molestation by those charged with caring for him. (ECF No. 1, Compl., ¶ 20.) As a
young man, he suffered multiple traumatic brain injuries—first in 1968, when he was 16, and
again in 1972 and 1976, when he was 20 and 24 respectively. (ECF No. 1-1, Agharkar Report,
at 22.) At 14, he was first examined for possible brain damage, and at 18, he was diagnosed with
schizophrenic reaction, schizoaffective disorder, and depression superimposed upon a preexisting antisocial personality. (Id. at 5.) At 68, he suffers from progressive dementia,
schizophrenia, complex-post traumatic stress disorder, and severe mental illness. (Compl.,
¶¶ 14, 21, 24.)
Defendants plan to execute him today, July 15, 2020. (ECF No. 22.)
Purkey seeks to enjoin his execution on two grounds: that he is not currently competent
to be executed under Ford v. Wainwright, 477 U.S. 399 (1986) and the Eighth Amendment, and
that Attorney General William Barr and Bureau of Prisons Director Michael Carvajal have not
afforded him due process in connection with this Eighth Amendment claim. (See Compl.,
1

2a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 2 of 14

¶¶ 109–119.) Defendants move to dismiss Plaintiff’s claims for lack of subject matter
jurisdiction 1 and failure to state a claim. (ECF No. 18, Defs. Mot. to Dismiss.) In the
alternative, Defendants move to transfer all claims that are not dismissed to the United States
District Court for the Southern District of Indiana. (Id., at 33–39.) For the reasons set forth
below, the court will DENY Defendants’ Motion to Dismiss, GRANT Plaintiff’s motion for a
preliminary injunction, and ORDER Plaintiff to show cause why this case should not be
transferred.
Should the timing of this ruling be raised in subsequent litigation, the court notes that
though Defendants have accused the court of “abusive delay,” Barr v. Lee, No. 20A8 (July 14,
2020), App. for a Stay or Vacatur at 6–7, the court’s sole responsibility is to endeavor to address,
thoroughly and promptly, the claims of the four individuals whose execution dates were
announced by the Government only one month before they were to occur. The speed with which
the government seeks to carry out these executions, and the Supreme Court’s prioritization of
that pace over additional legal process, makes it considerably more likely that injunctions may
issue at the last minute, despite the efforts of Plaintiffs’ counsel to raise, and the court to
adjudicate, the claims in a timely fashion.
I.

BACKGROUND

After a hiatus in federal executions of over fifteen years, on July 25, 2019, the U.S.
Department of Justice (DOJ) announced plans to execute five inmates who had been sentenced to
death under the federal death penalty statute. See Press Release, Dep’t of Justice, Federal

1

At the time Defendants moved to dismiss, Plaintiff’s execution date had passed, and a new date
had not been scheduled. (Defs. Mot. to Dismiss, at 12.) Because an execution date has since
been scheduled, the court need not address Defendants’ claim that because there was no pending
execution, the court lacked subject matter jurisdiction.
2

3a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 3 of 14

Government to Resume Capital Punishment After Nearly Two Decade Lapse (July 25, 2019),
https://www.justice.gov/opa/pr/federal-government-resume-capital-punishment-after-nearly-twodecade-lapse. To implement these executions, the Federal Bureau of Prisons (BOP) adopted a
new execution protocol: the 2019 Protocol. See In re Fed. Bureau of Prisons’ Execution
Protocol Cases, No. 19-mc-145 (D.D.C. November 13, 2019), ECF No. 39-1, at 1021–75.
On November 20, 2019, the court preliminarily enjoined the executions of four inmates:
Alfred Bourgeois, Daniel Lewis Lee, Dustin Lee Honken, and Wesley Ira Purkey. See id., ECF
No. 50, at 15. The court found that these Plaintiffs had demonstrated a likelihood of success on
the merits of their claims that the 2019 Protocol violates the Federal Death Penalty Act (FDPA),
but the court did not rule on their other statutory and constitutional claims. Id., at 13–14. In
April of this year, a divided D.C. Circuit panel vacated the preliminary injunction. In re Fed.
Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106, 113 (D.C. Cir. 2020), cert. denied
sub nom. Bourgeois v. Barr, No. 19-1348, 2020 WL 3492763 (June 29, 2020). The Court based
its ruling solely on Plaintiffs’ FDPA and APA claims, and noted that “regardless of our
disposition, several claims would remain open on remand.” Execution Protocol Cases, 955 F.3d
at 113 (per curiam).
On June 15, 2020, the DOJ and BOP scheduled a new execution date for Purkey—July
15, 2020. On July 2, 2020, the Seventh Circuit stayed Purkey’s execution, and at the time of this
filing, that stay remains in place. Purkey v. United States, No. 19-3318, 2020 WL 3603779 (7th
Cir. July 2, 2020). This court also preliminarily enjoined Purkey’s execution, among others, on
the grounds that the manner of execution violates the Eighth Amendment. See In re Fed. Bureau
of Prisons’ Execution Protocol Cases, No. 19-mc-145 (D.D.C. July 13, 2020), ECF No. 136.
The government sought a stay of the injunction at the D.C. Circuit, which was denied. See In re

3

4a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 4 of 14

Fed. Bureau of Prisons’ Execution Protocol Cases, No. 20-5199 (D.C. Cir. July 13, 2020).
Defendants simultaneously sought a stay of the injunction at the United States Supreme Court,
which the Court granted, allowing Mr. Lee to be executed on July 14, 2020. See Barr v. Lee, No.
20A8, 2020 WL 3964985 (July 14, 2020) (per curiam). The Supreme Court held that Plaintiffs
had “not established that they are likely to succeed on the merits of their Eighth Amendment
claim.” Id. at *1–2. Four Justices dissented. Id. at *2–3.
II.

LEGAL STANDARDS

A. Motion to Dismiss
A motion to dismiss under Rule 12(b)(6) for failure to state a claim tests the legal
sufficiency of a complaint. Browning v. Clinton, 292 F.3d 235, 242 (D.C. Cir. 2002). The court
does not assess the truth of what is asserted nor “whether a plaintiff has any evidence to back up
what is in the complaint.” Id. (citation omitted). “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal quotation marks and citation
omitted). “The plausibility standard is not akin to a ‘probability requirement,’ but it asks for
more than a sheer possibility that a defendant has acted unlawfully.” Id. (citation omitted).
“Factual allegations must be enough to raise a right to relief above the speculative level” and
move plaintiff’s claims “across the line from conceivable to plausible.” Bell Atl. Corp. v.
Twombly, 550 U.S. 554, 555, 570 (2007). Facts that are “merely consistent” with a defendant’s
liability do not meet the plausibility standard. Iqbal, 556 U.S. at 678 (citation omitted).
The court presumes the truth of a plaintiff’s factual allegations, see Iqbal, 556 U.S. at
679, and construes the complaint “in favor of the plaintiff, who must be granted the benefit of all
inferences that can be derived from the facts alleged.” Hettinga v. United States, 677 F.3d 471,
4

5a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 5 of 14

476 (D.C. Cir. 2012) (citing Schuler v. United States, 617 F.2d 605, 608 (D.C. Cir. 1979).). This
presumption does not apply, however, to a “legal conclusion couched as a factual allegation.”
Iqbal, 556 U.S. at 678; see Ralls Corp. v. Comm. on Foreign Inv. in U.S., 758 F.3d 296, 315
(D.C. Cir. 2014) (the court “do[es] not accept as true . . . the plaintiff’s legal conclusions or
inferences that are unsupported by the facts alleged.”).
B. Preliminary Injunction
A preliminary injunction is an “extraordinary remedy” that is “never awarded as of
right.” Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24 (2008) (citing Munaf v. Geren, 553
U.S. 674, 689–90 (2008)). Courts consider four factors on a motion for a preliminary injunction:
(1) the likelihood of plaintiff’s success on the merits, (2) the threat of irreparable harm to the
plaintiff absent an injunction, (3) the balance of equities, and (4) the public interest. Id. at 20
(citations omitted); John Doe Co. v. Consumer Fin. Prot. Bureau, 849 F.3d 1129, 1131 (D.C.
Cir. 2017). When the government is the opposing party, as is the case here, the third and fourth
factors merge. See Nken v. Holder, 556 U.S. 418 (2009).
The D.C. Circuit has traditionally evaluated claims for injunctive relief on a sliding scale,
such that “a strong showing on one factor could make up for a weaker showing on another.”
Sherley v. Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011). It has been suggested, however, that a
movant’s showing regarding success on the merits “is an independent, free-standing requirement
for a preliminary injunction.” Id. at 393 (quoting Davis v. Pension Ben. Guar. Corp., 571 F.3d
1288, 1296 (D.C. Cir. 2009) (Kavanaugh, J., concurring)).

5

6a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 6 of 14

III.

ANALYSIS

A. Motion to Dismiss
1. 28 U.S.C. § 2241
Defendant contends that Plaintiff raises “core habeas” claims that “must be brought by an
action for a writ of habeas corpus under the statute authorizing that writ.” Hill v. McDonough,
547 U.S. 573, 576 (2006).
i. Preemption
“Federal law opens two main avenues to relief on complaints related to imprisonment,” a
petition for habeas corpus or a claim under 42 U.S.C. § 1983. Muhammad v. Close, 540 U.S.
749, 750 (2004). However, when a claim falls within the “core” of habeas, that claim cannot be
brought under section 1983, but must instead “yield to the more specific federal habeas statute.”
Nelson v. Campbell, 541 U.S. 637, 643 (2004). Here, Plaintiff opens a third avenue by seeking
equitable relief directly under the Constitution, (Compl., ¶ 11), but if that claim is within the
“core” of habeas it must also “yield to the more specific federal habeas statute.” See Nelson, 541
U.S. at 643.
In Seminole Tribe of Fla. v. Florida, the Court held: “Where Congress has created a
remedial scheme for the enforcement of a particular federal right, we have, in suits against
federal officers, refused to supplement that scheme with one created by the judiciary.” 517 U.S.
44, 74 (1996) (citing Schweiker v. Chilicky, 487 U.S. 412, 423 (1988)). In the habeas corpus
context, Congress has provided a remedial scheme under section 2241. Accordingly, the Court
in Preiser v. Rodriguez found that it would “wholly frustrate explicit congressional intent” if a
plaintiff could avoid federal habeas corpus laws “by the simple expedient of putting a different
label on their pleadings.” 411 U.S. 475, 489–490 (1973). Consistent with Supreme Court

6

7a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 7 of 14

precedent and congressional intent, this court finds that to the extent Plaintiff’s claims are within
the “core” of habeas, they must be brought under 28 U.S.C. § 2241.
ii. Core Habeas
A plaintiff’s claims “challenging the fact of his conviction or the duration of his
sentence” fall within the “core” of habeas corpus. Nelson, 541 U.S. at 643 (citing Preiser, 411
U.S. at 489). In the death penalty context, the criterion for a core habeas claim is whether “a
grant of relief to the inmate would necessarily bar the execution.” Hill, 547 U.S. at 583 (2006).
A claim is not core habeas when injunctive relief would not challenge the sentence itself and “the
inmate appear[s] willing to concede the existence of an acceptable alternative.” See id. at 579
(citing Nelson, 541 U.S. at 645–646).
Plaintiff makes two claims for relief under Ford: that his execution would violate the
Eighth Amendment because he is currently incompetent, and that executing him without
providing a hearing to determine his competency would violate the Eighth Amendment and the
Due Process Clause of the Fifth Amendment. (Compl., ¶¶ 108–115.)
Under Ford, when a plaintiff claims incompetence, “the only question raised is not
whether, but when, his execution may take place.” Ford, 477 U.S. at 425 (emphasis in original)
(Powell, J., concurring); see also Panetti v. Quarterman, 551 U.S. 930, 949 (2007) (finding that
Justice Powell’s concurring opinion controls procedure for Ford claims). This temporal question
is distinct from “the antecedent question whether petitioner should be executed at all.” Ford,
477 U.S. at 425 (Powell, J., concurring). In fact, Justice Powell noted that incompetence may be
temporary, and that a person may be returned to competency in order to carry out his sentence.
See id. at n.5.

7

8a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 8 of 14

Under this analysis, neither of Plaintiff’s Ford claims is a core habeas claim. The first
claim is not core habeas because success will not necessarily bar his execution. As Ford makes
clear, a claim of incompetence does not affect whether a plaintiff should be executed, but rather
when execution would be appropriate. See 477 U.S. at 425 (Powell, J., concurring). Plaintiff
argues that he should be executed when he is competent, not that his execution should be
permanently enjoined. (ECF No. 20, Pl. Opp., at 15.) Therefore, his claim falls outside the core
of habeas because it does not seek to bar his execution or challenge his sentence. Instead,
success on this claim would result in a temporary injunction lasting until Plaintiff’s competency
is restored. (See id., at 16.) In acknowledging that he may be rendered competent, Plaintiff
appears to concede that an acceptable alternative exists, namely that his sentence can be carried
out when he is competent. (See id.)
The second claim is not a core habeas claim because, as the Supreme Court stated in Hill,
a claim is not core habeas when it seeks only to enjoin the intended manner of execution and
“does not challenge the [execution] sentence as a general matter.” 547 U.S. at 580. Plaintiff’s
second claim challenges the manner of his execution by arguing that due process entitles him to a
competency hearing before he can be executed. (Compl., ¶ 119.) Success on this claim would
not challenge his death sentence but would only provide him a competency hearing. Again,
Plaintiff appears to concede that there is an acceptable alternative—his execution can occur after
he is found competent. (Pl. Opp., at 16.)
2. Jurisdiction
Because neither of Plaintiff’s claims are core habeas claims, this court has jurisdiction to
hear them. A claim that falls outside of the core of habeas corpus does not need to be brought
pursuant to section 2241. Nelson, 541 U.S. at 643 (“[C]onstitutional claims that merely

8

9a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 9 of 14

challenge the conditions of a prisoner’s confinement, whether the inmate seeks monetary or
injunctive relief, fall outside of that core and may be brought pursuant to § 1983 in the first
instance.”) Plaintiff alleges that if he were to be executed as the government plans, his rights to
Due Process under the Eighth and Fifth Amendments would be violated. (Compl., ¶ 119.)
Because this claim is of constitutional dimension and falls outside of the core of habeas, this
court is satisfied that subject matter jurisdiction is appropriate under 28 U.S.C. § 1331. See Bell
v. Hood, 327 U.S. 678, 681–83 (1946) (holding that federal question jurisdiction is appropriate
where a plaintiff brings claims directly under the Constitution and those claims are neither made
solely for the purpose of obtaining jurisdiction nor insubstantial and frivolous).
Even if Plaintiff’s claims were core habeas, this court would still have jurisdiction. This
is because the jurisdictional requirement that habeas petitioners file in the district of
confinement, see Rumsfeld v. Padilla, 542 U.S. 426, 447, (2004), “is best understood as a
question of personal jurisdiction or venue” not a question of subject matter jurisdiction. Id. at
451 (Kennedy, J., concurring). Therefore, the requirement “can be waived by the Government,”
id. at 452; and in this case, it was waived. Fed. R. Civ. P. 12(h)(1)(A) provides that a defense
listed in Fed. R. Civ. P. 12(b)(2)–(5) is waived when, as here, it is not raised in a motion to
dismiss. (See, e.g., Defs. Mot. to Dismiss, at 12–21, 33; ECF No. 21, Defs. Reply, at 20 (“venue
is proper here”).) In other words, Padilla, along with the Federal Rules of Civil Procedure,
require that Defendants challenge Plaintiff’s claims on jurisdictional grounds, not on Plaintiff’s
ability to state a claim, yet Defendants only move to dismiss for failure to state a claim under
Fed. R. Civ. P. 12(b)(6), and in fact concede the jurisdictional grounds—e.g. that personal
jurisdiction and venue are appropriate in this district.
3. Substantial Threshold Showing of Incompetence

9

10a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 10 of 14

Separately, Defendants argue that Plaintiff has failed to state a claim because he has not
plausibly alleged that he is incompetent. (Defs. Mot. to Dismiss, at 21–28.) Under Ford, a
Plaintiff must make “a substantial threshold showing of insanity” in order to overcome the
presumption of sanity and be afforded a competency hearing. See Panetti, 551 U.S. at 949.
Specifically, a Plaintiff must make a substantial showing that his “mental illness prevents him
from ‘rational[ly] understanding’ why the State seeks to [execute him].” Madison v. Alabama,
586 U.S. __ (2019) (quoting Panetti, 551 U.S. at 959). “[T]he issue is whether a ‘prisoner’s
concept of reality’ is ‘so impair[ed]’ that he cannot grasp the execution’s ‘meaning and purpose’
or the ‘link between [his] crime and its punishment.’” Id. (quoting Panetti, 551 U.S. at 960).
Counsel for Plaintiff makes four arguments to show he is incompetent. First, he does not
understand that his execution is punishment for his capital crime. (Compl., ¶¶ 21–37.) Second,
he has a documented history of mental illness, including delusional and paranoid thinking,
starting in childhood and continuing to the present. (Compl., ¶¶ 38–85.) Third, his dementia has
caused a decline in his mental health. (Compl., ¶¶ 86–102.) Fourth, his long-term inability to
effectively communicate with counsel evinces his incompetence. (Compl., ¶¶ 103–108.) To
support each of these arguments, Plaintiff’s counsel submitted a series of reports and declarations
regarding Plaintiff’s conditions, which the court credits. Most notably, Plaintiff provides a report
by Dr. Bhushan Agharkar, stating that Plaintiff lacks a rational understanding of the basis for his
execution. (Agharkar Report, at 11–12.)
Although Defendants dispute Plaintiff’s claim of incompetence, they provided no
independent evidence of competence. (Defs. Mot. to Dismiss, at 21–31.) Based on the record
before it, the court finds that Plaintiff has made a sufficient showing to survive Defendants’
motion to dismiss. Having made a substantial showing of incompetence, Plaintiff is therefore

10

11a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 11 of 14

entitled to an opportunity to be heard, including a fair hearing. See Ford, 477 U.S. at 425–26
(Powell, J., concurring).
B. Preliminary Injunction
1. Likelihood of Success on the Merits
Defendants’ opposition to Plaintiff’s renewed motion for a preliminary injunction restates
the arguments made in their motion to dismiss: (1) that Plaintiff’s core habeas claims were not
properly brought under 28 U.S.C. § 2241 (ECF No. 26, Def. Opp. to Prelim. Inj. at 7–18) and (2)
that Plaintiff has not plausibly alleged that he is incompetent. (Id., at 18–24.) However, for the
reasons explained above, the court has jurisdiction over Plaintiff’s claims and Plaintiff has made
the substantial threshold showing required by Ford, and in doing so, has demonstrated a
likelihood of success on his claim for a competency hearing. Accordingly, the court finds that
Plaintiff has satisfied the likelihood of success requirement for a preliminary injunction.
2. Irreparable Harm
In order to prevail on a request for preliminary injunction, irreparable harm “must be
certain and great, actual and not theoretical, and so imminent that there is a clear and present
need for equitable relief to prevent irreparable harm,” and it “must be beyond remediation.”
League of Women Voters of U.S. v. Newby, 838 F.3d 1, 7–8 (D.C. Cir. 2016) (citing Chaplaincy
of Full Gospel Churches v. England, 454 F.3d 290, 297 (D.C. Cir. 2006)) (internal quotation
marks and brackets omitted). In Ford, Justice Marshall acknowledged that “execution is the
most irremediable and unfathomable of penalties.” 477 U.S. at 411 (citing Woodson v. North
Carolina, 428 U.S. 280, 305 (1976) (plurality opinion). Here, absent a preliminary injunction,
Plaintiff would be executed without being given the opportunity to be heard regarding his
competence to suffer such a sentence. As this court has already found, Plaintiff has made a
11

12a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 12 of 14

substantial threshold showing of incompetence. While Defendants may disagree with the
Plaintiff’s experts regarding his competence, they do not dispute that irreparable harm is likely.
(Def. Opp. to Prelim. Inj., at 18–23, 27–29.) Based on this record, the court finds that Plaintiff
has shown that absent injunctive relief, he will suffer irreparable harm.
3. Balance of Equities and Public Interest
Defendants devote one paragraph of their opposition to their argument that the
government has an interest in enforcing Plaintiff’s sentence. (Def. Opp. to Prelim. Inj. at 28–29.)
It is true that “‘[b]oth the [government] and the victims of crime have an important interest in the
timely enforcement of a [death] sentence.’” Bucklew v. Precythe, 139 S. Ct. 1112, 1133 (2019)
(quoting Hill, 547 U.S. at 584). The Supreme Court has made clear, however, that executing
someone “whose mental illness prevents him from comprehending the reasons for the penalty or
its implications” has been considered “abhorrent” for centuries. Ford, 477 U.S. at 417. “Just
because the death penalty is involved is no reason to take shortcuts—indeed, it is a reason not to
do so.” Purkey v. United States, 2020 WL 3603779, at *11; see also Cooey v. Taft, 430 F. Supp.
2d 702, 708 (S.D. Ohio 2006) (“The public interest has never been and could never be served by
rushing to judgment at the expense of a condemned inmate’s constitutional rights.”); Harris v.
Johnson, 323 F. Supp. 2d 797, 810 (S.D. Tex. 2004) (“Confidence in the humane application of
the governing laws . . . must be in the public’s interest.”). Here, this court seeks to avoid the
abhorrent act that the Supreme Court warns against by finding that the equities and the public
interest favor Plaintiff.
Considering all these factors, the court finds that a preliminary injunction is warranted.

12

13a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 13 of 14

C. Transfer
Finally, Defendants request that this court transfer all Plaintiff’s claims that are not
dismissed to the United States District Court for the Southern District of Indiana. (Defs. Mot. To
Dismiss at 3; Defs. Reply at 20 (arguing for transfer even though “venue is proper”).) Transfer
is “intended to place discretion in the district court to adjudicate motions for transfer according
to an ‘individualized, case-by-case consideration of convenience and fairness.’” Stewart Org.,
Inc. v. Ricoh Corp., 487 U.S. 22, 29 (1988) (quoting Van Dusen v. Barrack, 376 U.S. 612
(1964)). A district court considering transfer “must evaluate both the convenience of the parties
and various public-interest considerations.” Atl. Marine Const. Co. v. U.S. Dist. Court for W.
Dist. of Tex., 571 U.S. 49, 62 (2013). In Piper Aircraft Co. v. Reyno, 454 U.S. 235, 241, n. 6
(1981), the Supreme Court detailed public and private interest factors a district court must
consider. Private-interest factors include the “relative ease of access to sources of proof;
availability of compulsory process for attendance of unwilling, and the cost of obtaining
attendance of willing, witnesses; possibility of view of premises, if view would be appropriate to
the action; and all other practical problems that make trial of a case easy, expeditious and
inexpensive.” Id. (internal quotation marks omitted). Public-interest factors include “the
administrative difficulties flowing from court congestion; the local interest in having localized
controversies decided at home; [and] the interest in having the trial of a diversity case in a forum
that is at home with the law.” Id. (internal quotation marks omitted). However, “a plaintiff’s
choice [of forum] ordinarily deserves substantial deference.” Id. at 242.
In Starnes v. McGuire, 512 F.2d 918, 929–933 (D.C. Cir. 1974), the D.C. Circuit
articulated five factors affecting transfer in prisoner petitions: (1) difficulty of communication
with counsel, (2) difficulty of transferring the prisoner (3) availability of witnesses and files (4)
13

14a

Case 1:19-cv-03570-TSC Document 36 Filed 07/15/20 Page 14 of 14

whether the petition sounds in habeas corpus, and (5) speed of resolution. Where a case involves
factors weighing both for and against transfer, “the District Court must determine the correct
action in light of all the factors.” Id. at 933.
Defendants contend that each of the five Starnes factors weigh in favor of transfer.
(Defs. Mot. to Dismiss at 35–38.) Plaintiff does not directly address the Starnes factors but does
suggest that several important witnesses reside in close proximity to this district. (Pl. Opp. at
34–35.) The court is mindful of Defendants’ concerns regarding convenience. However,
because transfer is discretionary and Plaintiff’s choice of forum is entitled to substantial
deference, the court will order Plaintiff to show cause why this case should not be transferred to
the United States District Court for the Southern District of Indiana.
IV.

CONCLUSION

For the foregoing reasons, Defendants’ motion to dismiss is hereby DENIED and
Plaintiff’s motion for a preliminary injunction is hereby GRANTED. It is further ORDERED
that Defendants (along with their respective successors in office, officers, agents, servants,
employees, attorneys, and anyone acting in concert with them) are enjoined from executing
Plaintiff Wesley Ira Purkey until further order of this court.
It is further ordered that Plaintiff must SHOW CAUSE, no later than July 31, 2020, why
this case should not be transferred to the United States District Court for the Southern District of
Indiana.
Date: July 15, 2020

Tanya S. Chutkan

TANYA S. CHUTKAN
United States District Judge
14

15a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 1 of 230

16a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 2 of 230

17a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 3 of 230

18a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 4 of 230

19a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 5 of 230

20a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 6 of 230

21a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 7 of 230

22a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 8 of 230

23a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 9 of 230

24a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 10 of 230

25a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 11 of 230

26a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 12 of 230

27a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 13 of 230

28a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 14 of 230

29a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 15 of 230

30a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 16 of 230

31a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 17 of 230

32a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 18 of 230

33a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 19 of 230

34a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 20 of 230

Exhibit 1

35a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 21 of 230
Monday, September 9, 2019 at 12:27:18 PM Central Daylight Time

Subject:
Date:
From:
To:
A1achments:

FW: Night Checks on Range -­‐-­‐ Wesley Purkey
Monday, September 9, 2019 at 12:25:08 PM Central Daylight Time
Michelle Law
rewlaw_outlook.com
image001.png

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-­‐9022
FAX: (417) 873-­‐9038
*This e-­‐mail contains PRIVILEGED and CONFIDENTIAL informa\on intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-­‐mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby no\ﬁed that any dissemina\on
or copying of this e-­‐mail is strictly prohibited. If you have received this e-­‐mail in error, please no\fy us by
reply e-­‐mail. Thank you for your coopera\on.
From: Michelle Law
Sent: Wednesday, August 21, 2019 9:27 AM
To: 'Katherine Siereveld' <ksiereveld@bop.gov>
Cc: rewlaw_outlook.com <rewlaw@outlook.com>; 'Elizabeth Vartkessian' <esv@advancechange.org>
Subject: Night Checks on Range -­‐-­‐ Wesley Purkey
Katherine:

Page 1 of 2

36a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 22 of 230
I am wri\ng about an ongoing issue on the range where the ﬁve with execu\on dates are being housed. As
you know, I represent Wesley Purkey, and he is complaining about the cell checks that occur about every 10 -­‐
15 minutes during the night. Apparently, a guard is using a large ﬂashlight to illuminate Mr. Purkey’s cell, and
the super bright light is waking Mr. Purkey every \me there is a cell check. This has led to extreme sleep
depriva\on and the resul\ng agita\on is aﬀect our ability to communicate with Mr. Purkey. I would prefer
not to li\gate this issue, but if we can’t ﬁnd a solu\on soon, we plan to ﬁle a lawsuit. It seems to me that
signiﬁcantly curtailing the use of a bright ﬂashlight at night is a reasonable request. Or, if that is not an
op\on, I could bring Mr. Purkey a sleep mask to shield his eyes from the bright light.
Any assistance that you can oﬀer on this issue would be appreciated. If you cannot resolve this issue, please
let me know to who I should talk to about this situa\on.
Thank you
Michelle

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-­‐9022
FAX: (417) 873-­‐9038
*This e-­‐mail contains PRIVILEGED and CONFIDENTIAL informa\on intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-­‐mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby no\ﬁed that any dissemina\on
or copying of this e-­‐mail is strictly prohibited. If you have received this e-­‐mail in error, please no\fy us by
reply e-­‐mail. Thank you for your coopera\on.

Page 2 of 2

37a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 23 of 230

Exhibit 2

38a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 24 of 230
Monday, September 9, 2019 at 12:28:00 PM Central Daylight Time

Subject:
Date:
From:
To:
A1achments:

FW: Wesley Purkey -­‐ Sleep Mask Ques3on Follow-­‐up
Monday, September 9, 2019 at 12:24:12 PM Central Daylight Time
Michelle Law
rewlaw_outlook.com
ATT00001.png, image001.png

Michelle M. Law

Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-­‐9022
FAX: (417) 873-­‐9038
*This e-­‐mail contains PRIVILEGED and CONFIDENTIAL informa3on intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-­‐mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby no3ﬁed that any dissemina3on or
copying of this e-­‐mail is strictly prohibited. If you have received this e-­‐mail in error, please no3fy us by reply e-­‐
mail. Thank you for your coopera3on.
From: Katherine Siereveld <ksiereveld@bop.gov>
Sent: Thursday, August 29, 2019 5:41 AM
To: Michelle Law <Michelle_Law@fd.org>
Subject: Re: Wesley Purkey -­‐ Sleep Mask Ques3on Follow-­‐up
Hi,
I'm sorry. I did get an answer, but forgot to convey it to you. He cannot have a sleep mask and they are not sold on
commissary. He can cover his eyes with his blanket if that helps. As long as the officers see living inmate it won't
be a problem.
Thanks!

Page 1 of 2

39a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 25 of 230
Katherine
Katherine N. Siereveld
Senior Attorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Michelle Law <Michelle_Law@fd.org> 8/28/2019 8:22 PM >>>

Hi Katherine Did you get word back about the sleep mask for Wesley Purkey? I am visi3ng him tomorrow
(Thursday) and I have a mask with me to give to him. The mask is in its original packaging if someone wants
to look at it before deciding, I’ll be in the recep3on area around 8:45 a.m.

Michelle M. Law

Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-­‐9022
FAX: (417) 873-­‐9038
*This e-­‐mail contains PRIVILEGED and CONFIDENTIAL informa3on intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-­‐mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby no3ﬁed that any dissemina3on or
copying of this e-­‐mail is strictly prohibited. If you have received this e-­‐mail in error, please no3fy us by reply e-­‐
mail. Thank you for your coopera3on.

Page 2 of 2

40a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 26 of 230

Exhibit 3

41a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 27 of 230
Monday, September 9, 2019 at 12:12:34 PM Central Daylight Time

Subject:
Date:
From:
To:
CC:
A2achments:

Re: Policy Regarding Night Checks
Thursday, August 29, 2019 at 2:26:53 PM Central Daylight Time
Katherine Siereveld
Michelle Law
rewlaw_outlook.com
Portable Network Graphics image

Hi Michelle,
I will have to do some further research to see if we have anything that is releasable, but speciﬁc direcRves such as that are
usually found in Post Orders which are Law Enforcement SensiRve and cannot be released.
Thanks,
Katherine
Katherine N. Siereveld
Senior AUorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-­‐3476
>>> Michelle Law <Michelle_Law@fd.org> 8/29/2019 3:18 PM >>>

Katherine:
Would you mind forwarding a copy of the BOP wriUen policy regarding the night checks?
Thanks-­‐
Michelle

Michelle M. Law

Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-­‐9022
FAX: (417) 873-­‐9038
*This e-­‐mail contains PRIVILEGED and CONFIDENTIAL informaRon intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-­‐mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby noRﬁed that any disseminaRon or
copying of this e-­‐mail is strictly prohibited. If you have received this e-­‐mail in error, please noRfy us by reply e-­‐
mail. Thank you for your cooperaRon.
Page 1 of 2

42a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 28 of 230

Page 2 of 2

43a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 29 of 230

Exhibit 4

44a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 30 of 230

From:
To:
Cc:
Subject:
Date:

Katherine Siereveld
Michelle Law
Elizabeth Vartkessian; rewlaw outlook.com
Re: Range Surveillance Video
Thursday, September 19, 2019 11:00:41 AM

Hi Michelle,
I apologize for the delay in response, we have not had computers or electricity the last few days.
We do not have a mechanism with which to provide you ongoing footage. Additionally, the preservation alone is
quite voluminous, but can be accomplished if necessary. Are there specific time frames or days even that you are
looking for? At that point we could preserve what you need and then evaluate our ability to provide it through a
properly filed FOIA request, discovery request, or subpoena.
I hope that helps. Please don't hesitate to call and discuss.
Thanks,
Katherine
Katherine N. Siereveld
Senior Attorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476
>>> Michelle Law <Michelle_Law@fd.org> 9/17/2019 4:54 PM >>>
Katherine:
I am writing to request the preservation of the range surveillance video for the SCU range where Mr. Purkey is
currently housed. I am also requesting that copies of the surveillance video be provided to me on a weekly basis.
If you require blank storage media in order to provide weekly copies, please let me know, and my office will
provide blank storage media.
Thanks Michelle
Get Outlook for iOS

45a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 31 of 230

Exhibit 5

46a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 32 of 230

From:
To:
Subject:
Date:
Attachments:

Katherine Siereveld
Michelle Law
RE: Range Surveillance Video
Tuesday, September 24, 2019 10:25:18 AM
ATT00001.png

Hi Michelle:
I forwarded this on to the appropriate office to see how far back they can go preserving the evening watch.
Thanks,
Katherine
>>> Michelle Law <Michelle_Law@fd.org> 9/24/2019 9:19 AM >>>

Katherine:

We would like the range video for the night watch hours since Wes was moved to the new range. If
the video has not been maintained that far back, we would like the earliest range surveillance video
available for night watch hours, every night since and every night to come. We will be making a FOIA
request in the very near future. As I wrote before, if you need storage media, please let me know and
I’ll have my CSA provide a storage device.
ThanksMichelle

Michelle M. Law

Assistant Federal Public Defender
Western District of Missouri
Springfield, MO 65806
Phone: (417) 873-9022
FAX: (417) 873-9038
*This e-mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized
employee or agent responsible for delivering it to the intended recipient, you are hereby notified that
any dissemination or copying of this e-mail is strictly prohibited. If you have received this e-mail in
error, please notify us by reply e-mail. Thank you for your cooperation.
From: Katherine Siereveld <ksiereveld@bop.gov>

47a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 33 of 230
Sent: Thursday, September 19, 2019 11:01 AM
To: Michelle Law <Michelle_Law@fd.org>
Cc: Elizabeth Vartkessian <esv@advancechange.org>; rewlaw_outlook.com <rewlaw@outlook.com>
Subject: Re: Range Surveillance Video
Hi Michelle,
I apologize for the delay in response, we have not had computers or electricity the last few days.
We do not have a mechanism with which to provide you ongoing footage. Additionally, the preservation alone is
quite voluminous, but can be accomplished if necessary. Are there specific time frames or days even that you are
looking for? At that point we could preserve what you need and then evaluate our ability to provide it through a
properly filed FOIA request, discovery request, or subpoena.
I hope that helps. Please don't hesitate to call and discuss.
Thanks,
Katherine
Katherine N. Siereveld
Senior Attorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Michelle Law <Michelle_Law@fd.org> 9/17/2019 4:54 PM >>>
Katherine:
I am writing to request the preservation of the range surveillance video for the SCU range where Mr. Purkey is
currently housed. I am also requesting that copies of the surveillance video be provided to me on a weekly basis.
If you require blank storage media in order to provide weekly copies, please let me know, and my office will
provide blank storage media.
Thanks Michelle
Get Outlook for iOS

48a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 34 of 230

Exhibit 6

49a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 35 of 230

50a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 36 of 230

51a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 37 of 230

52a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 38 of 230

Exhibit 7

53a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 39 of 230

54a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 40 of 230

55a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 41 of 230

56a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 42 of 230

Exhibit 8

57a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 43 of 230

58a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 44 of 230

59a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 45 of 230

60a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 46 of 230

Exhibit 9

61a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 47 of 230

From:
To:
Cc:
Subject:
Date:
Attachments:

Rebecca Woodman
Katherine Siereveld
Michelle Law
Purkey FOIA requests
Wednesday, October 9, 2019 9:47:07 AM
Purkey FOIA request death watch protocols 10-9-2019.pdf
Purkey limited FOIA request 10-9-2019.pdf
Purkey updated certificate of identity 9-25-2019.pdf
Purkey updated release 9-25-2019.pdf

Dear Katherine: I am attaching two FOIA requests that I sent via email and USPS today to the Federal
Bureau of Prisons. One is a limited request for the surveillance videos of the death watch range that
my co-counsel, Michelle Law, specifically requested be preserved in previous email correspondence
with you. That specific request is reiterated in the attached FOIA letter. It is imperative that we
obtain at least these video surveillance tapes as soon as possible, given Mr. Purkey’s impending
execution date of December 13, 2019, so anything you can do to ensure that we obtain these
videotapes as soon as possible would be appreciated. The other FOIA request is a more detailed
request for all records pertaining to BOP protocols for the death watch range, as well as all video
surveillance of the range. Anything you can do to expedite this request would be most appreciated
as well. Please let me know if you have any questions, and Michelle and I are available to discuss
these requests further with you should you wish.
Thank you.
Sincerely,
Rebecca

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

62a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 48 of 230

Exhibit 10

63a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 49 of 230

U.S. Department of Justice
Federal Bureau of Prisons

North Central Regional Office
Office of the Regional Counsel

400 State Avenue
Tower II, Suite 800
Kansas City, KS 66101

October 10, 2019

Rebecca Woodman
1263 W. 72nd Terrace
Kansas City, MO 64114
Re: Freedom of Information Act Request No. 2020-00234
Wesley Purkey
Dear Sir/Madame:
This acknowledges our receipt of your Freedom of Information Act (FOIA) request.
Regulations that may be pertinent to your request may be found at Title 28 C.F.R. A
copy of the first page of your request is attached to help you more easily keep track of
your request.
We have examined your request and have determined that the documents responsive
to your request must be searched for and collected from a field office. As a result, the
amount of time necessary to respond to your request will increase. Once responsive
documents have been collected from the field, we will process your request in the order
that it was received.
The Department of Justice requires all requests for records be processed on a first-in,
first-out basis. The four exceptions to this requirement are: “(i) Circumstances in which
the lack of expedited processing could reasonably be expected to pose an imminent
threat to the life or physical safety of an individual; (ii) An urgency to inform the public
about an actual or alleged Federal Government activity, if made by a person who is
primarily engaged in disseminating information; (iii) The loss of substantial due process
rights; or (iv) A matter of widespread and exceptional media interest in which there exist
possible questions about the government’s integrity that affect public confidence.” 28
C.F.R. § 16.5(e).
Your request meets the requirement to be processed on an expedited basis and will be
expedited to the best of our ability. This request will be placed on the processing track

64a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 50 of 230

ahead of other requests and processed as soon as practicable. Processing this request
may take up to six months.
If you have questions regarding the status of your request or anything discussed in this
letter, you may contact the North Central Regional Office or the BOP FOIA Public Liaison,
Mr. C. Darnell Stroble at (202) 616-7750 or BOP FOIA Section, 320 First Street, NW, Room
936, Washington, D.C. 20534. You can also check the status of your request on line at
http://www.bop.gov/PublicInfo/execute/foia.
Additionally, you may contact the Office of Government Information Services (OGIS) at the
National Archives and Records Administration to inquire about the FOIA mediation services
they offer. The contact information for OGIS is as follows: Office of Government
Information, Services, National Archives and Records Administration, Room 2510, 8601
Adelphi Road, College Park, Maryland 20740-6001; e-mail at ogis@nara.gov; telephone at
202-741-5770; toll free at 1-877-684-6448; or facsimile at 202-741-5769.
Sincerely,

Richard M. Winter
Regional Counsel

65a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 51 of 230

Exhibit 11

66a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 52 of 230

Michelle Law
From:
Sent:
To:
Cc:
Subject:
Attachments:

Rebecca Woodman <rewlaw@outlook.com>
Friday, October 11, 2019 7:45 AM
Katherine Siereveld
Michelle Law
Re: Purkey FOIA requests
Ack and Expedite Grant Ltr.pdf

Hi Katherine: Attached is a reply to our limited FOIA request for the A range death watch video surveillance, granting our
request for expedited response. Nevertheless, the response indicates it may take as much as six months to process the
request. As you know, this time frame is untenable in light of Mr. Purkey’s execution date. You have already agreed to
preserve the requested video, and it is vitally important that we obtain at least these limited video surveillance tapes
now. Please advise on the time frame in which those videos can be made available to us in the next few weeks. We
greatly appreciate your timely assistance in this matter.
Thank you.
Best,
Rebecca

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Rebecca Woodman <rewlaw@outlook.com>
Date: Wednesday, October 9, 2019 at 9:46 AM
To: Katherine Siereveld <ksiereveld@bop.gov>
Cc: Michelle Law <Michelle_Law@fd.org>
Subject: Purkey FOIA requests
Dear Katherine: I am attaching two FOIA requests that I sent via email and USPS today to the Federal Bureau of Prisons.
One is a limited request for the surveillance videos of the death watch range that my co‐counsel, Michelle Law,
specifically requested be preserved in previous email correspondence with you. That specific request is reiterated in the
attached FOIA letter. It is imperative that we obtain at least these video surveillance tapes as soon as possible, given Mr.
Purkey’s impending execution date of December 13, 2019, so anything you can do to ensure that we obtain these
videotapes as soon as possible would be appreciated. The other FOIA request is a more detailed request for all records
pertaining to BOP protocols for the death watch range, as well as all video surveillance of the range. Anything you can do
to expedite this request would be most appreciated as well. Please let me know if you have any questions, and Michelle
and I are available to discuss these requests further with you should you wish.
Thank you.
1

67a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 53 of 230
Sincerely,
Rebecca

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

2

68a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 54 of 230

Exhibit 12

69a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 55 of 230
Saturday, November 30, 2019 at 3:13:23 PM Central Standard Time

Subject:
Date:
From:
To:
CC:

Re: Purkey FOIA requests
Wednesday, October 16, 2019 at 9:54:20 AM Central Daylight Time
Katherine Siereveld
Rebecca Woodman
Michelle Law

Hi Rebecca,
I understand your 3me constraints, but I do not have the authority to circumvent the FOIA process. I will follow up with our
FOIA folks and see if there is a more expedited 3me frame.
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 10/11/2019 8:45 AM >>>
>

Hi Katherine: AOached is a reply to our limited FOIA request for the A range death watch video surveillance,
granRng our request for expedited response. Nevertheless, the response indicates it may take as much as six
months to process the request. As you know, this Rme frame is untenable in light of Mr. Purkey’s execuRon
date. You have already agreed to preserve the requested video, and it is vitally important that we obtain at
least these limited video surveillance tapes now. Please advise on the Rme frame in which those videos can be
made available to us in the next few weeks. We greatly appreciate your Rmely assistance in this maOer.
Thank you.
Best,
Rebecca

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Rebecca Woodman <rewlaw@outlook.com>
Date: Wednesday, October 9, 2019 at 9:46 AM
To: Katherine Siereveld <ksiereveld@bop.gov>
Cc: Michelle Law <Michelle_Law@fd.org>
Subject: Purkey FOIA requests

Page 1 of 2

70a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 56 of 230
Dear Katherine: I am aOaching two FOIA requests that I sent via email and USPS today to the Federal Bureau of
Prisons. One is a limited request for the surveillance videos of the death watch range that my co-­‐counsel,
Michelle Law, speciﬁcally requested be preserved in previous email correspondence with you. That speciﬁc
request is reiterated in the aOached FOIA leOer. It is imperaRve that we obtain at least these video surveillance
tapes as soon as possible, given Mr. Purkey’s impending execuRon date of December 13, 2019, so anything you
can do to ensure that we obtain these videotapes as soon as possible would be appreciated. The other FOIA
request is a more detailed request for all records pertaining to BOP protocols for the death watch range, as
well as all video surveillance of the range. Anything you can do to expedite this request would be most
appreciated as well. Please let me know if you have any quesRons, and Michelle and I are available to discuss
these requests further with you should you wish.
Thank you.
Sincerely,
Rebecca

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 2 of 2

71a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 57 of 230

Exhibit 13

72a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 58 of 230
Saturday, November 30, 2019 at 3:19:33 PM Central Standard Time

Subject:
Date:
From:
To:
CC:

Re: Request for documents/video
Wednesday, November 13, 2019 at 12:28:43 PM Central Standard Time
Katherine Siereveld
Rebecca Woodman
Michelle Law

Hi Rebecca,
I do not have the authority to circumvent the FOIA process, but please be assured that everyone involved is cognizant that =me
is of the essence. I will forward your concerns along to the folks directly involved in the FOIA process.
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 11/11/2019 12:28 PM >>>
>

Dear Katherine: We have previously submiLed three FOIA requests for documents and video that contain
informaQon vital to our urgent warrant liQgaQon for Mr. Purkey. The requests are for the video surveillance
tapes of A range since the “death watch” protocol began on July 25, 2019, and wriLen documents pertaining
to the same, a more limited request for video surveillance tapes on speciﬁed dates (which you had previously
indicated to us would be easier to assemble in a short amount of Qme), and a request for Mr. Purkey’s current
BOP records. I am also aLaching the FOIA reply granQng our request to expedite, but staQng it may take six
months for us to receive the documents. As you know, we do not have this kind of Qme, since Mr. Purkey’s
execuQon date is scheduled for December 13, 2019. It is imperaQve that we receive at least the limited video
surveillance tapes we requested, as well as Mr. Purkey’s BOP records in order to prepare impending warrant
liQgaQon for Mr. Purkey. I am respec_ully requesQng that you forward the requested documents to us in the
next 10 days so that we have the necessary documentaQon for our liQgaQon on behalf of Mr. Purkey. We
greatly appreciate your Qmely assistance in this maLer. Please let me know if you have any quesQons in the
meanQme. Thank you.
Best,
Rebecca

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 1 of 1

73a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 59 of 230

Exhibit 14

74a
Case 1:19-cv-03570-TSC Document
Document56-1
23-6(ExFiled
06/22/20
Page 60 ofPage
230 1 of 1
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
ATTACHMENT 1
PageID #: 9450

September 26, 2019
Re: Wesley Purkey
DOB: 1/6/52
Dx: R41.844 - Frontal lobe and executive
function deficit
To Whom It May Concern:
I would like to order a head MRI w/ and w/o contrast, PET scan (brain), and a DTI scan (brain)
for Mr. Purkey. The indication is that he has a history of cognitive deficits and need to rule out an
intracranial process. For his head MRI, this study should be done with a field strength of at least
1.5 tesla. Scanning should include a T1-weighted 3-dimensional 1x1x1mm (no skips)
acquisition sequence (such as MPRAGE or a 3D spoiled-gradient procedure) to allow
segmentation of gray matter (GM) and white matter (WM) for volumetric analysis. If feasible,
scanning should also include a dual-echo sequence (proton density and T2-weighted) with slice
thickness of no more than 5mm and in-plane resolution of no worse than 1x1mm, no skip, and
covering at least the entire supratentorial volume. This could be needed for robust segmentation
of brain parenchyma from cerebrospinal fluid (CSF). If possible, the raw data needs to be saved
in a standard (e.g., DICOM) format and downloadable for post-processing by specialized
software. I would like to order a diffusion tensor imaging (DTI) study to evaluate for fiber tract
abnormalities. It should be done with a minimum of 25 directions; 64 directions is preferred.
Please see the attached scanning protocol for further details and information. Please send the
images to Rebecca Woodman <rewlaw@outlook.com> when ready.
Sincerely,

Bhushan S. Agharkar, M.D., D.F.A.P.A.
Distinguished Fellow, American Psychiatric
Association
Diplomate, American Board of Psychiatry
and Neurology, with Added Qualifications in
Forensic Psychiatry
NPI: 1619180304

4062 Peachtree Road NE, Suite A-203 | Atlanta, GA 30319
Tel: 404.939.6636 | Tel/Fax: 866.824.5215

75a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 61 of 230

Exhibit 15

76a
Case 1:19-cv-03570-TSC Document
Document56-2
23-6(ExFiled
06/22/20
Page 62
230 1 of 1
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
ATTACHMENT
2 ofPage
PageID #: 9451
Ruben C. Gur, PhD
Professor, Departments of Psychiatry, Radiology & Neurology
Director, Brain Behavior Laboratory and the Center for Neuroimaging in Psychiatry

MRI. A magnetic resonance imaging (MRI) study should be done with a field strength of at least 1.5
tesla. Scanning should include a T1‐weighted 3‐dimensional 1x1x1mm (no skips) acquisition
sequence (such as MPRAGE or a 3D spoiled‐gradient procedure) to allow segmentation of gray
matter (GM) and white matter (WM) for volumetric analysis. If feasible, scanning should also include a
dual‐echo sequence (proton density and T2‐weighted) with slice thickness of no more than 5mm and
in‐plane resolution of no worse than 1x1mm, no skip, and covering at least the entire supratenorial
volume. This could be needed for robust segmentation of brain parenchyma from cerebrospinal fluid
(CSF). The raw data needs to be saved in a standard (e.g., DICOM) format and downloadable for
postprocessing by specialized software. If a diffusion tensor imaging (DTI) study is performed, it
should be done with a minimum of 25 directions; 64 directions is preferred. Of course, the scans can
be supplemented by any other clinically indicated scans as deemed necessary by the referring
neuropsychiatrist or neurologist or by the performing neuroradiologist. Furthermore, the scans should
receive clinical readings, although these are not necessarily expected to detect diffuse volume
reduction of the kind we can document with quantitative volumetric analysis.

PET. A resting baseline positron emission tomography (PET) study using ligands such as
18F‐fluoro‐d‐2‐deoxyglucose (FDG) for measuring local cerebral metabolic rates for glucose (CMRgI).
Ideally, the PET studies should be quantitative, with good estimation of the input function using
arterial (or “arterialized”) blood samples. This is necessary to have quantitative assessment of CMRgI
in physiological units (milliliter per 100 grams of tissue per minute). Such quantitative data will allow
for a better estimate of the nature of the pathology and possibly determine its origin. Perhaps more
importantly from the clinical perspective, such data will allow for a better prognosis of whether an
ongoing pathological process may be kindling. However, it is acknowledged that not all PET centers
are capable of this procedure, and that non‐quantitative measures (such as region‐to‐whole brain
ratios of raw counts) are likely sufficient to document abnormalities. As with the structural studies, the
scans should be supplemented by any other clinically indicated scans as deemed necessary by the
referring neuropsychiatrist or neurologist or by the performing nuclear medicine physician.
Furthermore, the scans should receive clinical readings, although again these are not necessarily
expected to detect diffuse abnormalities of the kind we are proposing to document with quantitative
analysis. Also, as with MRI, the raw data should be saved in a standard (e.g. DICOM) format and
downloadable for post‐processing.

Updated 16-May-2012
10th Floor Gates Pavilion | 3400 Spruce Street | Philadelphia, PA 19104 | 215.615.3604 | Fax: 215.662.7903 | gur@upenn.edu

77a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 63 of 230

Exhibit 16

78a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 64 of 230

From:
To:
Cc:
Subject:
Date:
Attachments:

Michelle Law
"Katherine Siereveld"
rewlaw outlook.com
Medical Questions regarding Wesley Purkey
Thursday, September 26, 2019 10:02:00 AM
image001.png

Katherine:
Mr. Purkey requires neurology imaging of his brain in order to determine his current neurological
functioning in light of a progressive dementia diagnosis and recommendations therefrom. This
testing must be performed in a hospital setting. Mr. Purkey must be transported to a hospital facility
for testing, and we are looking at hospitals near Terre Haute as a testing location. Given the pending
execution date, we hope to have arrangements made soon. Will a doctor’s order for the procedure,
along with an appointment date be sufficient for Mr. Purkey’s transport? How much lead time will
the prison need in order to make arrangements for Mr. Purkey’s transport to a hospital facility?
ThanksMichelle

Michelle M. Law

Assistant Federal Public Defender
Western District of Missouri
Springfield, MO 65806
Phone: (417) 873-9022
FAX: (417) 873-9038
*This e-mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized
employee or agent responsible for delivering it to the intended recipient, you are hereby notified
that any dissemination or copying of this e-mail is strictly prohibited. If you have received this e-mail
in error, please notify us by reply e-mail. Thank you for your cooperation.

79a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 65 of 230

Exhibit 17

80a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 66 of 230

Michelle Law
From:
Sent:
To:
Cc:
Subject:

Michelle Law
Monday, October 21, 2019 7:59 AM
'Katherine Siereveld'
rewlaw_outlook.com
RE: Medical Imaging Tests for Wesley Purkey

Thanks, Katherine – I’ll start the process of procuring funding. I am certain that we will want a true DTI image so let me
know what the outside vendors report about costs.

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springfield, MO 65806
Phone: (417) 873‐9022
FAX: (417) 873‐9038
*This e‐mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the addressee(s) named
above. If you are not the intended recipient of this e‐mail, or an authorized employee or agent responsible for
delivering it to the intended recipient, you are hereby notified that any dissemination or copying of this e‐mail is strictly
prohibited. If you have received this e‐mail in error, please notify us by reply e‐mail. Thank you for your cooperation.
From: Katherine Siereveld <ksiereveld@bop.gov>
Sent: Wednesday, October 16, 2019 9:59 AM
To: Michelle Law <Michelle_Law@fd.org>
Cc: rewlaw_outlook.com <rewlaw@outlook.com>
Subject: RE: Medical Imaging Tests for Wesley Purkey
Please see below for the estimates I have received so far for the outside testing.

PET Scan of the brain – CPTs 78608 and 70450 is about $2500
MRI of the brain with and without contrast – CPT 70553 is about $800.
MRI DT can most likely be done with the regular MRI but it may have to go out of network depending on availability of
the testing/reading. Two other hospitals both say they can do it. I am checking to see if the onsite vendor can do it as
well. I would add another $250 to the regular MRI to cover that cost just to be on the safe side.
1

81a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 67 of 230
The response from the onsite vendor is in red below. Please let me know how you want us to proceed...
The answer is yes and no.
We can provide Diffusion‐weighted Imaging which is a part of diffusion tensor imaging .

From what I was told is that DTI is used a lot in Brain accident injury application. DWI provides the raw data for the
DTI.
Bottom line we can do DWI. Let me suggest this. Let’s do a DWI and submit it to the Radiologist and see if he can
interpret a DTI from the data.
>>> Michelle Law <Michelle_Law@fd.org> 10/9/2019 11:26 AM >>>

Katherine:
I’ve attached our doctor’s order for the imaging – this is all the information I have regarding the details of the
tests. It is my understanding that all imaging is of the head and no other part of the body.
Once you learn more about who will be performing the tests, would you please forward that information to me
along with more information regarding the machines that will be used to perform the tests (manufacturer,
model number, etc.). If you will not be able to obtain this information, would you forward the name of a
contact person so we can obtain all relevant information regarding the performance of the tests and the
qualifications of those administering the tests? Also, we will need to know how to go about paying for the
tests – like a vendor number, etc.
ThanksMichelle

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springfield, MO 65806
Phone: (417) 873‐9022
FAX: (417) 873‐9038
*This e‐mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the addressee(s) named
above. If you are not the intended recipient of this e‐mail, or an authorized employee or agent responsible for
delivering it to the intended recipient, you are hereby notified that any dissemination or copying of this e‐mail is strictly
prohibited. If you have received this e‐mail in error, please notify us by reply e‐mail. Thank you for your cooperation.
From: Katherine Siereveld <ksiereveld@bop.gov>
Sent: Tuesday, October 8, 2019 1:28 PM
2

82a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 68 of 230
To: Michelle Law <Michelle Law@fd.org>
Subject: RE: Medical Imaging Tests for Wesley Purkey
Hi Michelle,
They need a little more information...
The providers for the DT MRI need more specific orders to have a good understanding of what they are looking
for. They gave the example of stroke vs. MS.
Also, do you want the MRI with or without contrast?
One more, is the PET scan of the whole body? What are the parameters for that?
Thanks!
Katherine

>>> Michelle Law <Michelle_Law@fd.org> 10/4/2019 2:26 PM >>>

It stands for diffusion tensor imaging and it is a study to evaluate brain fiber tract abnormalities.

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springfield, MO 65806
Phone: (417) 873‐9022
FAX: (417) 873‐9038
*This e‐mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the addressee(s) named
above. If you are not the intended recipient of this e‐mail, or an authorized employee or agent responsible for
delivering it to the intended recipient, you are hereby notified that any dissemination or copying of this e‐mail is strictly
prohibited. If you have received this e‐mail in error, please notify us by reply e‐mail. Thank you for your cooperation.
From: Katherine Siereveld <ksiereveld@bop.gov>
Sent: Friday, October 4, 2019 1:20 PM
To: Michelle Law <Michelle Law@fd.org>
Cc: rewlaw_outlook.com <rewlaw@outlook.com>
Subject: Re: Medical Imaging Tests for Wesley Purkey

3

83a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 69 of 230
Really quick dumb question...what is DTI?? I have not been asked for that one before.
>>> Michelle Law <Michelle_Law@fd.org> 10/4/2019 2:18 PM >>>

Katherine:
We have a medical order for the following imaging tests for Mr. Purkey: 1) An MRI of Mr. Purkey’s head; 2) a PET scan
of his brain; and 3) a DTI scan of his brain. Pursuant to our earlier conversation, if you will let me know the medical
costs associated with these examinations, and some detail regarding how they will be carried out, we will then move
forward with plans to get a court order and to arrange for payment of medical expenses. I am happy to assist in any
way that I can – if you need more info from me, please let me know.
Thanks‐
Michelle

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springfield, MO 65806
Phone: (417) 873‐9022
FAX: (417) 873‐9038
*This e‐mail contains PRIVILEGED and CONFIDENTIAL information intended only for the use of the addressee(s) named
above. If you are not the intended recipient of this e‐mail, or an authorized employee or agent responsible for
delivering it to the intended recipient, you are hereby notified that any dissemination or copying of this e‐mail is strictly
prohibited. If you have received this e‐mail in error, please notify us by reply e‐mail. Thank you for your cooperation.

4

84a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 70 of 230

Exhibit 18

85a

1:19-cv-03570-TSC Document
Document 56
23-6
Page 71 Page
of 2301 of 4
CaseCase
2:19-cv-00414-JPH-DLP
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9446

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
WESLEY IRA PURKEY,

)
)
Petitioner,
)
)
CIVIL ACTION
vs.
)
)
Case No.: 2:19-cv-414
WARDEN OF USP TERRE HAUTE,
)
UNITED STATES OF AMERICA
)
DEATH PENALTY CASE
)
EXECUTION SCHEDULED
)
FOR DECEMBER 13, 2019
Respondents.
)
_____________________________________
SEALED EX PARTE MOTION FOR BRAIN IMAGING
_____________________________________
Petitioner Wesley Ira Purkey, through counsel undersigned, respectfully
requests an Order from this Court for Mr. Purkey to undergo certain brain imaging
tests, which have been determined by his defense experts to be medically necessary
for a determination of Mr. Purkey's present brain functioning, specifically frontal
lobe and executive functioning deficits. In support, counsel states as follows:
1. The results of the recommended brain image testing, which is an integral
part of the evaluation of Mr. Purkey's mental state and deterioration observed by
counsel, will also bear on the question of whether Mr. Purkey is competent to be
executed, an issue that is ripe in his case for the reasons set forth in the ex parte

1

86a

1:19-cv-03570-TSC Document
Document 56
23-6
Page 72 Page
of 2302 of 4
CaseCase
2:19-cv-00414-JPH-DLP
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9447

response to the Court's order. See Sealed Ex Parte Status Report filed October 25,
2019.
2. The medical order for brain imaging testing setting forth the need for such
testing and the parameters of such testing by Mr. Purkey's medical expert are
submitted herewith as Attachments 1 and 2.
3. Recognizing the various institutional issues associated with carrying out
brain imaging testing, such as security and transportation issues, Counsel contacted
Katherine Siereveld, Attorney Advisor, USP-Terre Haute regarding the logistics of
carrying out the medical imaging. Ms. Siereveld advised counsel that the brain
imaging testing can be carried out if: 1) the Court enters an order for the testing; 2)
the testing is completed by a BOP medical vendor; and 3) Counsel assumes
responsibility to pay the medical costs associated with each imaging test. Ms.
Siereveld indicated that as long as these requirements are met, the BOP will
provide transportation and security. Counsel provided Ms. Siereveld with a copy
of Attachments 1 and 2, and she in turn indicated that she would collect more
information in light of the Petitioner’s expert’s order for medical imaging testing.
Ms. Siereveld has since informed Counsel that the MRI testing, and possibly the
DTI testing, can be accomplished when a mobile MRI truck is scheduled to be at
the prison. Ms. Siereveld also provided Counsel with the medical costs associated
with the MRI and PET scan. Ms. Siereveld indicated off-site testing may be

2

87a

1:19-cv-03570-TSC Document
Document 56
23-6
Page 73 Page
of 2303 of 4
CaseCase
2:19-cv-00414-JPH-DLP
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9448

required for the DTI and PET scan, but that two local hospitals can do the testing.
Counsel would therefore request that the Court's order include appropriate
transportation orders and directives to BOP to ensure Mr. Purkey's transportation
to any off-site facility for any part of testing should it be necessary.
4. Counsel informs the Court that the cost of the testing will be borne by
counsel Michelle Law's office, the Federal Public Defender for the Western
District of Missouri.
WHEREFORE, for the foregoing reasons, Petitioner requests that the Court
enter an order directing that the testing occur and ensuring any necessary
transportation for Mr. Purkey to effectuate such testing.
Respectfully submitted,
/s/Rebecca E. Woodman
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
Telephone: (785) 979-3672
Email: rewlaw@outlook.com
/s/Michelle M. Law
Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
901 Saint Louis Street, Suite 801
Springfield, Missouri 65806
Telephone: (417) 873-9022
Facsimile: (417) 873-9038
Email: michelle_law@fd.org

3

88a

1:19-cv-03570-TSC Document
Document 56
23-6
Page 74 Page
of 2304 of 4
CaseCase
2:19-cv-00414-JPH-DLP
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9449

Counsel for Petitioner

Dated: October 25, 2019

4

89a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 75 of 230

Exhibit 19

90a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 76 of 230

91a

Case 1:19-cv-03570-TSCDocument
Document
06/22/20
of 230 #: 3201
Case 2:19-cv-00414-JPH-DLP
22 23-6
FiledFiled
09/11/19
PagePage
2 of 277PageID

Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Michelle M. Law
FEDERAL DEFENDER -- WESTERN DISTRICT OF MISSOURI
michelle_law@fd.org
Kathleen D. Mahoney
UNITED STATES ATTORNEY'S OFFICE
kate.mahoney@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov
Jeffrey E. Valenti
UNITED STATES ATTORNEY'S OFFICE
jeff.valenti@usdoj.gov
Rebecca Ellen Woodman
REBECCA E. WOODMAN, ATTORNEY AT LAW, L.C.
rewlaw@outlook.com
Michelle M. Law
FEDERAL DEFENDER -- WESTERN DISTRICT OF MISSOURI
901 Saint Louis Street, Suite 801
Springfield, MO 65806
Rebecca Ellen Woodman
REBECCA E. WOODMAN, ATTORNEY AT LAW, L.C.
1263 W. 72nd Ter.
Kansas City, MO 64114

2

92a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 78 of 230

Exhibit 20

93a

Case 1:19-cv-03570-TSCDocument
Document
06/22/20
of 230 #: 5906
Case 2:19-cv-00414-JPH-DLP
24 23-6
FiledFiled
09/16/19
PagePage
1 of 279PageID

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
WESLEY IRA PURKEY,
Petitioner,
v.
UNITED STATES OF AMERICA, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00414-JPH-DLP

ORDER
On September 13, 2019, the Court received a one-page document prepared by Petitioner
Wesley Purkey styled, “Motion to Rescind Petitioner’s Pro Se Motion to Withdraw Petition(s).”
The Court does not accept this document for filing because Mr. Purkey is represented by counsel.
See United States v. Patterson, 576 F.3d 431, 436–37 (7th Cir. 2009) (stating in the criminal
context that there is no right to “hybrid” representation and that such arrangements are disfavored).
The document will be forwarded to Mr. Purkey’s counsel who, consistent with counsel’s
professional obligations, shall review the document and decide what action, if any, should be taken
regarding the issues raised therein. The clerk is directed to send a copy of the above referenced
document by United States Mail to Mr. Purkey’s counsel.
SO ORDERED.
Date: 9/16/2019

94a

Case 1:19-cv-03570-TSCDocument
Document
06/22/20
of 230 #: 5907
Case 2:19-cv-00414-JPH-DLP
24 23-6
FiledFiled
09/16/19
PagePage
2 of 280PageID

Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Michelle M. Law
FEDERAL DEFENDER -- WESTERN DISTRICT OF MISSOURI
michelle_law@fd.org
Kathleen D. Mahoney
UNITED STATES ATTORNEY'S OFFICE
kate.mahoney@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov
Jeffrey E. Valenti
UNITED STATES ATTORNEY'S OFFICE
jeff.valenti@usdoj.gov
Rebecca Ellen Woodman
REBECCA E. WOODMAN, ATTORNEY AT LAW, L.C.
rewlaw@outlook.com
Rebecca Ellen Woodman
REBECCA E. WOODMAN, ATTORNEY AT LAW, L.C.
1263 W. 72nd Ter.
Kansas City, MO 64114

95a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 81 of 230

Exhibit 21

96a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 82 of 230
Monday, December 2, 2019 at 10:39:12 AM Central Standard Time

Subject:
Date:
From:
To:
A1achments:

Fwd: 2-­‐19-­‐cv-­‐414 Purkey's mandadum short record
Thursday, October 17, 2019 at 5:06:11 PM Central Daylight Time
Laura Briggs
rewlaw_outlook.com
purkey short record for mandamus acOon.pdf

The document itself is attached to this message, for reference.
(Or maybe you already have it).
I’ll get to sorting this all out tonight, but likely won’t have an update until tomorrow.
Laura A. Briggs, Clerk of Court
U.S. District Court, Southern District of Indiana
(317) 229-3705

From: Rebekah Farrington <Rebekah_Farrington@insd.uscourts.gov>
Sent: Thursday, October 17, 2019 5:22:32 PM
To: Laura Briggs <Laura_Briggs@insd.uscourts.gov>; Roger Sharpe <Roger_Sharpe@insd.uscourts.gov>
Subject: 2-­‐19-­‐cv-­‐414 Purkey's mandadum short record

Rebekah Farrington
Divisional OperaOons Manager/
CRD to Magistrate Judge McKee
U.S. District Courthouse
921 Ohio Street
Terre Haute, Indiana 47807
(812) 231 1841

Page 1 of 1

97a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 83 of 230

Exhibit 22

98a

Case 1:19-cv-03570-TSCDocument
Document
06/22/20
of 230 #: 9379
Case 2:19-cv-00414-JPH-DLP
54 23-6
FiledFiled
10/21/19
PagePage
1 of 284PageID

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
WESLEY IRA PURKEY,
Petitioner,
v.
UNITED STATES OF AMERICA, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00414-JPH-DLP

Order Directing Response to Petitioner’s Pro Se Filing and Writ of Mandamus
On September 6, 2019, the Court received a two-page document prepared by Petitioner
Wesley Purkey styled, “Motion to Withdraw Petition for Habeas Corpus.” Mr. Purkey indicated,
among other things, that he did not consent to actions taken by his counsel. In response, the Court
issued an Order stating that the document would not be accepted for filing because Mr. Purkey is
represented by counsel. See Dkt. 22. The Court forwarded the document to Mr. Purkey’s counsel
and ordered counsel, “consistent with counsel’s professional obligations, [to] review the document
and decide what action, if any, should be taken regarding the issues raised therein.” Id. Mr.
Purkey’s counsel did not file anything with the Court in response to Mr. Purkey’s allegations or
the Court’s order.
On October 17, 2019, the Court received notification that Mr. Purkey filed a writ of
mandamus with the United States Court of Appeals for the Seventh Circuit. See Dkt. 53. In this
filing, Mr. Purkey reiterates the allegations previously made against his counsel and his desire to
represent himself. See Purkey v. Hanlon, No. 19-3047 (7th Cir. Oct. 17, 2019), Dkt. 1.
Mr. Purkey’s counsel shall file a status report by October 25, 2019 responding to the
allegations in Mr. Purkey’s “Motion to Withdraw Petition for Habeas Corpus” and his writ of

99a

Case 1:19-cv-03570-TSCDocument
Document
06/22/20
of 230 #: 9380
Case 2:19-cv-00414-JPH-DLP
54 23-6
FiledFiled
10/21/19
PagePage
2 of 285PageID

mandamus filed with the Seventh Circuit. The status report may be filed ex parte if deemed
necessary by counsel to preserve client confidences and attorney-client privileged
communications.
SO ORDERED.
Date: 10/21/2019

Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Michelle M. Law
FEDERAL DEFENDER -- WESTERN DISTRICT OF MISSOURI
michelle_law@fd.org
Kathleen D. Mahoney
UNITED STATES ATTORNEY'S OFFICE
kate.mahoney@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov
Jeffrey E. Valenti
UNITED STATES ATTORNEY'S OFFICE
jeff.valenti@usdoj.gov
Rebecca Ellen Woodman
REBECCA E. WOODMAN, ATTORNEY AT LAW, L.C.
rewlaw@outlook.com

100a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 86 of 230

Exhibit 23

101a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 87 of
2301 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
EXHIBIT A
PageID #: 9388

102a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 88 of
2302 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9389

103a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 89 of
2303 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9390

104a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 90 of
2304 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9391

105a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 91 of
2305 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9392

106a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 92 of
2306 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9393

107a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 93 of
2307 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9394

108a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 94 of
2308 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9395

109a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 95 of
2309 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
Page
PageID #: 9396

110a
Case 1:19-cv-03570-TSCDocument
Document
23-6
Page 96 Page
of 23010 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9397

111a
Case 1:19-cv-03570-TSCDocument
Document
23-6
Page 97 Page
of 23011 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9398

112a
Case 1:19-cv-03570-TSCDocument
Document
23-6
Page 98 Page
of 23012 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9399

113a
Case 1:19-cv-03570-TSCDocument
Document
23-6
Page 99 Page
of 23013 of 18
Case 2:19-cv-00414-JPH-DLP
55-1
(Ex Filed
Parte)06/22/20
Filed 10/25/19
PageID #: 9400

114a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 100Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
14 of 18
PageID #: 9401

115a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 101Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
15 of 18
PageID #: 9402

116a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 102Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
16 of 18
PageID #: 9403

117a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 103Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
17 of 18
PageID #: 9404

118a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 104Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-1
(ExFiled
Parte)
Filed 10/25/19
18 of 18
PageID #: 9405

119a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 105 of 230

Exhibit 24

120a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 106 Page
of 2301 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9406
APPENDIX A

CURRICULUM VITAE
Craig William Haney
Distinguished Professor of Psychology
UC Presidential Chair, 2015-2018
University of California, Santa Cruz 95064
Co-Director,
UC Consortium on Criminal Justice Healthcare
Co-Director,
AMEND at UCSF: US-Norway Correctional Change/Exchange Program
home address:
phone:
fax:
email:

317 Ocean View Ave.
Santa Cruz, California 95062
(831) 459-2153
(831) 425-3664
psylaw@ucsc.edu

PREVIOUS EMPLOYMENT
2015-2018

University of California Presidential Chair

2014-present

Distinguished Professor of Psychology, University of
California, Santa Cruz

1985-2014

University of California, Santa Cruz, Professor of Psychology

1981-85

University of California, Santa Cruz, Associate Professor of
Psychology

1978-81

University of California, Santa Cruz, Assistant Professor of
Psychology

1977-78

University of California, Santa Cruz, Lecturer in Psychology

1976-77

Stanford University, Acting Assistant Professor of
Psychology

1

121a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 107 Page
of 2302 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9407

EDUCATION
1978

Stanford Law School, J.D.

1978

Stanford University, Ph.D. (Psychology)

1972

Stanford University, M.A. (Psychology)

1970

University of Pennsylvania, B.A.

HONORS AWARDS GRANTS
2018

Emerald Literati Award for “Outstanding Paper” (for “Reducing the
Use and Impact of Solitary Confinement in Corrections”).

2016

Vera Institute of Justice “Reimagining Prisons” Initiative Advisory
Council.
Psychology Department “Most Inspiring Lecturer”

2015

University of California Presidential Chair (2015-2018 Term)
Martin F. Chemers Award for Outstanding Research in Social
Science
Excellence in Teaching Award (Academic Senate Committee on
Teaching).
President’s Research Catalyst Award for “UC Consortium on
Criminal Justice Healthcare” (with Brie Williams and Scott Allen).
Vera Institute of Justice “Safe Alternatives to Segregation” (SAS)
Initiative Advisory Council.
Who’s Who in Psychology (Top 20 Psychology Professors in
California) [http://careersinpsychology.org/psychology-degreesschools-employment-ca/#ca-psych-prof]

2014

Distinguished Faculty Research Lecturer, University of California,
Santa Cruz.

2013

Distinguished Plenary Speaker, American Psychological Association
Annual Convention.

2

122a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 108 Page
of 2303 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9408

2012

Appointed to National Academy of Sciences Committee to Study the
Causes and Consequences of High Rates of Incarceration in the
United States.
Invited Expert Witness, United States Senate, Judiciary Committee.

2011

Edward G. Donnelly Memorial Speaker, University of West Virginia
Law School.

2009

Nominated as American Psychological Foundation William Bevan
Distinguished Lecturer.
Psi Chi “Best Lecturer” Award (by vote of UCSC undergraduate
psychology majors).

2006

Herbert Jacobs Prize for Most Outstanding Book published on law
and society in 2005 (from the Law & Society Association, for Death
by Design).
Nominated for National Book Award (by American Psychological
Association Books, for Reforming Punishment: Psychological Limits
to the Pains of Imprisonment).
“Dream course” instructor in psychology and law, University of
Oklahoma.

2005

Annual Distinguished Faculty Alumni Lecturer, University of
California, Santa Cruz.
Arthur C. Helton Human Rights Award from the American
Immigration Lawyers Association (co-recipient).
Scholar-in-Residence, Center for Social Justice, Boalt Hall School of
Law (University of California, Berkeley).

2004

“Golden Apple Award” for Distinguished Teaching, awarded by the
Social Sciences Division, University of California, Santa Cruz.
National Science Foundation Grant to Study Capital Jury Decisionmaking

2002

Santa Cruz Alumni Association Distinguished Teaching Award,
University of California, Santa Cruz.
United States Department of Health & Human Services/Urban
Institute, “Effects of Incarceration on Children, Families, and LowIncome Communities” Project.
3

123a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 109 Page
of 2304 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9409

American Association for the Advancement of Science/American
Academy of Forensic Science Project: “Scientific Evidence Summit”
Planning Committee.
Teacher of the Year (UC Santa Cruz Re-Entry Students’ Award).
2000

Invited Participant White House Forum on the Uses of Science and
Technology to Improve National Crime and Prison Policy.
Excellence in Teaching Award (Academic Senate Committee on
Teaching).
Joint American Association for the Advancement of ScienceAmerican Bar Association Science and Technology Section National
Conference of Lawyers and Scientists.

1999

American Psychology-Law Society Presidential Initiative
Invitee (“Reviewing the Discipline: A Bridge to the Future”)
National Science Foundation Grant to Study Capital Jury Decisionmaking (renewal and extension).

1997

National Science Foundation Grant to Study Capital Jury Decisionmaking.

1996

Teacher of the Year (UC Santa Cruz Re-Entry Students’ Award).

1995

Gordon Allport Intergroup Relations Prize (Honorable Mention)
Excellence in Teaching Convocation, Social Sciences Division

1994

Outstanding Contributions to Preservation of Constitutional Rights,
California Attorneys for Criminal Justice.

1992

Psychology Undergraduate Student Association Teaching Award
SR 43 Grant for Policy-Oriented Research With Linguistically
Diverse Minorities

1991

Alumni Association Teaching Award (“Favorite Professor”)

1990

Prison Law Office Award for Contributions to Prison Litigation

1989

UC Mexus Award for Comparative Research on Mexican Prisons

4

124a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 110 Page
of 2305 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9410

1976

Hilmer Oehlmann Jr. Award for Excellence in Legal Writing at
Stanford Law School

1975-76

Law and Psychology Fellow, Stanford Law School

1974-76

Russell Sage Foundation Residency in Law and Social Science

1974

Gordon Allport Intergroup Relations Prize, Honorable Mention

1969-71

University Fellow, Stanford University

1969-74

Society of Sigma Xi

1969

B.A. Degree Magna cum laude with Honors in Psychology
Phi Beta Kappa

1967-1969 University Scholar, University of Pennsylvania

UNIVERSITY SERVICE AND ADMINISTRATION
2010-2016

Director, Legal Studies Program

2010-2014

Director, Graduate Program in Social Psychology

2009

Chair, Legal Studies Review Committee

2004-2006

Chair, Committee on Academic Personnel

1998-2002

Chair, Department of Psychology

1994-1998

Chair, Department of Sociology

1992-1995

Chair, Legal Studies Program

1995 (Fall)

Committee on Academic Personnel

1995-1996

University Committee on Academic Personnel (UCAP)

1990-1992

Committee on Academic Personnel

1991-1992

Chair, Social Science Division Academic Personnel
Committee

5

125a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 111 Page
of 2306 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9411

1984-1986

Chair, Committee on Privilege and Tenure

WRITINGS AND OTHER CREATIVE ACTIVITIES IN PROGRESS
Books:
Counting Casualties in the War on Prisoners: Toward a Just and Lasting Peace
(working title, in preparation).
Articles:
“The Psychological Foundations of Capital Mitigation: Why Social Historical
Factors Are Central to Assessing Culpability,” in preparation.
PUBLISHED WRITINGS AND CREATIVE ACTIVITIES
Books
2020

Criminality in Context: The Psychological Foundations of Criminal
Justice Reform. APA Books, in press.

2014

The Growth of Incarceration in the United States: Exploring the
Causes and Consequences (with Jeremy Travis, Bruce Western, et
al.). [Report of the National Academy of Sciences Committee on the
Causes and Consequences of High Rates of Incarceration in the
United States.] Washington, DC: National Academy Press.

2006

Reforming Punishment: Psychological Limits to the Pains of
Imprisonment, Washington, DC: American Psychological
Association Books.

2005

Death by Design: Capital Punishment as a Social Psychological
System. New York: Oxford University Press.

Monographs and Technical Reports
1989

Employment Testing and Employment Discrimination (with A.
Hurtado). Technical Report for the National Commission on
Testing and Public Policy. New York: Ford Foundation.

6

126a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 112 Page
of 2307 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9412

Articles in Professional Journals and Book Chapters
2019

“Afterword,” in Robert Johnson, Condemned to Die: Life Under
Sentence of Death (pp. 136-141). Second Edition. New York:
Routledge.
“Changing correctional culture: Exploring the role of U.S.-Norway
exchange in placing health and well-being at the center of U.S.
prison reform” (with Cyrus Ahalt, Brie Williams, and Kim
Ekhaugen), American Journal of Public Health, in press.
“Solitary Confinement, Loneliness, and Psychological Harm,” in
Jules Lobel and Peter Scharff Smith (Eds.), Solitary Confinement:
Effects, Practices, and Pathways to Reform. New York: Oxford
University Press, in press.

2018

“Restricting the Use of Solitary Confinement,” Annual Review of
Criminology, 1, 285-310.
“Death Qualification in Black and White: Racialized DecisionMaking and Death-Qualified Juries” (with Mona Lynch), Law &
Policy, in press.
“Balancing the Rights to Protection and Participation: A Call for
Expanded Access to Ethically Conducted Correctional Research.
Journal of General Internal Medicine, 33(22).
DOI: 10.1007/s11606-018-4318-9.
“The Plight of Long-Term Mentally-Ill Prisoners” (with Camille
Conrey and Roxy Davis), in Kelly Frailing and Risdon Slate (Eds.),
The Criminalization of Mental Illness (pp. 163-180). Durham, NC:
Carolina Academic Press.
“The Psychological Effects of Solitary Confinement: A Systematic
Critique,” Crime and Justice, 47, 365-416.
“The Media’s Impact on the Right to a Fair Trial: A Content
Analysis of Pretrial Publicity in Capital Cases (with Shirin
Bakhshay), Psychology, Public Policy, and Law, 24, 326-346.

2017

“Mechanisms of Moral Disengagement and Prisoner Abuse” (with
Joanna Weill). Analyses of Social Issues and Public Policy, 17, 286318.
7

127a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 113 Page
of 2308 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9413

“‘Madness’ and Penal Confinement: Observations on Mental Illness
and Prison Pain,” Punishment and Society, 19, 310-326.
“Contexts of Ill-Treatment: The Relationship of Captivity and
Prison Confinement to Cruel, Inhuman, or Degrading Treatment
and Torture” (with Shirin Bakhshay), in Metin Başoğlu (Ed.),
Torture and Its Definition in International Law: An
Interdisciplinary Approach (pp.139-178). New York: Oxford.
Special Issue: “Translating Research into Policy to Advance
Correctional Health” (guest editor with B. Williams, C. Ahalt, S.
Allen, & J. Rich), Part II, International Journal of Prisoner Health,
13, 137-227.
“Reducing the Use and Impact of Solitary Confinement in
Corrections” (with Cyrus Ahalt, Sarah Rios, Matthew Fox, David
Farabee, and Brie Williams), International Journal of Prisoner
Health, 13, 41-48.
2016

“Examining Jail Isolation: What We Don’t Know Can Be Profoundly
Harmful” (with Joanna Weill, Shirin Bakhshay, and Tiffany
Winslow), The Prison Journal, 96, 126-152.
“On Structural Evil: Disengaging From Our Moral Selves,” Review
of the book Moral Disengagement: How People Do Harm and Live
With Themselves, by A. Bandura], PsycCRITIQUES, 61(8).

2015

“When Did Prisons Become Acceptable Mental Healthcare
Facilities?,” Report of the Stanford Law School Three Strikes
Project (with Michael Romano et al.) [available at:
http://law.stanford.edu/wpcontent/uploads/sites/default/files/childpage/632655/doc/slspublic/Report_v12.pdf ].
“Emotion, Authority, and Death: (Raced) Negotiations in Capital
Jury Negotiations” (with Mona Lynch), Law & Social Inquiry, 40,
377-405.
“Prison Overcrowding,” in B. Cutler & P. Zapf (Eds.), APA
Handbook of Forensic Psychology (pp. 415-436). Washington, DC:
APA Books.

8

128a
Case 1:19-cv-03570-TSC Document
Document55-2
23-6(ExFiled
06/22/20
Page 114 Page
of 2309 of 40
Case 2:19-cv-00414-JPH-DLP
Parte)
Filed 10/25/19
PageID #: 9414

“The Death Penalty” (with Joanna Weill & Mona Lynch), in B.
Cutler & P. Zapf (Eds.), APA Handbook of Forensic Psychology (pp.
451-510). Washington, DC: APA Books.
“‘Prisonization’ and Latinas in Alternative High Schools” (with Aida
Hurtado & Ruby Hernandez), in J. Hall (Ed.), Routledge Studies in
Education and Neoliberalism: Female Students and Cultures of
Violence in the City (pp. 113-134). Florence, KY: Routledge.
2014

“How Healthcare Reform Can Transform the Health of Criminal
Justice-Involved Individuals” (with Josiah Rich, et al.), Health
Affairs, 33:3 (March), 1-6.

2013

“Foreword,” for H. Toch, Organizational Change Through
Individual Empowerment: Applying Social Psychology in Prisons
and Policing. Washington, DC: APA Books (in press).
“Foreword,” for J. Ashford & M. Kupferberg, Death Penalty
Mitigation: A Handbook for Mitigation Specialists, Investigators,
Social Scientists, and Lawyers. New York: Oxford University Press.

2012

“Politicizing Crime and Punishment: Redefining ‘Justice’ to Fight
the ‘War on Prisoners,’” West Virginia Law Review, 114, 373-414.
“Prison Effects in the Age of Mass Incarceration,” Prison Journal,
92, 1-24.
“The Psychological Effects of Imprisonment,” in J. Petersilia & K.
Reitz (Eds.), Oxford Handbook of Sentencing and Corrections (pp.
584-605). New York: Oxford University Press.

2011

“The Perversions of Prison: On the Origins of Hypermasculinity and
Sexual Violence in Confinement,” American Criminal Law Review,
48, 121-141. [Reprinted in: S. Ferguson (Ed.), Readings in Race,
Gender, Sexuality, and Social Class. Sage Publications (2012).]
“Mapping the Racial Bias of the White Male Capital Juror: Jury
Composition and the ‘Empathic Divide’” (with Mona Lynch), Law
and Society Review, 45, 69-102.
“Getting to the Point: Attempting to Improve Juror Comprehension
of Capital Penalty Phase Instructions" (with Amy Smith), Law and
Human Behavior, 35, 339-350.
9

129a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 115Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
10 of 40
PageID #: 9415

“Where the Boys Are: Macro and Micro Considerations for the
Study of Young Latino Men’s Educational Achievement” (with A.
Hurtado & J. Hurtado), in P. Noguera & A. Hurtado (Eds.),
Understanding the Disenfranchisement of Latino Males:
Contemporary Perspectives on Cultural and Structural Factors (pp.
101-121). New York: Routledge Press.
“Looking Across the Empathic Divide: Racialized Decision-Making
on the Capital Jury” (with Mona Lynch), Michigan State Law
Review, 2011, 573-608.
2010

“Demonizing the ‘Enemy’: The Role of Science in Declaring the
‘War on Prisoners,’” Connecticut Public Interest Law Review, 9,
139-196.
“Hiding From the Death Penalty,” Huffington Post, July 26, 2010
[www.huffingtonpost.com/craig-haney/hiding-from-the-deathpen-pen_b_659940.html]; reprinted in Sentencing and Justice
Reform Advocate, 2, 3 (February, 2011).

2009

“Capital Jury Deliberation: Effects on Death Sentencing,
Comprehension, and Discrimination” (with Mona Lynch), Law and
Human Behavior, 33, 481-496.
“The Social Psychology of Isolation: Why Solitary Confinement is
Psychologically Harmful,” Prison Service Journal UK (Solitary
Confinement Special Issue), Issue 181, 12-20. [Reprinted: California
Prison Focus, #36, 1, 14-15 (2011).]
“The Stanford Prison Experiment,” in John Levine & Michael Hogg
(Eds.), Encyclopedia of Group Processes and Intergroup Relations.
Thousand Oaks, CA: Sage Publications.
“Media Criminology and the Death Penalty,” DePaul Law Review,
58, 689-740. (Reprinted: Capital Litigation Update, 2010.)
“On Mitigation as Counter-Narrative: A Case Study of the Hidden
Context of Prison Violence,” University of Missouri-Kansas City
Law Review, 77, 911-946.
“Persistent Dispositionalism in Interactionist Clothing:
Fundamental Attribution Error in Explaining Prison Abuse,” (with
P. Zimbardo), Personality and Social Psychology Bulletin, 35, 807814.
10

130a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 116Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
11 of 40
PageID #: 9416

2008

“Counting Casualties in the War on Prisoners,” University of San
Francisco Law Review, 43, 87-138.
“Evolving Standards of Decency: Advancing the Nature and Logic of
Capital Mitigation,” Hofstra Law Review, 36, 835-882.
“A Culture of Harm: Taming the Dynamics of Cruelty in Supermax
Prisons,” Criminal Justice and Behavior, 35, 956-984.
“The Consequences of Prison Life: Notes on the New Psychology of
Prison Effects,” in D. Canter & R. Zukauskiene (Eds.), Psychology
and Law: Bridging the Gap (pp. 143-165). Burlington, VT: Ashgate
Publishing.
“The Stanford Prison Experiment,” in J. Bennett & Y. Jewkes (Eds.),
Dictionary of Prisons (pp. 278-280). Devon, UK: Willan Publishers.
“Capital Mitigation,” in Brian Cutler (Ed.), The Encyclopedia of
Psychology and the Law (pp. 60-63). Volume I. Thousand Oaks, CA:
Sage Publications.
Death Qualification of Juries,” in Brian Cutler (Ed.), The
Encyclopedia of Psychology and the Law (pp. 190-192). Volume I.
Thousand Oaks, CA: Sage Publications.
“Stanford Prison Experiment,” in Brian Cutler (Ed.), The
Encyclopedia of Psychology and the Law (pp. 756-757) (with P.
Zimbardo). Volume II. Thousand Oaks, CA: Sage Publications.
“Supermax Prisons,” in Brian Cutler (Ed.), The Encyclopedia of
Psychology and the Law (pp. 787-790). Volume II. Thousand Oaks,
CA: Sage Publications.

2006

“The Wages of Prison Overcrowding: Harmful Psychological
Consequences and Dysfunctional Correctional Reactions,”
Washington University Journal of Law & Policy, 22, 265-293.
[Reprinted in: N. Berlatsky, Opposing Viewpoints: America’s
Prisons. Florence, KY: Cengage Learning, 2010.]
“Exonerations and Wrongful Condemnations: Expanding the Zone
of Perceived Injustice in Capital Cases,” Golden Gate Law Review,
37, 131-173.

11

131a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 117Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
12 of 40
PageID #: 9417

“Preface,” D. Jones (Ed.), Humane Prisons. San Francisco, CA:
Radcliffe Medical Press.
2005

“The Contextual Revolution in Psychology and the Question of
Prison Effects,” in Alison Liebling and Shadd Maruna (Eds.), The
Effects of Imprisonment (pp. 66-93). Devon, UK: Willan
Publishing.
“Achieving Educational Equity: Beyond Individual Measures of
Merit,” (with A. Hurtado), Harvard Journal of Hispanic Policy, 17,
87-92.
“Conditions of Confinement for Detained Asylum Seekers Subject to
Expedited Removal,” in M. Hetfield (Ed.), Report on Asylum
Seekers in Expedited Removal. Volume II: Expert Reports.
Washington, DC: United States Commission on International
Religious Freedom.

2004

“Special Issue on the Death Penalty in the United States” (co-edited
with R. Weiner), Psychology, Public Policy, and Law, 10, 374-621.
“Death Is Different: An Editorial Introduction” (with R. Wiener),
Psychology, Public Policy, and Law, 10, 374-378.
“The Death Penalty in the United States: A Crisis of Conscience”
(with R. Wiener), Psychology, Public Policy, and Law, 10, 618-621.
“Condemning the Other in Death Penalty Trials: Biographical
Racism, Structural Mitigation, and the Empathic Divide,” DePaul
Law Review, 53, 1557-1590.
“Capital Constructions: Newspaper Reporting in Death Penalty
Cases” (with S. Greene), Analyses of Social Issues and Public Policy
(ASAP), 4, 1-22.
“Abu Ghraib and the American Prison System,” The
Commonwealth, 98 (#16), 40-42.
“Disciplinary Segregation,” in Mary Bosworth (Ed.), Encyclopedia
of U.S. Prisons and Correctional Facilities (240-244). Volume 1.
Thousand Oaks, CA: Sage Publications.
“Super-Maximum Secure Prisons,” in Mary Bosworth (Ed.),
Encyclopedia of U.S. Prisons and Correctional Facilities (pp. 938944). Volume 2. Thousand Oaks, CA: Sage Publications.
12

132a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 118Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
13 of 40
PageID #: 9418

2003

“Mental Health Issues in Long-Term Solitary and ‘Supermax’
Confinement,” Crime & Delinquency (special issue on mental health
and the criminal justice system), 49, 124-156. [Reprinted in:
Roesch, R., & Gagnon, N. (Eds.), Psychology and Law: Criminal and
Civil Perspectives. Hampshire, UK: Ashgate (2007).]
“The Psychological Impact of Incarceration: Implications for PostPrison Adjustment,” in Travis, J., & Waul, M. (Eds.), Prisoners
Once Removed: The Impact of Incarceration and Reentry on
Children, Families, and Communities (pp. 33-66). Washington, DC:
Urban Institute Press.
“Comments on “Dying Twice”: Death Row Confinement in the Age
of the Supermax,” Capital University Law Review.

2002

“Making Law Modern: Toward a Contextual Model of Justice,
Psychology, Public Policy, and Law, 7, 3-63.
“Psychological Jurisprudence: Taking Psychology and Law into the
Twenty-First Century,” (with John Darley, Sol Fulero, and Tom
Tyler), in J. Ogloff (Ed.), Taking Psychology and Law into the
Twenty-First Century (pp. 35-59). New York: Kluwer Academic/
Plenum Publishing.
“Science, Law, and Psychological Injury: The Daubert Standards
and Beyond,” (with Amy Smith), in Schultz, I., Brady, D., and
Carella, S., The Handbook of Psychological Injury (pp. 184-201).
Chicago, IL: American Bar Association. [CD-ROM format]

2001

“Vulnerable Offenders and the Law: Treatment Rights in Uncertain
Legal Times” (with D. Specter). In J. Ashford, B. Sales, & W. Reid
(Eds.), Treating Adult and Juvenile Offenders with Special Needs
(pp. 51-79). Washington, D.C.: American Psychological Association.
“Afterword,” in J. Evans (Ed.), Undoing Time (pp. 245-256).
Boston, MA: Northeastern University Press.

2000

“Discrimination and Instructional Comprehension: Guided
Discretion, Racial Bias, and the Death Penalty” (with M. Lynch),
Law and Human Behavior, 24, 337-358.

13

133a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 119Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
14 of 40
PageID #: 9419

“Cycles of Pain: Risk Factors in the Lives of Incarcerated Women
and Their Children,” (with S. Greene and A. Hurtado), Prison
Journal, 80, 3-23.
1999

“Reflections on the Stanford Prison Experiment: Genesis,
Transformations, Consequences (‘The SPE and the Analysis of
Institutions’),” In Thomas Blass (Ed.), Obedience to Authority:
Current Perspectives on the Milgram Paradigm (pp. 221-237).
Hillsdale, NJ: Erlbaum.
“Ideology and Crime Control,” American Psychologist, 54, 786-788.

1998

“The Past and Future of U.S. Prison Policy: Twenty-Five Years
After the Stanford Prison Experiment,” (with P. Zimbardo),
American Psychologist, 53, 709-727. [Reprinted in special issue of
Norweigian journal as: USAs fengselspolitikk i fortid og fremtid,
Vardoger, 25, 171-183 (2000); in H. Tischler (Ed.), Debating Points:
Crime and Punishment. Englewood Cliffs, NJ: Prentice-Hall (2001);
Annual Editions: Criminal Justice. Guilford, CT: Dushkin/McGrawHill, in press; Herman, Peter (Ed.), The American Prison System
(pp. 17-43) (Reference Shelf Series). New York: H.W. Wilson
(2001); and in Edward Latessa & Alexander Holsinger (Eds.),
Correctional Contexts: Contemporary and Classical Readings.
Fourth Edition. Oxford University Press (2010).]
“Riding the Punishment Wave: On the Origins of Our Devolving
Standards of Decency,” Hastings Women’s Law Journal, 9, 27-78.
“Becoming the Mainstream: “Merit,” Changing Demographics, and
Higher Education in California” (with A. Hurtado and E. Garcia), La
Raza Law Journal, 10, 645-690.

1997

“Regulating Prisons of the Future: A Psychological Analysis of
Supermax and Solitary Confinement,” (with M. Lynch), New York
University Review of Law and Social Change, 23, 477-570.
“Psychology and the Limits to Prison Pain: Confronting the Coming
Crisis in Eighth Amendment Law,” Psychology, Public Policy, and
Law, 3, 499-588.
“Commonsense Justice and the Death Penalty: Problematizing the
‘Will of the People,’” Psychology, Public Policy, and Law, 3, 303337.

14

134a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 120Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
15 of 40
PageID #: 9420

“Violence and the Capital Jury: Mechanisms of Moral
Disengagement and the Impulse to Condemn to Death,” Stanford
Law Review, 49, 1447-1486.
“Mitigation and the Study of Lives: The Roots of Violent Criminality
and the Nature of Capital Justice.” In James Acker, Robert Bohm,
and Charles Lanier, America’s Experiment with Capital
Punishment: Reflections on the Past, Present, and Future of the
Ultimate Penal Sanction. Durham, NC: Carolina Academic Press,
343-377.
“Clarifying Life and Death Matters: An Analysis of Instructional
Comprehension and Penalty Phase Arguments” (with M. Lynch),
Law and Human Behavior, 21, 575-595.
“Psychological Secrecy and the Death Penalty: Observations on ‘the
Mere Extinguishment of Life,’” Studies in Law, Politics, and Society,
16, 3-69.
1995

“The Social Context of Capital Murder: Social Histories and the
Logic of Capital Mitigation,” Santa Clara Law Review, 35, 547-609.
[Reprinted in part in David Papke (Ed.), Law and Popular Culture,
Lexis/Nexis Publications, 2011)].
“Taking Capital Jurors Seriously,” Indiana Law Journal, 70, 12231232.
“Death Penalty Opinion: Myth and Misconception,” California
Criminal Defense Practice Reporter, 1995(1), 1-7.

1994

“The Jurisprudence of Race and Meritocracy: Standardized Testing
and ‘Race-Neutral’ Racism in the Workplace,” (with A. Hurtado),
Law and Human Behavior, 18, 223-248.
“Comprehending Life and Death Matters: A Preliminary Study of
California’s Capital Penalty Instructions” (with M. Lynch), Law and
Human Behavior, 18, 411-434.
“Felony Voir Dire: An Exploratory Study of Its Content and Effect,”
(with C. Johnson), Law and Human Behavior, 18, 487-506.
“Broken Promise: The Supreme Court’s Response to Social Science
Research on Capital Punishment” (with D. Logan), Journal of Social
Issues (special issue on the death penalty in the United States), 50,
75-101.
15

135a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 121Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
16 of 40
PageID #: 9421

“Deciding to Take a Life: Capital Juries, Sentencing Instructions,
and the Jurisprudence of Death” (with L. Sontag and S. Costanzo),
Journal of Social Issues (special issue on the death penalty in the
United States), 50, 149-176. [Reprinted in Koosed, M. (Ed.), Capital
Punishment. New York: Garland Publishing (1995).]
“Modern’ Death Qualification: New Data on Its Biasing Effects,”
(with A. Hurtado and L. Vega), Law and Human Behavior, 18, 619633.
“Processing the Mad, Badly,” Contemporary Psychology, 39, 898899.
“Language is Power,” Contemporary Psychology, 39, 1039-1040.
1993

“Infamous Punishment: The Psychological Effects of Isolation,”
National Prison Project Journal, 8, 3-21. [Reprinted in Marquart,
James & Sorensen, Jonathan (Eds.), Correctional Contexts:
Contemporary and Classical Readings (pp. 428-437). Los Angeles:
Roxbury Publishing (1997); Alarid, Leanne & Cromwell, Paul (Eds.),
Correctional Perspectives: Views from Academics, Practitioners,
and Prisoners (pp. 161-170). Los Angeles: Roxbury Publishing
(2001).]
“Psychology and Legal Change: The Impact of a Decade,” Law and
Human Behavior, 17, 371-398. [Reprinted in: Roesch, R., & Gagnon,
N. (Eds.), Psychology and Law: Criminal and Civil Perspectives.
Hampshire, UK: Ashgate (2007).]

1992

“Death Penalty Attitudes: The Beliefs of Death-Qualified
Californians,” (with A. Hurtado and L. Vega). Forum, 19, 43-47.
“The Influence of Race on Sentencing: A Meta-Analytic Review of
Experimental Studies.” (with L. Sweeney). Special issue on
Discrimination and the Law. Behavioral Science and Law, 10, 179195.

1991

“The Fourteenth Amendment and Symbolic Legality: Let Them Eat
Due Process,” Law and Human Behavior, 15, 183-204.

1988

“In Defense of the Jury,” Contemporary Psychology, 33, 653-655.

16

136a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 122Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
17 of 40
PageID #: 9422

1986

“Civil Rights and Institutional Law: The Role of Social Psychology
in Judicial Implementation,” (with T. Pettigrew), Journal of
Community Psychology, 14, 267-277.

1984

“Editor’s Introduction. Special Issue on Death Qualification,” Law
and Human Behavior, 8, 1-6.
“On the Selection of Capital Juries: The Biasing Effects of Death
Qualification,” Law and Human Behavior, 8, 121-132.
“Examining Death Qualification: Further Analysis of the Process
Effect,” Law and Human Behavior, 8, 133-151.
“Evolving Standards and the Capital Jury,” Law and Human
Behavior, 8, 153-158.
“Postscript,” Law and Human Behavior, 8, 159.
“Social Factfinding and Legal Decisions: Judicial Reform and the
Use of Social Science.” In Muller, D., Blackman, D., and Chapman,
A. (Eds.), Perspectives in Psychology and Law. New York: John
Wiley, pp. 43-54.

1983

“The Future of Crime and Personality Research: A Social
Psychologist’s View,” in Laufer, W. and Day, J. (Eds.), Personality
Theory, Moral Development, and Criminal Behavioral Behavior.
Lexington, Mass.: Lexington Books, pp. 471-473.
“The Good, the Bad, and the Lawful: An Essay on Psychological
Injustice,” in Laufer, W. and Day, J. (Eds.), Personality Theory,
Moral Development, and Criminal Behavior. Lexington, Mass.:
Lexington Books, pp. 107-117.
“Ordering the Courtroom, Psychologically,” Jurimetrics, 23, 321324.

1982

“Psychological Theory and Criminal Justice Policy: Law and
Psychology in the ‘Formative Era,’” Law and Human Behavior, 6,
191-235. [Reprinted in Presser, S. and Zainaldin, J. (Eds.), Law and
American History: Cases and Materials. Minneapolis, MN: West
Publishing, 1989; and in C. Kubrin, T. Stucky & A. Tynes (Eds.)
Introduction to Criminal Justice: A Sociological Perspective. Palo
Alto, CA: Stanford University Press (2012).]
17

137a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 123Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
18 of 40
PageID #: 9423

“Data and Decisions: Social Science and Judicial Reform,” in P.
DuBois (Ed.), The Analysis of Judicial Reform. Lexington, Mass.:
D.C. Heath, pp. 43-59.
“Employment Tests and Employment Discrimination: A Dissenting
Psychological Opinion,” Industrial Relations Law Journal, 5, pp. 186.
“To Polygraph or Not: The Effects of Preemployment Polygraphing
on Work-Related Attitudes,” (with L. White and M. Lopez),
Polygraph, 11, 185-199.
1981

“Death Qualification as a Biasing Legal Process,” The Death Penalty
Reporter, 1 (10), pp. 1-5. [Reprinted in Augustus: A Journal of
Progressive Human Sciences, 9(3), 9-13 (1986).]

1980

“Juries and the Death Penalty: Readdressing the Witherspoon
Question,” Crime and Delinquency, October, pp. 512-527.
“Psychology and Legal Change: On the Limits of a Factual
Jurisprudence,” Law and Human Behavior, 6, 191-235. [Reprinted
in Loh, Wallace (Ed.), Social Research and the Judicial Process.
New York: Russell Sage, 1983.]
“The Creation of Legal Dependency: Law School in a Nutshell”
(with M. Lowy), in R. Warner (Ed.), The People’s Law Review.
Reading, Mass.: Addison-Wesley, pp. 36-41.
“Television Criminology: Network Illusions of Criminal Justice
Realities” (with J. Manzolati), in E. Aronson (Ed.), Readings on the
Social Animal. San Francisco, W.H. Freeman, pp. 125-136.

1979

“A Psychologist Looks at the Criminal Justice System,” in A. Calvin
(Ed.), Challenges and Alternatives to the Criminal Justice System.
Ann Arbor: Monograph Press, pp. 77-85.
“Social Psychology and the Criminal Law,” in P. Middlebrook (Ed.),
Social Psychology and Modern Life. New York: Random House, pp.
671-711.
“Bargain Justice in an Unjust World: Good Deals in the Criminal
Courts” (with M. Lowy), Law and Society Review, 13, pp. 633-650.

18

138a

Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 124Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
19 of 40
PageID #: 9424

[Reprinted in Kadish, Sanford and Paulsen, Robert (Eds.), Criminal
Law and Its Processes. Boston: Little, Brown, 1983.]
1977

“Prison Behavior” (with P. Zimbardo), in B. Wolman (Ed.), The
Encyclopedia of Neurology, Psychiatry, Psychoanalysis, and
Psychology, Vol. IX, pp. 70-74.
“The Socialization into Criminality: On Becoming a Prisoner and a
Guard” (with P. Zimbardo), in J. Tapp and F. Levine (Eds.), Law,
Justice, and the Individual in Society: Psychological and Legal
Issues (pp. 198-223). New York: Holt, Rinehart, and Winston.

1976

“The Play’s the Thing: Methodological Notes on Social
Simulations,” in P. Golden (Ed.), The Research Experience, pp. 177190. Itasca, IL: Peacock.

1975

“The Blackboard Penitentiary: It’s Tough to Tell a High School from
a Prison” (with P. Zimbardo). Psychology Today, 26ff.
“Implementing Research Results in Criminal Justice Settings,”
Proceedings, Third Annual Conference on Corrections in the U.S.
Military, Center for Advanced Study in the Behavioral Sciences,
June 6-7.
“The Psychology of Imprisonment: Privation, Power, and
Pathology” (with P. Zimbardo, C. Banks, and D. Jaffe), in D.
Rosenhan and P. London (Eds.), Theory and Research in Abnormal
Psychology. New York: Holt Rinehart, and Winston. [Reprinted
in: Rubin, Z. (Ed.), Doing Unto Others: Joining, Molding,
Conforming, Helping, Loving. Englewood Cliffs: Prentice-Hall,
1974. Brigham, John, and Wrightsman, Lawrence (Eds.)
Contemporary Issues in Social Psychology. Third Edition.
Monterey: Brooks/Cole, 1977. Calhoun, James Readings, Cases,
and Study Guide for Psychology of Adjustment and Human
Relationships. New York: Random House, 1978; translated as: La
Psicologia del encarcelamiento: privacion, poder y patologia,
Revisita de Psicologia Social, 1, 95-105 (1986).]

1973

“Social Roles, Role-Playing, and Education” (with P. Zimbardo),
The Behavioral and Social Science Teacher, Fall, 1(1), pp. 24-45.
[Reprinted in: Zimbardo, P., and Maslach, C. (Eds.) Psychology For
Our Times. Glenview, Ill.: Scott, Foresman, 1977. Hollander, E.

19

139a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 125Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
20 of 40
PageID #: 9425

and Hunt, R. (Eds.) Current Perspectives in Social Psychology.
Third Edition. New York: Oxford University Press, 1978.]
“The Mind is a Formidable Jailer: A Pirandellian Prison” (with P.
Zimbardo, C. Banks, and D. Jaffe), The New York Times Magazine,
April 8, Section 6, 38-60. [Reprinted in Krupat, E. (Ed.),
Psychology Is Social: Readings and Conversations in Social
Psychology. Glenview, Ill.: Scott, Foresman, 1982.]
“Interpersonal Dynamics in a Simulated Prison” (with C. Banks and
P. Zimbardo), International Journal of Criminology and Penology,
1, pp. 69-97. [Reprinted in: Steffensmeier, Darrell, and Terry,
Robert (Eds.) Examining Deviance Experimentally. New York:
Alfred Publishing, 1975; Golden, P. (Ed.) The Research Experience.
Itasca, Ill.: Peacock, 1976; Leger, Robert (Ed.) The Sociology of
Corrections. New York: John Wiley, 1977; A kiserleti tarsadalomlelektan foarma. Budapest, Hungary: Gondolat Konyvkiado, 1977;
Johnston, Norman, and Savitz, L. Justice and Corrections. New
York: John Wiley, 1978; Research Methods in Education and Social
Sciences. The Open University, 1979; Goldstein, J. (Ed.), Modern
Sociology. British Columbia: Open Learning Institute, 1980; Ross,
Robert R. (Ed.), Prison Guard/ Correctional Officer: The Use and
Abuse of Human Resources of Prison. Toronto: Butterworth’s 1981;
Monahan, John, and Walker, Laurens (Eds.), Social Science in Law:
Cases, Materials, and Problems. Foundation Press, 1985: Siuta,
Jerzy (Ed.), The Context of Human Behavior. Jagiellonian
University Press, 2001; Ferguson, Susan (Ed.), Mapping the Social
Landscape: Readings in Sociology. St. Enumclaw, WA: Mayfield
Publishing, 2001 & 2010; Pethes, Nicolas (Ed.), Menschenversuche
(Experiments with Humans). Frankfurt, Germany: Suhrkamp
Verlag, 2006.]
“A Study of Prisoners and Guards” (with C. Banks and P.
Zimbardo). Naval Research Reviews, 1-17. [Reprinted in Aronson,
E. (Ed.) Readings About the Social Animal. San Francisco: W.H.
Freeman, 1980; Gross, R. (Ed.) Key Studies in Psychology. Third
Edition. London: Hodder & Stoughton, 1999; Collier, C. (Ed.), Basic
Themes in Law and Jurisprudence. Anderson Publishing, 2000.]

MEMBERSHIP/ACTIVITIES IN PROFESSIONAL ASSOCIATIONS
American Psychological Association
American Psychology and Law Society

20

140a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 126Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
21 of 40
PageID #: 9426

Law and Society Association
National Council on Crime and Delinquency
INVITED ADDRESSES AND PAPERS PRESENTED AT PROFESSIONAL ACADEMIC
MEETINGS AND RELATED SETTINGS (SELECTED)

2016

“The Culture of Punishment,” American Justice Summit, New York,
January.
“Mental Illness and Prison Confinement,” Conference on Race,
Class, Gender and Ethnicity (CRCGE), University of North Carolina
Law School, Chapel Hill, NC, February.
“Reforming the Treatment of California’s Mentally Ill Prisoners:
Coleman and Beyond,” Meeting of the UC Consortium on Criminal
Justice & Health, San Francisco, April.
“Bending Toward Justice? The Urgency (and Possibility) of
Criminal Justice Reform,” UC Santa Cruz Alumni Association
“Original Thinkers” Series, San Jose, CA (March), and Museum of
Tolerance, Los Angeles (April).
“Isolation and Mental Health,” International and Inter-Disciplinary
Perspectives on Prolonged Solitary Confinement, University of
Pittsburgh Law School, Pittsburgh, PA, April.
“Mechanisms of Moral Disengagement in the Treatment of
Prisoners” (with Joanna Weill), Conference of the Society for the
Study of Social Issues, Minneapolis, June.

2015

“Reforming the Criminal Justice System,” Bipartisan Summit on
Criminal Justice Reform, American Civil Liberties Union/Koch
Industries co-sponsored, Washington, DC, March.
“PrisonWorld: How Mass Incarceration Transformed U.S. Prisons,
Impacted Prisoners, and Changed American Society,” Distinguished
Faculty Research Lecture, UC Santa Cruz, March.
“Think Different, About Crime and Punishment,” Invited Lecture,
UC Santa Cruz 50th Anniversary Alumni Reunion, April.

21

141a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 127Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
22 of 40
PageID #: 9427

“The Intellectual Legacy of the Civil Rights Movement: Two FiftyYear Anniversaries,” College 10 Commencement Address, June.
“Race and Capital Mitigation,” Perspectives on Racial and Ethnic
Bias for Capital and Non-Capital Lawyers, New York, September.
“The Dimensions of Suffering in Solitary Confinement,” Vera
Institute of Justice, “Safe Alternatives to Solitary Confinement-A
Human Dignity Approach” Conference, Washington, DC,
September.
“Mental Health and Administrative Segregation,” Topical Working
Group on the Use of Administrative Segregation in the U.S.,
National Institute of Justice/Department of Justice, Washington,
DC, October.
“The Psychological Effects of Segregated Confinement,” Ninth
Circuit Court of Appeals “Corrections Summit,” Sacramento, CA,
November.
“How Can the University of California Address Mass Incarceration
in California and Beyond?,” Keynote Address, Inaugural Meeting of
the UC Consortium on Criminal Justice & Health, San Francisco,
November.
2014

“Solitary Confinement: Legal, Clinical, and Neurobiological
Perspectives,” American Association for the Advancement of
Science (AAAS), Chicago, IL February.
“Overcrowding, Isolation, and Mental Health Care, Prisoners’
Access to Justice: Exploring Legal, Medical, and Educational
Rights,” University of California, School of Law, Irvine, CA,
February.
“The Continuing Significance of Death Qualification” (with Joanna
Weill), Annual Conference of the American Psychology-Law Society,
New Orleans, March.
“Using Psychology at Multiple Levels to Transform Adverse
Conditions of Confinement,” Society for the Study of Social Issues
Conference, Portland, OR, June.
“Humane and Effective Alternatives to Isolated Confinement,”
American Civil Liberties Union National Prison Project Convening
on Solitary Confinement, Washington, DC, September.

22

142a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 128Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
23 of 40
PageID #: 9428

“Community of Assessment of Public Safety,” Community
Assessment Project of Santa Cruz County, Year 20, Cabrillo College,
November.
“Overview of National Academy of Sciences Report on Causes and
Consequences of High Rates of Incarceration,” Chief Justice Earl
Warren Institute on Law & Social Policy, Boalt Hall Law School,
Berkeley, CA, November.
“Presidential Panel, Overview of National Academy of Sciences
Report on Causes and Consequences of High Rates of
Incarceration,” American Society for Criminology, San Francisco,
November.
“Presidential Panel, National Academy of Sciences Report on
Consequences of High Rates of Incarceration on Individuals,”
American Society for Criminology, San Francisco, November.
“Findings of National Academy of Sciences Committee on the
Causes and Consequences of High Rates of Incarceration,”
Association of Public Policy Analysis and Management Convention
(APPAM), Albuquerque, NM, November.
“Politics and the Penal State: Mass Incarceration and American
Society,” New York University Abu Dhabi International Scholars
Program, Abu Dhabi, United Arab Emirates, December.
2013

“Isolation and Mental Health,” Michigan Journal of Race and Law
Symposium, University of Michigan School of Law, Ann Arbor, MI,
February.
“Social Histories of Capital Defendants” (with Joanna Weill),
Annual Conference of Psychology-Law Society, Portland, OR,
March.
“Risk Factors and Trauma in the Lives of Capital Defendants” (with
Joanna Weill), American Psychological Association Annual
Convention, Honolulu, HI, August.
“Bending Toward Justice: Psychological Science and Criminal
Justice Reform,” Invited Plenary Address, American Psychological
Association Annual Convention, Honolulu, HI, August.
“Severe Conditions of Confinement and International Torture
Standards,” Istanbul Center for Behavior Research and Therapy,
Istanbul, Turkey, December.
23

143a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 129Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
24 of 40
PageID #: 9429

2012

“The Psychological Consequences of Long-term Solitary
Confinement,” Joint Yale/Columbia Law School Conference on
Incarceration and Isolation, New York, April.
“The Creation of the Penal State in America,” Managing Social
Vulnerability: The Welfare and Penal System in Comparative
Perspective, Central European University, Budapest, Hungary, July.

2011

“Tensions Between Psychology and the Criminal Justice System: On
the Persistence of Injustice,” opening presentation, “A Critical Eye
on Criminal Justice” lecture series, Golden Gate University Law
School, San Francisco, CA, January.
“The Decline in Death Penalty Verdicts and Executions: The Death
of Capital Punishment?” Presentation at “A Legacy of Justice” week,
at the University of California, Davis King Hall Law School, Davis,
CA, January.
“Invited Keynote Address: The Nature and Consequences of Prison
Overcrowding—Urgency and Implications,” West Virginia School of
Law, Morgantown, West Virginia, March.
“Symposium: The Stanford Prison Experiment—Enduring Lessons
40 Years Later,” American Psychological Association Annual
Convention, Washington, DC, August.
“The Dangerous Overuse of Solitary Confinement: Pervasive
Human Rights Violations in Prisons, Jails, and Other Places of
Detention” Panel, United Nations, New York, New York, October.
“Criminal Justice Reform: Issues and Recommendation,” United
States Congress, Washington, DC, November.

2010

“The Hardening of Prison Conditions,” Opening Address, “The
Imprisoned” Arthur Liman Colloquium Public Interest Series, Yale
Law School, New Haven, CN, March.
“Desensitization to Inhumane Treatment: The Pitfalls of Prison
Work,” panel presentation at “The Imprisoned” Arthur Liman
Colloquium Public Interest Series, Yale Law School, New Haven,
CN, March.

24

144a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 130Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
25 of 40
PageID #: 9430

“Mental Ill Health in Immigration Detention,” Department of
Homeland Security/DOJ Office for Civil Rights and Civil Liberties,
Washington, DC, September.
2009

“Counting Casualties in the War on Prisoners,” Keynote Address, at
“The Road to Prison Reform: Treating the Causes and Conditions of
Our Overburdened System,” University of Connecticut Law School,
Hartford, CN, February.
“Defining the Problem in California’s Prison Crisis: Overcrowding
and Its Consequences,” California Correctional Crisis Conference,”
Hastings Law School, San Francisco, CA, March.

2008

“Prisonization and Contemporary Conditions of Confinement,”
Keynote Address, Women Defenders Association, Boalt Law School,
University of California, November.
“Media Criminology and the Empathic Divide: The Continuing
Significance of Race in Capital Trials,” Invited Address, Media,
Race, and the Death Penalty Conference, DePaul University School
of Law, Chicago, IL, March.
“The State of the Prisons in California,” Invited Opening Address,
Confronting the Crisis: Current State Initiatives and Lasting
Solutions for California’s Prison Conditions Conference, University
of San Francisco School of Law, San Francisco, CA, March.
“Mass Incarceration and Its Effects on American Society,” Invited
Opening Address, Behind the Walls Prison Law Symposium,
University of California Davis School of Law, Davis, CA, March.

2007

“The Psychology of Imprisonment: How Prison Conditions Affect
Prisoners and Correctional Officers,” United States Department of
Justice, National Institute of Corrections Management Training for
“Correctional Excellence” Course, Denver, CO, May.
“Statement on Psychologists, Detention, and Torture,” Invited
Address, American Psychological Association Annual Convention,
San Francisco, CA, August.
“Prisoners of Isolation,” Invited Address, University of Indiana Law
School, Indianapolis, IN, October.

25

145a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 131Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
26 of 40
PageID #: 9431

“Mitigation in Three Strikes Cases,” Stanford Law School, Palo Alto,
CA, September.
“The Psychology of Imprisonment,” Occidental College, Los
Angeles, CA, November.
2006

“Mitigation and Social Histories in Death Penalty Cases,” Ninth
Circuit Federal Capital Case Committee, Seattle, WA, May.
“The Crisis in the Prisons: Using Psychology to Understand and
Improve Prison Conditions,” Invited Keynote Address, Psi Chi
(Undergraduate Psychology Honor Society) Research Conference,
San Francisco, CA, May.
“Exoneration and ‘Wrongful Condemnation’: Why Juries Sentence
to Death When Life is the Proper Verdict,” Faces of Innocence
Conference, UCLA Law School, April.
“The Continuing Effects of Imprisonment: Implications for Families
and Communities,” Research and Practice Symposium on
Incarceration and Marriage, United States Department of Health
and Human Services, Washington, DC, April.
“Ordinary People, Extraordinary Acts,” National Guantanamo
Teach In, Seton Hall School of Law, Newark, NJ, October.
“The Next Generation of Death Penalty Research,” Invited Address,
State University of New York, School of Criminal Justice, Albany,
NY, October.

2005

“The ‘Design’ of the System of Death Sentencing: Systemic Forms of
‘Moral Disengagement in the Administration of Capital
Punishment, Scholar-in-Residence, invited address, Center for
Social Justice, Boalt Hall School of Law (Berkeley), March.
“Humane Treatment for Asylum Seekers in U.S. Detention
Centers,” United States House of Representatives, Washington, DC,
March.
“Prisonworld: What Overincarceration Has Done to Prisoners and
the Rest of Us,” Scholar-in-Residence, invited address, Center for
Social Justice, Boalt Hall School of Law (Berkeley), March.

26

146a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 132Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
27 of 40
PageID #: 9432

“Prison Conditions and Their Psychological Effects on Prisoners,”
European Association for Psychology and Law, Vilnius, Lithuania,
July.
2004

“Recognizing the Adverse Psychological Effects of Incarceration,
With Special Attention to Solitary-Type Confinement and Other
Forms of ‘Ill-Treatment’ in Detention,” International Committee of
the Red Cross, Training Program for Detention Monitors, Geneva,
Switzerland, November.
“Prison Conditions in Post-“War on Crime” Era: Coming to Terms
with the Continuing Pains of Imprisonment,” Boalt Law School
Conference, After the War on Crime: Race, Democracy, and a New
Reconstruction, Berkeley, CA, October.
“Cruel and Unusual? The United States Prison System at the Start
of the 21st Century,” Invited speaker, Siebel Scholars Convocation,
University of Illinois, Urbana, IL, October.
“The Social Historical Roots of Violence: Introducing Life
Narratives into Capital Sentencing Procedures,” Invited
Symposium, XXVIII International Congress of Psychology, Beijing,
China, August.
“Death by Design: Capital Punishment as a Social Psychological
System,” Division 41 (Psychology and Law) Invited Address,
American Psychological Association Annual Convention, Honolulu,
HI, July.
“The Psychology of Imprisonment and the Lessons of Abu Ghraib,”
Commonwealth Club Public Interest Lecture Series, San Francisco,
May.
“Restructuring Prisons and Restructuring Prison Reform,” Yale Law
School Conference on the Current Status of Prison Litigation in the
United States, New Haven, CN, May.
“The Effects of Prison Conditions on Prisoners and Guards: Using
Psychological Theory and Data to Understand Prison Behavior,”
United States Department of Justice, National Institute of
Corrections Management Training Course, Denver, CO, May.
“The Contextual Revolution in Psychology and the Question of
Prison Effects: What We Know about How Prison Affects Prisoners
and Guards,” Cambridge University, Cambridge, England, April.

27

147a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 133Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
28 of 40
PageID #: 9433

“Death Penalty Attitudes, Death Qualification, and Juror
Instructional Comprehension,” American Psychology-Law Society,
Annual Conference, Scottsdale, AZ, March.
2003

“Crossing the Empathic Divide: Race Factors in Death Penalty
Decisionmaking,” DePaul Law School Symposium on Race and the
Death Penalty in the United States, Chicago, October.
“Supermax Prisons and the Prison Reform Paradigm,” PACE Law
School Conference on Prison Reform Revisited: The Unfinished
Agenda, New York, October.
“Mental Health Issues in Supermax Confinement,” European
Psychology and Law Conference, University of Edinburgh, Scotland,
July.
“Roundtable on Capital Punishment in the United States: The Key
Psychological Issues,” European Psychology and Law Conference,
University of Edinburgh, Scotland, July.
“Psychology and Legal Change: Taking Stock,” European
Psychology and Law Conference, University of Edinburgh, Scotland,
July.
“Economic Justice and Criminal Justice: Social Welfare and Social
Control,” Society for the Study of Social Issues Conference, January.
“Race, Gender, and Class Issues in the Criminal Justice System,”
Center for Justice, Tolerance & Community and Barrios Unidos
Conference, March.

2002

“The Psychological Effects of Imprisonment: Prisonization and
Beyond.” Joint Urban Institute and United States Department of
Health and Human Services Conference on “From Prison to Home.”
Washington, DC, January.
“On the Nature of Mitigation: Current Research on Capital Jury
Decisionmaking.” American Psychology and Law Society, MidWinter Meetings, Austin, Texas, March.
“Prison Conditions and Death Row Confinement.” New York Bar
Association, New York City, June.

28

148a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 134Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
29 of 40
PageID #: 9434

2001

“Supermax and Solitary Confinement: The State of the Research
and the State of the Prisons.” Best Practices and Human Rights in
Supermax Prisons: A Dialogue. Conference sponsored by University
of Washington and the Washington Department of Corrections,
Seattle, September.
“Mental Health in Supermax: On Psychological Distress and
Institutional Care.” Best Practices and Human Rights in Supermax
Prisons: A Dialogue. Conference sponsored by University of
Washington and the Washington Department of Corrections,
Seattle, September.
“On the Nature of Mitigation: Research Results and Trial Process
and Outcomes.” Boalt Hall School of Law, University of California,
Berkeley, August.
“Toward an Integrated Theory of Mitigation.” American
Psychological Association Annual Convention, San Francisco, CA,
August.
Discussant: “Constructing Class Identities—The Impact of
Educational Experiences.” American Psychological Association
Annual Convention, San Francisco, CA, August.
“The Rise of Carceral Consciousness.” American Psychological
Association Annual Convention, San Francisco, CA, August.

2000

“On the Nature of Mitigation: Countering Generic Myths in Death
Penalty Decisionmaking,” City University of New York Second
International Advances in Qualitative Psychology Conference,
March.
“Why Has U.S. Prison Policy Gone From Bad to Worse? Insights
From the Stanford Prison Study and Beyond,” Claremont
Conference on Women, Prisons, and Criminal Injustice, March.
“The Use of Social Histories in Capital Litigation,” Yale Law School,
April.
“Debunking Myths About Capital Violence,” Georgetown Law
School, April.
“Research on Capital Jury Decisionmaking: New Data on Juror
Comprehension and the Nature of Mitigation,” Society for Study of
Social Issues Convention, Minneapolis, June.

29

149a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 135Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
30 of 40
PageID #: 9435

“Crime and Punishment: Where Do We Go From Here?” Division 41
Invited Symposium, “Beyond the Boundaries: Where Should
Psychology and Law Be Taking Us?” American Psychological
Association Annual Convention, Washington, DC, August.
1999

“Psychology and the State of U.S. Prisons at the Millennium,”
American Psychological Association Annual Convention, Boston,
MA, August.
“Spreading Prison Pain: On the Worldwide Movement Towards
Incarcerative Social Control,” Joint American Psychology-Law
Society/European Association of Psychology and Law Conference,
Dublin, Ireland, July.

1998

“Prison Conditions and Prisoner Mental Health,” Beyond the Prison
Industrial Complex Conference, University of California, Berkeley,
September.
“The State of US Prisons: A Conversation,” International Congress
of Applied Psychology, San Francisco, CA, August.
“Deathwork: Capital Punishment as a Social Psychological System,”
Invited SPPSI Address, American Psychological Association Annual
Convention, San Francisco, CA, August.
“The Use and Misuse of Psychology in Justice Studies: Psychology
and Legal Change: What Happened to Justice?,” (panelist),
American Psychological Association Annual Convention, San
Francisco, CA, August.
“Twenty Five Years of American Corrections: Past and Future,”
American Psychology and Law Society, Redondo Beach, CA, March.

1997

“Deconstructing the Death Penalty,” School of Justice Studies,
Arizona State University, Tempe, AZ, October.
“Mitigation and the Study of Lives,” Invited Address to Division 41
(Psychology and Law), American Psychological Association Annual
Convention, Chicago, August.

1996

“The Stanford Prison Experiment and 25 Years of American Prison
Policy,” American Psychological Association Annual Convention,
Toronto, August.
30

150a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 136Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
31 of 40
PageID #: 9436

1995

“Looking Closely at the Death Penalty: Public Stereotypes and
Capital Punishment,” Invited Address, Arizona State University
College of Public Programs series on Free Speech, Affirmative
Action and Multiculturalism, Tempe, AZ, April.
“Race and the Flaws of the Meritocratic Vision,” Invited Address,
Arizona State University College of Public Programs series on Free
Speech, Affirmative Action and Multiculturalism, Tempe, AZ, April.
“Taking Capital Jurors Seriously,” Invited Address, National
Conference on Juries and the Death Penalty, Indiana Law School,
Bloomington, February.

1994

“Mitigation and the Social Genetics of Violence: Childhood
Treatment and Adult Criminality,” Invited Address, Conference on
the Capital Punishment, Santa Clara Law School, October, Santa
Clara.

1992

“Social Science and the Death Penalty,” Chair and Discussant,
American Psychological Association Annual Convention, San
Francisco, CA, August.

1991

“Capital Jury Decisionmaking,” Invited panelist, American
Psychological Association Annual Convention, Atlanta, GA, August.

1990

“Racial Discrimination in Death Penalty Cases,” Invited
presentation, NAACP Legal Defense Fund Conference on Capital
Litigation, August, Airlie, VA.

1989

“Psychology and Legal Change: The Impact of a Decade,” Invited
Address to Division 41 (Psychology and Law), American
Psychological Association Annual Convention, New Orleans, LA.,
August.
“Judicial Remedies to Pretrial Prejudice,” Law & Society Association
Annual Meeting, Madison, WI, June.
“The Social Psychology of Police Interrogation Techniques” (with R.
Liebowitz), Law & Society Association Annual Meeting, Madison,
WI, June.
31

151a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 137Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
32 of 40
PageID #: 9437

1987

“The Fourteenth Amendment and Symbolic Legality: Let Them Eat
Due Process,” APA Annual Convention, New York, N.Y. August.
“The Nature and Function of Prison in the United States and
Mexico: A Preliminary Comparison,” InterAmerican Congress of
Psychology, Havana, Cuba, July.

1986

Chair, Division 41 Invited Address and “Commentary on the
Execution Ritual,” APA Annual Convention, Washington, D.C.,
August.
“Capital Punishment,” Invited Address, National Association of
Criminal Defense Lawyers Annual Convention, Monterey, CA,
August.

1985

“The Role of Law in Graduate Social Science Programs” and
“Current Directions in Death Qualification Research,” American
Society of Criminology, San Diego, CA, November.
“The State of the Prisons: What’s Happened to ‘Justice’ in the ‘70s
and ‘80s?” Invited Address to Division 41 (Psychology and Law);
APA Annual Convention, Los Angeles, CA, August.

1983

“The Role of Social Science in Death Penalty Litigation.” Invited
Address in National College of Criminal Defense Death Penalty
Conference, Indianapolis, IN, September.

1982

“Psychology in the Court: Social Science Data and Legal DecisionMaking.” Invited Plenary Address, International Conference on
Psychology and Law, University College, Swansea, Wales, July.

1982

“Paradigms in Conflict: Contrasting Methods and Styles of
Psychology and Law.” Invited Address, Social Science Research
Council, Conference on Psychology and Law, Wolfson College,
Oxford University, March.

1982

“Law and Psychology: Conflicts in Professional Roles.” Invited
paper, Western Psychological Association Annual Meeting, April.

32

152a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 138Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
33 of 40
PageID #: 9438

1980

“Using Psychology in Test Case Litigation,” panelist, American
Psychological Association Annual Convention, Montreal, Canada,
September.
“On the Selection of Capital Juries: The Biasing Effects of Death
Qualification.” Paper presented at the Interdisciplinary Conference
on Capital Punishment. Georgia State University, Atlanta, GA,
April.
“Diminished Capacity and Imprisonment: The Legal and
Psychological Issues,” Proceedings of the American Trial Lawyers
Association, Mid-Winter Meeting, January.

1975

“Social Change and the Ideology of Individualism in Psychology and
Law.” Paper presented at the Western Psychological Association
Annual Meeting, April.

SERVICE TO STAFF OR EDITORIAL BOARDS OF FOUNDATIONS, SCHOLARLY
JOURNALS OR PRESSES
2016-present

Editorial Consultant, Translational Issues in Psychological
Science.

2015-present

Editorial Consultant, Criminal Justice Review.

2014-present

Editorial Board Member, Law and Social Inquiry.

2013-present

Editorial Consultant, Criminal Justice and Behavior.

2012-present

Editorial Consultant, Law and Society Review.

2011-present

Editorial Consultant, Social Psychological and Personality
Science.

2008-present

Editorial Consultant, New England Journal of Medicine.

2007-present

Editorial Board Member, Correctional Mental Health Reporter.

2007-present

Editorial Consultant, Journal of Offender Rehabilitation.

2004-present

Editorial Board Member, American Psychology and Law Society
Book Series, Oxford University Press.
33

153a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 139Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
34 of 40
PageID #: 9439

2000-2003

Reviewer, Society for the Study of Social Issues Grants-in-Aid
Program.

2000-present

Editorial Board Member, ASAP (on-line journal of the Society for
the Study of Social Issues)

1997-present

Editorial Board Member (until 2004), Consultant, Psychology,
Public Policy, and Law

1991

Editorial Consultant, Brooks/Cole Publishing

1989

Editorial Consultant, Journal of Personality and Social
Psychology

1988-

Editorial Consultant, American Psychologist

1985

Editorial Consultant, American Bar Foundation Research Journal

1985-2006

Law and Human Behavior, Editorial Board Member

1985

Editorial Consultant, Columbia University Press

1985

Editorial Consultant, Law and Social Inquiry

1980-present Reviewer, National Science Foundation
1997

Reviewer, National Institutes of Mental Health

1980-present Editorial Consultant, Law and Society Review
1979-1985

Editorial Consultant, Law and Human Behavior

1997-present

Editorial Consultant, Legal and Criminological Psychology

1993-present

Psychology, Public Policy, and Law, Editorial Consultant

GOVERNMENTAL, LEGAL AND CRIMINAL JUSTICE CONSULTING
Training Consultant, Palo Alto Police Department, 1973-1974.
Evaluation Consultant, San Mateo County Sheriff’s Department, 1974.

34

154a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 140Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
35 of 40
PageID #: 9440

Design and Training Consultant to Napa County Board of Supervisors, County
Sheriff’s Department (county jail), 1974.
Training Consultation, California Department of Corrections, 1974.
Consultant to California Legislature Select Committee in Criminal Justice, 1974,
1980-1981 (effects of prison conditions, evaluation of proposed prison
legislation).
Reviewer, National Science Foundation (Law and Social Science, Research
Applied to National Needs Programs), 1978-present.
Consultant, Santa Clara County Board of Supervisors, 1980 (effects of jail
overcrowding, evaluation of county criminal justice policy).
Consultant to Packard Foundation, 1981 (evaluation of inmate counseling and
guard training programs at San Quentin and Soledad prisons).
Member, San Francisco Foundation Criminal Justice Task Force, 1980-1982
(corrections expert).
Consultant to NAACP Legal Defense Fund, 1982- present (expert witness, case
evaluation, attorney training).
Faculty, National Judicial College, 1980-1983.
Consultant to Public Advocates, Inc., 1983-1986 (public interest litigation).
Consultant to California Child, Youth, Family Coalition, 1981-82 (evaluation of
proposed juvenile justice legislation).
Consultant to California Senate Office of Research, 1982 (evaluation of causes
and consequences of overcrowding in California Youth Authority
facilities).
Consultant, New Mexico State Public Defender, 1980-1983 (investigation of
causes of February, 1980 prison riot).
Consultant, California State Supreme Court, 1983 (evaluation of county jail
conditions).
Member, California State Bar Committee on Standards in Prisons and Jails, 1983.
Consultant, California Legislature Joint Committee on Prison Construction and
Operations, 1985.
Consultant, United States Bureau of Prisons and United States Department of the
35

155a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 141Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
36 of 40
PageID #: 9441

Interior (Prison History, Conditions of Confinement Exhibition, Alcatraz
Island), 1989-1991.
Consultant to United States Department of Justice, 1980-1990 (evaluation of
institutional conditions).
Consultant to California Judicial Council (judicial training programs), 2000.
Consultant to American Bar Association/American Association for Advancement
of Science Task Force on Forensic Standards for Scientific Evidence, 2000.
Invited Participant, White House Forum on the Uses of Science and Technology
to Improve Crime and Prison Policy, 2000.
Member, Joint Legislative/California Department of Corrections Task Force on
Violence, 2001.
Consultant, United States Department of Health & Human Services/Urban Institute,
“Effects of Incarceration on Children, Families, and Low-Income Communities”
Project, 2002.
Detention Consultant, United States Commission on International Religious Freedom
(USCRIF). Evaluation of Immigration and Naturalization Service Detention
Facilities, July, 2004-present.
Consultant, International Committee of the Red Cross, Geneva, Switzerland, Consultant
on international conditions of confinement.
Member, Institutional Research External Review Panel, California Department of
Corrections, November, 2004-2008.
Consultant, United States Department of Health & Human Services on programs
designed to enhance post-prison success and community reintegration, 2006.
Consultant/Witness, U.S. House of Representatives, Judiciary Committee, Evaluation of
legislative and budgetary proposals concerning the detention of undocumented
persons, February-March, 2005.
Invited Expert Witness to National Commission on Safety and Abuse in America’s
Prisons (Nicholas Katzenbach, Chair); Newark, New Jersey, July 19-20, 2005.
Testimony to the United States Senate, Judiciary Subcommittee on the
Constitution, Civil Rights, and Property Rights (Senators Brownback and
Feingold, co-chairs), Hearing on “An Examination of the Death Penalty in
the United States,” February 7, 2006.
National Council of Crime and Delinquency “Sentencing and Correctional Policy
36

156a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 142Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
37 of 40
PageID #: 9442

Task Force,” member providing written policy recommendations to the
California legislature concerning overcrowding crisis in the California
Department of Corrections and Rehabilitation.
Trainer/Instructor, Federal Bureau of Prisons and United States Department of Justice,
“Correctional Excellence” Program, providing instruction concerning conditions
of confinement and psychological stresses of living and working in correctional
environments to mid-level management corrections professionals, May, 20042008.
Invited Expert Witness, California Commission on the Fair Administration of Justice,
Public Hearing, Santa Clara University, March 28, 2008.
Invited Participant, Department of Homeland Security, Mental Health Effects of
Detention and Isolation, 2010.
Invited Witness, Before the California Assembly Committee on Public Safety,
August 23, 2011.
Consultant, “Reforming the Criminal Justice System in the United States” Joint
Working Group with Senator James Webb and Congressional Staffs, 2011
Developing National Criminal Justice Commission Legislation.
Invited Participant, United Nations, Forum with United Nations Special
Rapporteur on Torture Concerning the Overuse of Solitary Confinement,
New York, October, 2011.
Invited Witness, Before United States Senate Judiciary Subcommittee on the
Constitution, Civil Rights, and Human Rights Hearing on Solitary
Confinement, June 19, 2012.
Member, National Academy of Sciences Committee to Study the Causes and
Consequences of the High Rate of Incarceration in the United States,
2012-2014.
Member, National Academy of Sciences Briefing Group, briefed media and public
officials at Pew Research Center, Congressional staff, and White House staff
concerning policy implications of The Growth of Incarceration in the United
States: Exploring the Causes and Consequences (2014), April 30-May 1.
Consultant to United States Department of Justice and White House Domestic Policy
Council on formulation of federal policy concerning use of segregation
confinement, 2015.
PRISON AND JAIL CONDITIONS EVALUATIONS AND LITIGATION

37

157a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 143Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
38 of 40
PageID #: 9443

Hoptowit v. Ray [United States District Court, Eastern District of Washington,
1980; 682 F.2d 1237 (9th Cir. 1982)]. Evaluation of psychological effects of
conditions of confinement at Washington State Penitentiary at Walla Walla for
United States Department of Justice.
Wilson v. Brown (Marin Country Superior Court; September, 1982, Justice
Burke). Evaluation of effects of overcrowding on San Quentin mainline
inmates.
Thompson v. Enomoto (United States District Court, Northern District of
California, Judge Stanley Weigel, 1982 and continuing). Evaluation of
conditions of confinement on Condemned Row, San Quentin Prison.
Toussaint v. McCarthy [United States District Court, Northern District of
California, Judge Stanley Weigel, 553 F. Supp. 1365 (1983); 722 F. 2d 1490 (9th
Cir. 1984) 711 F. Supp. 536 (1989)]. Evaluation of psychological effects of
conditions of confinement in lockup units at DVI, Folsom, San Quentin, and
Soledad.
In re Priest (Proceeding by special appointment of the California Supreme
Court, Judge Spurgeon Avakian, 1983). Evaluation of conditions of
confinement in Lake County Jail.
Ruiz v. Estelle [United States District Court, Southern District of Texas, Judge
William Justice, 503 F. Supp. 1265 (1980)]. Evaluation of effects of
overcrowding in the Texas prison system, 1983-1985.
In re Atascadero State Hospital (Civil Rights of Institutionalized Persons Act of
1980 action). Evaluation of conditions of confinement and nature of patient
care at ASH for United States Department of Justice, 1983-1984.
In re Rock (Monterey County Superior Court 1984). Appointed to evaluate
conditions of confinement in Soledad State Prison in Soledad, California.
In re Mackey (Sacramento County Superior Court, 1985). Appointed to
evaluate conditions of confinement at Folsom State Prison mainline housing
units.
Bruscino v. Carlson (United States District Court, Southern District of Illinois
1984 1985). Evaluation of conditions of confinement at the United States
Penitentiary at Marion, Illinois [654 F. Supp. 609 (1987); 854 F.2d 162 (7th Cir.
1988)].
Dohner v. McCarthy [United States District Court, Central District of
California, 1984-1985; 636 F. Supp. 408 (1985)]. Evaluation of conditions of
confinement at California Men’s Colony, San Luis Obispo.
38

158a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 144Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
39 of 40
PageID #: 9444

Invited Testimony before Joint Legislative Committee on Prison Construction
and Operations hearings on the causes and consequences of violence at Folsom
Prison, June, 1985.
Stewart v. Gates [United States District Court, 1987]. Evaluation of conditions
of confinement in psychiatric and medical units in Orange County Main Jail,
Santa Ana, California.
Duran v. Anaya (United States District Court, 1987-1988). Evaluation of
conditions of confinement in the Penitentiary of New Mexico, Santa Fe, New
Mexico [Duran v. Anaya, No. 77-721 (D. N.M. July 17, 1980); Duran v. King, No.
77-721 (D. N.M. March 15, 1984)].
Gates v. Deukmejian (United States District Court, Eastern District of
California, 1989). Evaluation of conditions of confinement at California
Medical Facility, Vacaville, California.
Kozeak v. McCarthy (San Bernardino Superior Court, 1990). Evaluation of
conditions of confinement at California Institution for Women, Frontera,
California.
Coleman v. Gomez (United States District Court, Eastern District of California,
1992-3; Magistrate Moulds, Chief Judge Lawrence Karlton, 912 F. Supp. 1282
(1995). Evaluation of study of quality of mental health care in California prison
system, special mental health needs at Pelican Bay State Prison.
Madrid v. Gomez (United States District Court, Northern District of California,
1993, District Judge Thelton Henderson, 889 F. Supp. 1146 (N.D. Cal. 1995).
Evaluation of conditions of confinement and psychological consequences of
isolation in Security Housing Unit at Pelican Bay State Prison, Crescent City,
California.
Clark v. Wilson, (United States District Court, Northern District of California,
1998, District Judge Fern Smith, No. C-96-1486 FMS), evaluation of screening
procedures to identify and treatment of developmentally disabled prisoners in
California Department of Corrections.
Turay v. Seling [United States District Court, Western District of Washington
(1998)]. Evaluation of Conditions of Confinement-Related Issues in Special
Commitment Center at McNeil Island Correctional Center.
In re: The Commitment of Durden, Jackson, Leach, & Wilson. [Circuit Court,
Palm Beach County, Florida (1999).] Evaluation of Conditions of Confinement
in Martin Treatment Facility.

39

159a
Case 1:19-cv-03570-TSCDocument
Document
23-6
06/22/20
Page 145Page
of 230
Case 2:19-cv-00414-JPH-DLP
55-2
(ExFiled
Parte)
Filed 10/25/19
40 of 40
PageID #: 9445

Ruiz v. Johnson [United States District Court, Southern District of Texas,
District Judge William Wayne Justice, 37 F. Supp. 2d 855 (SD Texas 1999)].
Evaluation of current conditions of confinement, especially in security housing
or “high security” units.
Osterback v. Moore (United States District Court, Southern District of Florida
(97-2806-CIV-MORENO) (2001) [see, Osterback v. Moore, 531 U.S. 1172
(2001)]. Evaluation of Close Management Units and Conditions in the Florida
Department of Corrections.
Valdivia v. Davis (United States District Court, Eastern District of California,
2002). Evaluation of due process protections afforded mentally ill and
developmentally disabled parolees in parole revocation process.
Ayers v. Perry (United States District Court, New Mexico, 2003). Evaluation of
conditions of confinement and mental health services in New Mexico
Department of Corrections “special controls facilities.”
Disability Law Center v. Massachusetts Department of Corrections (Federal
District Court, Massachusetts, 2007). Evaluation of conditions of confinement
and treatment of mentally ill prisoners in disciplinary lockup and segregation
units.
Plata/Coleman v. Schwarzenegger (Ninth Circuit Court of Appeals, Three-Judge
Panel, 2008). Evaluation of conditions of confinement, effects of overcrowding
on provision of medical and mental health care in California Department of
Corrections and Rehabilitation. [See Brown v. Plata, 563 U.S. 493 (2011).]
Ashker v. Brown (United States District Court, Northern District of California,
2013-2015). Evaluation of the effect of long-term isolated confinement in
Pelican Bay State Prison Security Housing Unit.
Parsons v. Ryan (United States District Court, District of Arizona, 2012-14).
Evaluation of conditions of segregated confinement for mentally ill and nonmentally ill prisoners in statewide correctional facilities.
Braggs v. Dunn (United States District Court, Middle District of Alabama, 20152017). Evaluation of mental health care delivery system, overcrowded
conditions of confinement, and use of segregation in statewide prison system.
[See Braggs v. Dunn, 257 F. Supp. 3d 1171 (M.D. Ala. 2017).]

40

160a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 146 of 230

Exhibit 25

161a

23-6
Filed
06/22/20
Page
147
of]ÿ
230
UVWXÿZ[Case
\]^_`^1:19-cv-03570-TSC
aab\b^cde^fgdÿÿÿfhDocument
_iÿjX
k
l
ÿ
m
b
ÿ
n
op
p
q
r
_
V
s
q
X
ÿ
dV
t
l
u
v
ÿ
ÿ
ÿ
ÿ
wr
q
X
x
ÿ
\
a
y
z
\
y
\
ÿÿdV{Xÿ\ÿh|
\ÿdV{X}fÿ~[ÿ]b

012345ÿ738347ÿ5273923ÿ 093ÿ
7 03 491ÿ5273923ÿ ÿ2152818ÿ
34994ÿ8034ÿ52272 1ÿ
ÿ
474ÿ298ÿ094ÿ
ÿÿ
ÿ
ÿÿ
ÿ
ÿÿ
ÿ
ÿÿ
ÿ 1ÿ!"#"$$%%"& "5ÿ
ÿ
ÿ
ÿÿ
012345ÿ738347ÿ ÿ8'4928ÿÿ()ÿ
ÿÿ
ÿ
ÿÿ
9*+,*ÿ
ÿÿ
ÿ
-.ÿ01234ÿ52642ÿ7218398:ÿ;<39<8ÿ3<ÿ=4><8?9642ÿ
ÿ
ÿ ÿ@ÿ(**ÿ*(,ÿÿ@ÿAÿÿ*)BÿCDBE*ÿAÿÿ#*,ÿ@ÿ
CE*ÿ,()ÿFÿ@*ÿAÿÿ#Cÿ@ÿ)+@#ÿ#F#ÿ,DÿGHIJÿ*ÿ:218346ÿÿ3@ÿ
CÿK))ÿ*#@,C)ÿ@ÿ)+@#ÿ#F#ÿLBÿ*+((ÿ,ÿ
M5ÿ5=N-=-NOÿ
5(ÿÿ$PIP$!ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
5*LCÿ
ÿ
'#@))ÿ'ÿ(Kÿ
45498ÿ54 41549ÿ""ÿ473491ÿ5273923ÿ ÿ'277 092ÿ
A#@))Q)(KRF,Sÿ
ÿ
9L##(ÿ4))ÿ,A(ÿ
94T4 8ÿ4ÿ 5'81ÿ833 914ÿ83ÿ8ÿÿ
K)(KRC)D#Aÿ
ÿ

162a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 148 of 230

Exhibit 26

163a

23-6
06/22/20 Page 149 of 230
hijkmnCase
opqrsq1:19-cv-03570-TSC
ttuouqvwxqyzw y{Document
r|}k
~k
nprFiled
owi
y
uikwi kotoop wiko{

1234568494586384 3 4 1 4
8 14 5 26384 3 4 3263929
45 5 914563383 2

5853 91 5





 2!"#$#%%&!&#' #6

123456849458 9(5 3 9

9 652184 )*


+,-+ 
./1234.536.3789.6:;<=>4.;.195=<87424:785=?.3.=8.
4@)A$)*+++B)C,@$+)*+$B$
=DEFGHFIJKLMNOPQNNRMMPSGS3B$*+C+,+T@(*UV
$*+C-+,))CV$)CC@$B$ @T+$*+CB
(*UV+@)CC)-@$B$AV$)CCW@-+W)-C,@
*XAA,--AV@ *)X)C(*UV+@)CC)-@
$B$AVC,@
75536.3.6S
\]^_`bcdebdfcbg
6+A*
($@CC()T
565 9655265 ##5845 26384 3 4 (388 1 3
X$@CCYC)TZB-W
A$$)5CC-X)
5[5 95 6(92944 25949 
TC)TZ*CU$X

164a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 150 of 230

Exhibit 27

165a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 151 of 230
Monday, December 2, 2019 at 10:40:05 AM Central Standard Time

Subject:
Date:
From:
To:
CC:
A2achments:

new civil ac*on ﬁled by Mr. Purkey 2-­‐19-­‐cv-­‐517
Wednesday, October 30, 2019 at 9:55:45 AM Central Daylight Time
Rebekah Farrington
rewlaw_outlook.com, Michelle Law
Laura Briggs
2-­‐19-­‐cv-­‐517 purky new civil rights ac*on.pdf

Rebecca and Michelle:
Wanted to make you aware of a recent ﬁling.
Rebekah Farrington
Divisional Opera*ons Manager/
CRD to Magistrate Judge McKee
U.S. District Courthouse
921 Ohio Street
Terre Haute, Indiana 47807
(812) 231 1841

Page 1 of 1

166a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 152 of 230

Exhibit 28

167a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 153 of 230

Rebecca E. Woodman, Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

February 3, 2020

Sent via: U.S.P.S & Email to OGC_EFOIA@BOP.GOV
Freedom of Information Act/Privacy Action Section
Office of General Counsel, Room 924
Federal Bureau of Prisons
320 First Street, N.W.
Washington, DC 20534
(E): OGC_EFOIA@BOP.GOV
RE: Expedited Records Request Pertaining to:
Wesley Ira Purkey
DOB: 01/06/1952
SSN: 512-52-9715
FPN: 14679-045
Place of Birth: Wichita, Kansas
Dear Sir or Madam:
I am a CJA-Appointed Attorney representing Wesley Ira Purkey, a federal death row
inmate who is currently incarcerated at the U.S. Penitentiary in Terre Haute, Indiana. Mr.
Purkey is one of five prisoners at Terre Haute who were notified of scheduled execution
dates in writing by the Department of Justice on July 25, 2019. These five inmates,
including Mr. Purkey, were moved to A-Range, a special range (hereinafter "death watch
range") in the Secure Confinement Unit (SCU) at USP-Terre Haute on or about July 25,
2019, and remained there until on or about December 10, 2019, after a stay of execution.
On October 9, 2019, I submitted a FOIA request by letter requesting pertinent records
and surveillance videotape (detailed below) from July 25 to the date of receipt of the
request. Although this request was expedited, I have yet to receive the requested records.
That previous request is included with this request. In addition to that previous request, I
am updating the request for the records detailed below from October 9, 2019 to the
present (date upon receipt).
On behalf of my client and pursuant to the Freedom of Information Act, 5 U.S.C. §
552 (FOIA), and the Privacy Act, 5 U.S.C. § 552a, I request that I be furnished with a
copy of all records, document files, work papers, tape recordings, notes, memoranda,

168a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 154 of 230

electronic information, or any and all other information in the possession of the Federal
Bureau of Prisons related to or concerning Wesley Ira Purkey, specifically pertaining to
the following:
1. All records of BOP policies and procedures pertaining to the day and night watch
protocol implemented on the A-Range housing the five prisoners at USP-Terre
Haute including Wesley Ira Purkey who received execution notices issued by the
Department of Justice on July 25, 2019.
2. All watch range surveillance videotape (both day and night) dating from October
9, 2019-Present (date upon receipt).
The term “records” as used herein includes all records or communications preserved
in electronic or written form, including but not limited to correspondence, documents,
data, videotapes, audiotapes, faxes, files, guidance, guidelines, evaluations, instructions,
analyses, memoranda, agreements, notes, orders, policies, procedures, protocols, reports,
rules, technical manuals, technical specifications, training manuals, or studies. When
searching for materials responsive to this request, please search any and all databases,
indexes, or other sources, maintained by the BOP, as well as any sub-office, subdivision,
or component of the BOP. In short, this request is directed to this office and to any other
office within the BOP.
I certify as true and correct to the best of my knowledge and belief that my client
Wesley I. Purkey is incarcerated under a sentence of death at USP-Terre Haute, that I
have been appointed to represent him in his capital appeals and it is critical that I obtain
and review his BOP records as quickly as possible to preserve his due process rights.
I have attached a release and Certificate of Identity (DOJ-361 Form) signed by my
client, Wesley Ira Purkey, authorizing the release of all such records to me, Rebecca E.
Woodman.
Mr. Purkey seeks a waiver of all costs pursuant to 5 U.S.C. § 552(a)(4)(A)(iii)
(“Documents shall be furnished without any charge . . . if disclosure of the information is
in the public interest because it is likely to contribute significantly to public
understanding of the operations or activities of the government and is not primarily in the
commercial interest of the requester.”) and 39 C.F.R. § 265.9(g)(3) (same). Disclosure of
the requested documents is necessary in this case because Mr. Purkey is under sentence
of death, and this information is fundamental to ensuring that the sentence against him is
lawfully imposed. This type of government activity also sheds light on the degree to
which the executive branch of the federal government may be violating existing law and
regulations. Additionally, disclosure of the information is not primarily in Mr. Purkey’s
commercial interest. Therefore, a fee waiver would fulfill Congress’s legislative intent in
amending FOIA. See Judicial Watch, Inc. v. Rossotti, 326 F.3d 1309, 1312 (D.C. Cir.
2003) (“Congress amended FOIA to ensure that it be “liberally construed in favor of
waivers for noncommercial requesters.”).

169a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 155 of 230

If this request is denied in whole or in part, Mr. Purkey asks that you justify all
deletions or omissions by reference to specific exemptions to FOIA and the Privacy Act.
Mr. Purkey expects the release of all separable portions of otherwise exempt material.
Mr. Purkey reserves the right to appeal a decision to withhold any information or to deny
a waiver of costs.
Additionally, I am requesting expedited processing of this FOIA request
pursuant to 28 CFR § 16.1(d)(iii) as the Department of Justice has indicated that it
will issue new warrants of execution as soon as the law allows. Thank you for your
prompt attention to this matter. Please furnish all applicable records to:
Rebecca E. Woodman, Esq.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
Should you have any questions related to this request, please do not hesitate to call me at
(785) 979-3672 or by email at rewlaw@outlook.com.
Sincerely,
/s/Rebecca E. Woodman
Enclosures: (3)

170a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 156 of 230

Exhibit 29

171a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 157 of 230

Rebecca E. Woodman, Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

February 3, 2020

Sent via: U.S.P.S & Email to OGC_EFOIA@BOP.GOV
Freedom of Information Act/Privacy Action Section
Office of General Counsel, Room 924
Federal Bureau of Prisons
320 First Street, N.W.
Washington, DC 20534
(E): OGC_EFOIA@BOP.GOV
RE: Expedited Records Request Pertaining to:
Wesley Ira Purkey
DOB: 01/06/1952
SSN: 512-52-9715
FPN: 14679-045
Place of Birth: Wichita, Kansas
Dear Sir or Madam:
I am a CJA-Appointed Attorney representing Wesley Ira Purkey, a federal death row
inmate who is currently incarcerated at the U.S. Penitentiary in Terre Haute, Indiana. Mr.
Purkey is one of five prisoners at Terre Haute who were notified of scheduled execution
dates in writing by the Department of Justice on July 25, 2019. These five inmates,
including Mr. Purkey, were moved to A-Range, a special range (hereinafter "death watch
range") in the Secure Confinement Unit (SCU) at USP-Terre Haute on or about July 25,
2019, and remained there until on or about December 10, 2019, after a stay of execution.
On October 9, 2019, I submitted a FOIA request by letter requesting pertinent records
and surveillance videotape (detailed below) from July 25 to the date of receipt of the
request. Although this request was expedited, I have yet to receive the requested records.
That previous request is included with this request. In addition to that previous request, I
am updating the request for the records detailed below from October 9, 2019 to the
present (date upon receipt).
On behalf of my client and pursuant to the Freedom of Information Act, 5 U.S.C. §
552 (FOIA), and the Privacy Act, 5 U.S.C. § 552a, I request that I be furnished with a
copy of all records, document files, work papers, tape recordings, notes, memoranda,

172a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 158 of 230

electronic information, or any and all other information in the possession of the Federal
Bureau of Prisons related to or concerning Wesley Ira Purkey, specifically pertaining to
the following:
1. All records of BOP policies and procedures pertaining to the day and night watch
protocol implemented on the A-Range housing the five prisoners at USP-Terre
Haute including Wesley Ira Purkey who received execution notices issued by the
Department of Justice on July 25, 2019.
2. All watch range surveillance videotape (both day and night) dating from October
9, 2019-Present (date upon receipt).
The term “records” as used herein includes all records or communications preserved
in electronic or written form, including but not limited to correspondence, documents,
data, videotapes, audiotapes, faxes, files, guidance, guidelines, evaluations, instructions,
analyses, memoranda, agreements, notes, orders, policies, procedures, protocols, reports,
rules, technical manuals, technical specifications, training manuals, or studies. When
searching for materials responsive to this request, please search any and all databases,
indexes, or other sources, maintained by the BOP, as well as any sub-office, subdivision,
or component of the BOP. In short, this request is directed to this office and to any other
office within the BOP.
I certify as true and correct to the best of my knowledge and belief that my client
Wesley I. Purkey is incarcerated under a sentence of death at USP-Terre Haute, that I
have been appointed to represent him in his capital appeals and it is critical that I obtain
and review his BOP records as quickly as possible to preserve his due process rights.
I have attached a release and Certificate of Identity (DOJ-361 Form) signed by my
client, Wesley Ira Purkey, authorizing the release of all such records to me, Rebecca E.
Woodman.
Mr. Purkey seeks a waiver of all costs pursuant to 5 U.S.C. § 552(a)(4)(A)(iii)
(“Documents shall be furnished without any charge . . . if disclosure of the information is
in the public interest because it is likely to contribute significantly to public
understanding of the operations or activities of the government and is not primarily in the
commercial interest of the requester.”) and 39 C.F.R. § 265.9(g)(3) (same). Disclosure of
the requested documents is necessary in this case because Mr. Purkey is under sentence
of death, and this information is fundamental to ensuring that the sentence against him is
lawfully imposed. This type of government activity also sheds light on the degree to
which the executive branch of the federal government may be violating existing law and
regulations. Additionally, disclosure of the information is not primarily in Mr. Purkey’s
commercial interest. Therefore, a fee waiver would fulfill Congress’s legislative intent in
amending FOIA. See Judicial Watch, Inc. v. Rossotti, 326 F.3d 1309, 1312 (D.C. Cir.
2003) (“Congress amended FOIA to ensure that it be “liberally construed in favor of
waivers for noncommercial requesters.”).

173a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 159 of 230

If this request is denied in whole or in part, Mr. Purkey asks that you justify all
deletions or omissions by reference to specific exemptions to FOIA and the Privacy Act.
Mr. Purkey expects the release of all separable portions of otherwise exempt material.
Mr. Purkey reserves the right to appeal a decision to withhold any information or to deny
a waiver of costs.
Additionally, I am requesting expedited processing of this FOIA request
pursuant to 28 CFR § 16.1(d)(iii) as the Department of Justice has indicated that it
will issue new warrants of execution as soon as the law allows. Thank you for your
prompt attention to this matter. Please furnish all applicable records to:
Rebecca E. Woodman, Esq.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
Should you have any questions related to this request, please do not hesitate to call me at
(785) 979-3672 or by email at rewlaw@outlook.com.
Sincerely,
/s/Rebecca E. Woodman
Enclosures: (3)

174a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 160 of 230

Exhibit 30

175a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 161 of 230

Rebecca E. Woodman, Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

February 3, 2020

Sent via: U.S.P.S & Email to OGC_EFOIA@BOP.GOV
Freedom of Information Act/Privacy Action Section
Office of General Counsel, Room 924
Federal Bureau of Prisons
320 First Street, N.W.
Washington, DC 20534
(E): OGC_EFOIA@BOP.GOV
RE: Expedited Records Request Pertaining to:
Wesley Ira Purkey
DOB: 01/06/1952
SSN: 512-52-9715
FPN: 14679-045
Place of Birth: Wichita, Kansas
Dear Sir or Madam:
I am a CJA-Appointed Attorney representing Wesley Ira Purkey, a federal death row
inmate who is currently incarcerated at the U.S. Penitentiary in Terre Haute, Indiana and
has been previously incarcerated at the U.S. Penitentiary in Leavenworth, Kansas. We are
in need of all custodial records regarding Mr. Purkey dated October 9, 2019-Present
(date upon receipt). We are requesting expedited processing. Mr. Purkey is one of five
prisoners at Terre Haute who were notified of scheduled execution dates in writing by the
Department of Justice on July 25, 2019. On October 9, 2019, I submitted a FOIA request
by letter requesting all custodial records regarding Mr. Purkey from January 01, 2017 to
the date of receipt of the request. Although this request was expedited, I have yet to
receive the requested records. That previous request is included with this request.
On behalf of my client and pursuant to the Freedom of Information Act, 5 U.S.C. §
552 (FOIA), and the Privacy Act, 5 U.S.C. § 552a, I request that I be furnished with a
copy of all records, document files, work papers, tape recordings, notes, memoranda,
electronic information, or any and all other information in the possession of the Federal
Bureau of Prisons related to or concerning Wesley Ira Purkey. This request includes
specifically, but is not limited to, the following records:

176a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 162 of 230

1. All records contained in Mr. Purkey’s “Medical File;”
2. All records contained in Mr. Purkey’s “Mental Health File;”
3. All records contained in any file maintained by a BOP psychologist, social
worker, counselor, or any other individual providing any type of services related
to emotional and/or mental health care and/or treatment;
4. All records relating to Mr. Purkey’s disciplinary history, any gang affiliations or
activities, including without limitation all incident reports issued to Mr. Purkey,
even such incident reports that may have been canceled or rescinded;
5. All records related to Mr. Purkey’s grievances at the BOP;
6. All records relating to Mr. Purkey’s inmate classification;
7. All medical records and notes relating to any health care requested by or
provided to Mr. Purkey, and including but not limited to all medical care,
dental care, mental health care, and substance abuse treatment;
8. All documentation of suicide attempts by Mr. Purkey, or injuries of Mr.
Purkey, inflicted upon himself, intentionally or otherwise;
9. All records relating to any internal memoranda or correspondence within
the BOP relating to Mr. Purkey;
10. All records relating to any reviews of Mr. Purkey’s housing placements
and transfers within institutions as well as between institutions within
BOP; and
11. All records relating to any administrative remedies sought by Mr. Purkey.
The term “records” as used herein includes all records or communications preserved
in electronic or written form, including but not limited to correspondence, documents,
data, videotapes, audiotapes, faxes, files, guidance, guidelines, evaluations, instructions,
analyses, memoranda, agreements, notes, orders, policies, procedures, protocols, reports,
rules, technical manuals, technical specifications, training manuals, or studies. When
searching for materials responsive to this request, please search any and all databases,
indexes, or other sources, maintained by the BOP, as well as any sub-office, subdivision,
or component of the BOP. In short, this request is directed to this office and to any other
office within the BOP.
I certify as true and correct to the best of my knowledge and belief that my client
Wesley I. Purkey is incarcerated under a sentence of death at USP-Terre Haute, that I

177a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 163 of 230

have been appointed to represent him in his capital appeals and it is critical that I obtain
and review his BOP records as quickly as possible to preserve his due process rights.
I have attached a release and Certificate of Identity (DOJ-361 Form) signed by my
client, Wesley Ira Purkey, authorizing the release of all such records to me, Rebecca E.
Woodman.
Mr. Purkey seeks a waiver of all costs pursuant to 5 U.S.C. § 552(a)(4)(A)(iii)
(“Documents shall be furnished without any charge . . . if disclosure of the information is
in the public interest because it is likely to contribute significantly to public
understanding of the operations or activities of the government and is not primarily in the
commercial interest of the requester.”) and 39 C.F.R. § 265.9(g)(3) (same). Disclosure of
the requested documents is necessary in this case because Mr. Purkey is under sentence
of death, and this information is fundamental to ensuring that the sentence against him is
lawfully imposed. This type of government activity also sheds light on the degree to
which the executive branch of the federal government may be violating existing law and
regulations. Additionally, disclosure of the information is not primarily in Mr. Purkey’s
commercial interest. Therefore, a fee waiver would fulfill Congress’s legislative intent in
amending FOIA. See Judicial Watch, Inc. v. Rossotti, 326 F.3d 1309, 1312 (D.C. Cir.
2003) (“Congress amended FOIA to ensure that it be “liberally construed in favor of
waivers for noncommercial requesters.”).
If this request is denied in whole or in part, Mr. Purkey asks that you justify all
deletions or omissions by reference to specific exemptions to FOIA and the Privacy Act.
Mr. Purkey expects the release of all separable portions of otherwise exempt material.
Mr. Purkey reserves the right to appeal a decision to withhold any information or to deny
a waiver of costs.
Additionally, I am requesting expedited processing of this FOIA request
pursuant to 28 CFR § 16.1(d)(iii) as the Department of Justice has indicated that it
will issue new warrants of execution as soon as the law allows. Thank you for your
prompt attention to this matter. Please furnish all applicable records to:
Rebecca E. Woodman, Esq.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
Should you have any questions related to this request, please do not hesitate to call me at
(785) 979-3672 or by email at rewlaw@outlook.com.
Sincerely,
/s/ Rebecca E. Woodman
Enclosures: (3)

178a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 164 of 230

Exhibit 31

179a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 165 of 230
Wednesday, June 17, 2020 at 15:50:38 Central Daylight Time

Subject:
Re: Updated FOIA request 1
Date:
Monday, February 3, 2020 at 12:56:49 PM Central Standard Time
From:
OGC Electronic Freedom of InformaKon
To:
Rebecca Woodman
AGachments: _DOJ-361.pdf
Good afternoon,
We determined the information you request is maintained in a Privacy Act protected system of records and requires
written authorization from the subject of the record before it can be released. The written authorization must meet the
requirements of 28 C.F.R. §16.41(d). Please resubmit your request, and provide the information identified below.
Until such time as this information is received, your request is not considered perfected and has not been logged in
or assigned a request number.
Your authorization was incomplete because the date on the authorization was more than three months old.
For your convenience, we attached a form DOJ-361, Certification of Identity. Completing this form should provide the
information we need to proceed. A current or former inmate should include on the form his/her Federal Bureau of
Prisons register number.
You must resubmit your request when returning the Certification of Identity or proper authorization as we do not keep
copies. You can find additional information on the Federal Bureau of Prisons FOIA/PA process at www.bop.gov.
Sincerely,
S. Lilly, for
Eugene Baime
Supervisory Attorney
If you have quest ons about th s response p ease fee free to contact the unders gned, th s office, or the Federa Bureau of Pr sons (BOP)
FOIA Pub c L a son, Mr. C. Darne Strob e at 202-616-7750, 320 F rst Street NW, Su te 936, Wash ngton DC 20534, or
ogc efo a@bop.gov.
Add t ona y, you may contact the Office of Government Informat on Serv ces (OGIS) at the Nat ona Arch ves and Records Adm n strat on
to nqu re about the FOIA med at on serv ces they offer. The contact nformat on for OGIS s as fo ows: Office of Government Informat on,
Serv ces, Nat ona Arch ves and Records Adm n strat on, Room 2510, 8601 Ade ph Road, Co ege Park, Mary and 20740-6001; e-ma at
og s@nara.gov; te ephone at 202-741-5770; to free at 1-877-684-6448; or facs m e at 202-741-5769.
If you are not sat sfied w th my response to th s request, you may adm n strat ve y appea by wr t ng to the D rector, Office of Informat on
Po cy (OIP), Un ted States Department of Just ce, S xth F oor, 441 G Street, NW, Wash ngton, DC 20001, or you may subm t an appea
through OIP s FOIAon ne porta by creat ng an account at: https://www.fo aon ne.gov/fo aon ne/act on/pub c/home. Your appea must be
postmarked or e ectron ca y transm tted w th n 90 days of the date of my response to your request. If you subm t your appea by ma , both
the etter and the enve ope shou d be c ear y marked "Freedom of Informat on Act Appea ."

>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 12:47 PM >>>
>

Dear Sir or Madam: Please see the aSached FOIA request for Federal Bureau of Prisons records pertaining to
my client, Wesley I. Purkey, along with a signed release and cerKﬁcate of idenKty. As detailed in the aSached
leSer, I am requesKng expedited processing, as Mr. Purkey is under imminent threat of execuKon warrant.
Please let me know if you have any quesKons or require further informaKon.
Sincerely,

Rebecca E. Woodman
Attorney at Law, L.C.
Page 1 of 2

180a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 166 of 230

1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 2 of 2

181a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 167 of 230

Exhibit 32

182a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 168 of 230
Wednesday, June 17, 2020 at 15:51:19 Central Daylight Time

Subject:
Re: Updated FOIA request 1
Date:
Monday, February 3, 2020 at 1:25:44 PM Central Standard Time
From:
OGC Electronic Freedom of InformaIon
To:
Rebecca Woodman
AFachments: 2020-00234 Ack and Expedite Grant Ltr2.pdf
Good aPernoon,
Please disregard my previous message about the outdated CerIﬁcaIon of IdenIty. Upon further review it looks like this is a
duplicate request of 2020-00234. As such, your request is not considered perfected and has not been logged in or
assigned a request number.
Additionally, your request was previously granted expedited processing on October 10, 2019. A copy of the letter is
attached.
Sincerely,
S. Lilly, for
Eugene Baime
Supervisory Attorney
If you have quest ons about th s response p ease fee free to contact the unders gned, th s office, or the Federa Bureau of Pr sons (BOP)
FOIA Pub c L a son, Mr. C. Darne Strob e at 202-616-7750, 320 F rst Street NW, Su te 936, Wash ngton DC 20534, or
ogc efo a@bop.gov.
Add t ona y, you may contact the Office of Government Informat on Serv ces (OGIS) at the Nat ona Arch ves and Records Adm n strat on
to nqu re about the FOIA med at on serv ces they offer. The contact nformat on for OGIS s as fo ows: Office of Government Informat on,
Serv ces, Nat ona Arch ves and Records Adm n strat on, Room 2510, 8601 Ade ph Road, Co ege Park, Mary and 20740-6001; e-ma at
og s@nara.gov; te ephone at 202-741-5770; to free at 1-877-684-6448; or facs m e at 202-741-5769.
If you are not sat sfied w th my response to th s request, you may adm n strat ve y appea by wr t ng to the D rector, Office of Informat on
Po cy (OIP), Un ted States Department of Just ce, S xth F oor, 441 G Street, NW, Wash ngton, DC 20001, or you may subm t an appea
through OIP s FOIAon ne porta by creat ng an account at: https://www.fo aon ne.gov/fo aon ne/act on/pub c/home. Your appea must be
postmarked or e ectron ca y transm tted w th n 90 days of the date of my response to your request. If you subm t your appea by ma , both
the etter and the enve ope shou d be c ear y marked "Freedom of Informat on Act Appea ."

>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 12:47 PM >>>
>

Dear Sir or Madam: Please see the a\ached FOIA request for Federal Bureau of Prisons records pertaining to
my client, Wesley I. Purkey, along with a signed release and cerIﬁcate of idenIty. As detailed in the a\ached
le\er, I am requesIng expedited processing, as Mr. Purkey is under imminent threat of execuIon warrant.
Please let me know if you have any quesIons or require further informaIon.
Sincerely,

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 1 of 1

183a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 169 of 230

Exhibit 33

184a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 170 of 230
Wednesday, June 17, 2020 at 15:51:56 Central Daylight Time

Subject: Re: Updated FOIA request 2
Date: Monday, February 3, 2020 at 1:31:36 PM Central Standard Time
From: OGC Electronic Freedom of InformaHon
To:
Rebecca Woodman
Good aJernoon,
Upon review it looks like this is a duplicate request of 2020-00234. As such, your request is not considered perfected and
has not been logged in or assigned a request number.
Additionally, your request was previously granted expedited processing on October 10, 2019. A copy of the letter
was attached in the previous email.
Sincerely,
S. Lilly, for
Eugene Baime
Supervisory Attorney
If you have quest ons about th s response p ease fee free to contact the unders gned, th s office, or the Federa Bureau of Pr sons (BOP)
FOIA Pub c L a son, Mr. C. Darne Strob e at 202-616-7750, 320 F rst Street NW, Su te 936, Wash ngton DC 20534, or
ogc efo a@bop.gov.
Add t ona y, you may contact the Office of Government Informat on Serv ces (OGIS) at the Nat ona Arch ves and Records Adm n strat on
to nqu re about the FOIA med at on serv ces they offer. The contact nformat on for OGIS s as fo ows: Office of Government Informat on,
Serv ces, Nat ona Arch ves and Records Adm n strat on, Room 2510, 8601 Ade ph Road, Co ege Park, Mary and 20740-6001; e-ma at
og s@nara.gov; te ephone at 202-741-5770; to free at 1-877-684-6448; or facs m e at 202-741-5769.
If you are not sat sfied w th my response to th s request, you may adm n strat ve y appea by wr t ng to the D rector, Office of Informat on
Po cy (OIP), Un ted States Department of Just ce, S xth F oor, 441 G Street, NW, Wash ngton, DC 20001, or you may subm t an appea
through OIP s FOIAon ne porta by creat ng an account at: https://www.fo aon ne.gov/fo aon ne/act on/pub c/home. Your appea must be
postmarked or e ectron ca y transm tted w th n 90 days of the date of my response to your request. If you subm t your appea by ma , both
the etter and the enve ope shou d be c ear y marked "Freedom of Informat on Act Appea ."

>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 12:47 PM >>>
>

Dear Sir or Madam: Please see the aXached FOIA request for Federal Bureau of Prisons records pertaining to
my client, Wesley I. Purkey, along with a signed release and cerHﬁcate of idenHty. As detailed in the aXached
leXer, I am requesHng expedited processing, as Mr. Purkey is under imminent threat of execuHon warrant.
Please let me know if you have any quesHons or require further informaHon.
Sincerely,

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 1 of 1

185a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 171 of 230

Exhibit 34

186a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 172 of 230
Wednesday, June 17, 2020 at 15:52:37 Central Daylight Time

Subject: Re: Updated FOIA request 1
Date: Monday, February 3, 2020 at 1:43:00 PM Central Standard Time
From: OGC Electronic Freedom of InformaHon
To:
Rebecca Woodman
I will forward this message to the processor. If a new CerHﬁcaHon of IdenHty is needed they will let you know.
Sincerely, S. Lilly
FOIA/PA SecHon
>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 2:34 PM >>>
>

Good aUernoon: These are updated requests for the Hme period from the previous grant of October 10, 2019
to the present. If you need a new CerHﬁcaHon of IdenHty we can re-submit the requests once we have that
document.
Thank you,

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: OGC Electronic Freedom of InformaHon <ogc_efoia@bop.gov>
Date: Monday, February 3, 2020 at 1:25 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Updated FOIA request 1
Good afternoon,
Please disregard my previous message about the outdated Certification of Identity. Upon further review
it looks like this is a duplicate request of 2020-00234. As such, your request is not considered perfected and
has not been logged in or assigned a request number.
Additionally, your request was previously granted expedited processing on October 10, 2019. A copy of the letter is
attached.
Sincerely,
S. Lilly, for
Eugene Baime
Supervisory Attorney
If you have quest ons about th s response p ease fee free to contact the unders gned, th s office, or the Federa Bureau of Pr sons (BOP)
FOIA Pub c L a son, Mr. C. Darne Strob e at 202-616-7750, 320 F rst Street NW, Su te 936, Wash ngton DC 20534, or
ogc efo a@bop.gov.
Add t ona y, you may contact the Office of Government Informat on Serv ces (OGIS) at the Nat ona Arch ves and Records Adm n strat on
to nqu re about the FOIA med at on serv ces they offer. The contact nformat on for OGIS s as fo ows: Office of Government Informat on,
Serv ces, Nat ona Arch ves and Records Adm n strat on, Room 2510, 8601 Ade ph Road, Co ege Park, Mary and 20740-6001; e-ma at
og s@nara.gov; te ephone at 202-741-5770; to free at 1-877-684-6448; or facs m e at 202-741-5769.

Page 1 of 2

187a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 173 of 230
If you are not sat sfied w th my response to th s request, you may adm n strat ve y appea by wr t ng to the D rector, Office of Informat on
Po cy (OIP), Un ted States Department of Just ce, S xth F oor, 441 G Street, NW, Wash ngton, DC 20001, or you may subm t an appea
through OIP s FOIAon ne porta by creat ng an account at: https://www.fo aon ne.gov/fo aon ne/act on/pub c/home. Your appea must be
postmarked or e ectron ca y transm tted w th n 90 days of the date of my response to your request. If you subm t your appea by ma , both
the etter and the enve ope shou d be c ear y marked "Freedom of Informat on Act Appea ."

>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 12:47 PM >>>
>

Dear Sir or Madam: Please see the a\ached FOIA request for Federal Bureau of Prisons records pertaining to
my client, Wesley I. Purkey, along with a signed release and cerHﬁcate of idenHty. As detailed in the a\ached
le\er, I am requesHng expedited processing, as Mr. Purkey is under imminent threat of execuHon warrant.
Please let me know if you have any quesHons or require further informaHon.
Sincerely,

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 2 of 2

188a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 174 of 230

Exhibit 35

189a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 175 of 230
Wednesday, June 17, 2020 at 15:53:05 Central Daylight Time

Subject: Re: Updated FOIA request 2
Date: Monday, February 3, 2020 at 1:43:05 PM Central Standard Time
From: OGC Electronic Freedom of InformaIon
To:
Rebecca Woodman
I will forward this message to the processor. If a new CerIﬁcaIon of IdenIty is needed they will let you know.
Sincerely, S. Lilly
FOIA/PA SecIon
>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 2:35 PM >>>
>

Good aVernoon: These are updated requests for the Ime period from the previous grant of October 10, 2019
to the present. If you need a new CerIﬁcaIon of IdenIty we can re-submit the requests once we have that
document.
Thank you,

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: OGC Electronic Freedom of InformaIon <ogc_efoia@bop.gov>
Date: Monday, February 3, 2020 at 1:31 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Updated FOIA request 2
Good afternoon,
Upon review it looks like this is a duplicate request of 2020-00234. As such, your request is not considered
perfected and has not been logged in or assigned a request number.
Additionally, your request was previously granted expedited processing on October 10, 2019. A copy of the letter
was attached in the previous email.
Sincerely,
S. Lilly, for
Eugene Baime
Supervisory Attorney
If you have quest ons about th s response p ease fee free to contact the unders gned, th s office, or the Federa Bureau of Pr sons (BOP)
FOIA Pub c L a son, Mr. C. Darne Strob e at 202-616-7750, 320 F rst Street NW, Su te 936, Wash ngton DC 20534, or
ogc efo a@bop.gov.
Add t ona y, you may contact the Office of Government Informat on Serv ces (OGIS) at the Nat ona Arch ves and Records Adm n strat on
to nqu re about the FOIA med at on serv ces they offer. The contact nformat on for OGIS s as fo ows: Office of Government Informat on,
Serv ces, Nat ona Arch ves and Records Adm n strat on, Room 2510, 8601 Ade ph Road, Co ege Park, Mary and 20740-6001; e-ma at
og s@nara.gov; te ephone at 202-741-5770; to free at 1-877-684-6448; or facs m e at 202-741-5769.
If you are not sat sfied w th my response to th s request, you may adm n strat ve y appea by wr t ng to the D rector, Office of Informat on

Page 1 of 2

190a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 176 of 230
Po cy (OIP), Un ted States Department of Just ce, S xth F oor, 441 G Street, NW, Wash ngton, DC 20001, or you may subm t an appea
through OIP s FOIAon ne porta by creat ng an account at: https://www.fo aon ne.gov/fo aon ne/act on/pub c/home. Your appea must be
postmarked or e ectron ca y transm tted w th n 90 days of the date of my response to your request. If you subm t your appea by ma , both
the etter and the enve ope shou d be c ear y marked "Freedom of Informat on Act Appea ."

>>> Rebecca Woodman <rewlaw@outlook.com> 2/3/2020 12:47 PM >>>
>

Dear Sir or Madam: Please see the a\ached FOIA request for Federal Bureau of Prisons records pertaining to
my client, Wesley I. Purkey, along with a signed release and cerIﬁcate of idenIty. As detailed in the a\ached
le\er, I am requesIng expedited processing, as Mr. Purkey is under imminent threat of execuIon warrant.
Please let me know if you have any quesIons or require further informaIon.
Sincerely,

Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 2 of 2

191a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 177 of 230

Exhibit 36

192a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 178 of 230

Brian J. Fleming
Member
(202) 626-5871
bfleming@milchev.com

April 14, 2020
VIA ELECTRONIC MAIL
Brian P. Casey
Assistant United States Attorney
Western District of Missouri
400 E. Ninth Street, Room 5510
Kansas City, MO 64106
Brian.Casey@usdoj.gov
Re:

Defendants’ Reply to Mr. Purkey’s Opposition to Defendants’
Motion to Dismiss in Purkey v. Barr, et al., C.A. No. 19-03570
(TSC) (D.D.C.) (ECF No. 21)

Dear Brian:
We were disappointed with several statements in Defendants’ Reply to Mr. Purkey’s
Opposition to Defendants’ Motion to Dismiss which we believe did not fairly and accurately
represent various aspects of this case. We write to request that Defendants refrain from making
similar assertions in the future and, as to certain misrepresentations, that Defendants promptly
submit a correction to the Court.
As a general matter, we have raised Mr. Purkey’s constitutional Ford claim in a
responsible and consistent fashion, zealously sought information and documents necessary to
prove the claim (most, if not all, of which are in the exclusive possession, custody or control of
your clients) and pursued adjudication of Mr. Purkey’s claim in an expeditious and orderly
fashion. In short, we raised a colorable (and we believe meritorious) Ford competency claim
many months ago and have actively sought reasoned consideration of the merits of that claim.
To the extent that Defendants’ Reply brief suggests otherwise, and we believe it does, it is
incorrect and misleading.
For example, Defendants allege that Mr. Purkey has been inconsistent in his position
regarding his competency. See Defs.’ Reply 9, ECF No. 21 (“Purkey began this litigation by
asserting that his condition cannot improve. . . . More recently, in response to Defendants’
position that his claims sound only in habeas, Purkey has emphasized what he believes to be the
changeable nature of competency. . . . This Court should take note of this late change in position
. . . .”). Mr. Purkey has argued since the start that he is not currently competent to be executed,
but he has never contended that competency is unrestorable. Defendants’ erroneous assertion
again misleadingly conflates the distinction between longstanding/irreversible mental illness and
Miller & Chevalier Chartered . 900 16th Street NW . Washington, DC 20006
T 202.626.5800 . millerchevalier.com

193a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 179 of 230
Brian P. Casey
April 14, 2020
Page 2
competency (and uses this conflation to imply that Mr. Purkey’s arguments are dishonest). It is
competency that potentially can be restored, and the focus of any competency determination
under the law is not whether an individual suffers from mental illness but whether that “mental
illness prevents him from ‘rational[ly] understanding’ why the State seeks to impose that
punishment.” Madison v. Alabama, 139 S. Ct. 718, 722 (2019) (quoting Panetti v. Quarterman,
551 U.S. 930, 959 (2007)).
Defendants also assert in their Reply that the many requests for relevant information,
documents and testing regarding Mr. Purkey’s condition and circumstances, including requests
for video surveillance footage, medical and administrative records, and brain imaging, were
somehow untimely or delayed and/or were made only for dilatory purposes. See Defs.’ Reply 4
n.1, ECF No. 21. Defendants further assert that the Bureau of Prisons did not receive “any
additional requests for information since Purkey’s October 2019 FOIA request.” Id. These
assertions are demonstrably false. As previously shown, Mr. Purkey repeatedly renewed his
requests for certain records and footage. See, e.g., Compl. ¶¶ 14, 19, ECF No. 1; Mem. in Supp.
of Mot. for Prelim. Inj. 3, 8–11, 20–21, 22–23 (requesting expedited discovery), ECF No. 7-1;
Pl.’s Opp. to Mot. to Dismiss or to Transfer 4–5, 7–10, ECF No. 20 (describing requests by
plaintiffs counsel on September 17, 2019 and October 9, 2019, and then follow up on October
11, 2019 and November 11, 2019). Indeed, when requests for Mr. Purkey’s own personal
information and documents went unfulfilled, he had to resort to the Freedom of Information Act
(“FOIA”), 5 U.S.C. § 552, a process designed to provide access to government records, not one’s
own personal information and records. See Compl. ¶ 19, ECF No. 1 (describing submission of
FOIA request to the Bureau of Prisons in October 2019); Mem. in Supp. of Mot. for Prelim. Inj.
8–11, ECF No. 7-1.1 Contrary to Defendants’ assertions that October was the last date
Mr. Purkey requested records, counsel Rebecca Woodman submitted yet another request for
Mr. Purkey’s records on February 3, 2020. See Letter from R. Woodman to Bureau of Prisons
(February 3, 2020). Up to this point, Mr. Purkey’s requests have been refused or obstructed by
the relevant officials to whom the requests were made, with the result that these requests remain
unresolved to this day. At no time, however, has Mr. Purkey or anyone representing him
withdrawn, abandoned, rescinded or in any way deferred those requests. If timeliness and delay
are matters of concern to Defendants, the simple solution would be for Defendants to ensure that
the relevant government officials immediately and fully provide the requested information and
documentation, as well as access for testing.
Defendants’ argument that we abandoned those requests by allegedly ignoring
Defendants’ supposed offer of an expedited discovery schedule (see Defs.’ Reply 4 n.1, ECF
No. 21) is similarly wrong and squarely belied by the relevant chronology of events. In our
discussions with you following the filing and service of the lawsuit and our Motion for
Preliminary Injunction, we, not you, initiated the concept of an agreed, expedited briefing and
1

On October 10, 2019, the Bureau of Prisons promised to “expedite” the processing of Mr. Purkey’s FOIA request
(see Compl. Ex. 16, ECF No. 1-20), but subsequently failed to do so. As a result, on February 3, 2020, Mr. Purkey
submitted an updated and renewed FOIA request which the Bureau of Prisons has also failed to process in a
complete and timely manner. See Letter from R. Woodman to Bureau of Prisons (February 3, 2020).

Miller & Chevalier Chartered . 900 16th Street NW . Washington, DC 20006
T 202.626.5800 . millerchevalier.com

194a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 180 of 230
Brian P. Casey
April 14, 2020
Page 3
discovery schedule. Your December 16, 2020 email to us following a meet and confer call
demonstrates that undeniable fact. As you know well, however, circumstances thereafter
changed. On December 31, 2019, the Court granted our request to withdraw the Motion for
Preliminary Injunction, but ordered further briefing on jurisdictional issues, which did not close
until January 28, 2020. While those jurisdictional issues were (and still are) pending before the
Court, Defendants filed their Motion to Dismiss on February 24, 2020, contending, in part, that
Plaintiff has no right to any discovery, let alone expedited discovery. Then, on the very day
Plaintiff’s response to the Motion to Dismiss was due, the Court entered Court Operations
Standing Order No. 20-9, in which the Court limited its operations to those necessary “to support
essential functions” (Para. 1) and deferred all other courthouse-related matters in civil
proceedings (Para. 4). Not once during that sequence of events did we ever indicate that we did
not want to receive the previously requested information, documents and testing, all of which are
potentially relevant to the claims and issues in this case. To the contrary, we have raised the issue
of discovery consistently and repeatedly. For Defendants to argue that we abandoned or failed to
pursue Mr. Purkey’s entitlement to discovery and failed to respond to Defendants’ alleged
proposal for expedited discovery is irresponsible and patently incorrect. It is incumbent on
Defendants to file an errata with the Court correcting the misrepresentations in footnote 1 of the
Defendants’ Reply Brief, failing which Plaintiff will bring them to the Court’s attention through
appropriate means.2
Finally, given the recent developments in the D.C. Circuit, the need for you to produce
the requisite discovery has become even more acute, especially if the government is intending to
seek a new execution warrant for Mr. Purkey on an expedited basis. In these circumstances, it is
fair for us to request that the government disclose, without delay, its intended course of action
regarding the issuance of new execution warrants so we can make an informed decision about
the need to seek immediate judicial intervention to ensure Mr. Purkey’s competency claim is
fully and fairly heard on the merits.
Sincerely,

Brian J. Fleming
Counsel for Plaintiff
cc:

John Hurst (John.Hurst@usdoj.gov)
Kate Mahoney (Kate.Mahoney@usdoj.gov)
David Wagner (David.Wagner@usdoj.gov)

2

Defendants also contend that Mr. Purkey is “audacious” for seeking the due process required by Ford because he
has never “attempted to show why a habeas petition would be a constitutionally inadequate process,” all while
continuing to ignore that Mr. Purkey’s constitutional Ford claims are not core habeas. Defs.’ Reply 6, ECF No. 21.

Miller & Chevalier Chartered . 900 16th Street NW . Washington, DC 20006
T 202.626.5800 . millerchevalier.com

195a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 181 of 230

Exhibit 37

196a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 182 of 230

From: Fleming, Brian
Sent: Wednesday, May 20, 2020 4:58 PM
To: 'Casey, Brian (USAMOW)' <Brian.Casey@usdoj.gov>
Cc: Hurst, John (USAMOW) <John.Hurst@usdoj.gov>; Mahoney, Kate (USAMOW) <Kate.Mahoney@usdoj.gov>; Wagner,
David (USAMOW) <David.Wagner@usdoj.gov>; McAleer, Chas <cmcaleer@milchev.com>
Subject: RE: PURKEY v. BARR - Case 1:19-cv-03570-TSC (D.D.C.)
Brian,
We are in receipt of your April 22, 2020 email responding to our April 14, 2020 letter. We are disappointed that you
chose not to respond substantively to many of the concerns we raised in detail in our letter.
With respect to the issue of outstanding FOIA requests, we do note, as indicated in our letter, that Ms. Woodman
submitted three initial FOIA requests on October 9, 2019—one for medical records and two for BOP death watch
protocols and video surveillance of the death watch range, which were confirmed received and promised expedited
processing by BOP’s Regional Counsel on October 10, 2019. Thereafter, Ms. Woodman had several communications
with responsible attorneys and officials at BOP who acknowledged receipt and committed to expediting the requests in
light of the then pending execution date in December 2019.
Ms. Woodman also submitted updated FOIA requests on February 3, 2020 and received confirmation of receipt that
same day by a BOP supervisory attorney, who acknowledged that the request updated rather than duplicated the
October 9, 2019 requests and indicated that the updated requests would be forwarded to the agency’s FOIA
processor. As explained in our April 14 letter, Mr. Purkey has been seeking this information through FOIA and other
means since before October of last year. To date, BOP has produced nothing in response to either the October or the
February FOIA requests. This is unacceptable, particularly given the gravity of this matter. The record of our requests on
behalf of Mr. Purkey for the complete and expedited production of all requested information is clear and indisputable.
Best regards,
Brian
BRIAN J. FLEMING
Member | Miller & Chevalier Chartered
bfleming@milchev.com | 202.626.5871
1

197a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 183 of 230

From: Casey, Brian (USAMOW) <Brian.Casey@usdoj.gov>
Sent: Wednesday, April 22, 2020 11:15 AM
To: Fleming, Brian <bfleming@milchev.com>
Cc: Hurst, John (USAMOW) <John.Hurst@usdoj.gov>; Mahoney, Kate (USAMOW) <Kate.Mahoney@usdoj.gov>; Wagner,
David (USAMOW) <David.Wagner@usdoj.gov>; McAleer, Chas <CMcAleer@milchev.com>
Subject: RE: PURKEY v. BARR - Case 1:19-cv-03570-TSC (D.D.C.)
EXTERNAL

Brian,
We have received your letter of April 14. Responding to your accusations point-by-point does not seem productive, so
suffice it to say that we have reviewed your letter carefully and disagree with your assertions and conclusions. To the
extent you intend to file a motion with the court regarding the issues raised in your letter, please let us know specifically
what motion you intend to file and please provide a proposed order so that we can have a full opportunity to decide
whether to consent. We do not view your current reference only to “appropriate relief” as sufficiently specific to satisfy
the meet and confer requirement for nondispositive motions under Local Civil Rule 7.
Likewise, if you believe the filings in the case so far have provided an incomplete picture of your attempts to obtain
information or documents, we would be willing to discuss the possibility of providing the court with a joint timeline of
your various requests. Your letter mostly references matters already discussed in papers before the court, but if you
believe that a single, agreed timeline would be helpful, please let us know.
In response to your point that Ms. Woodman submitted an “updated and renewed FOIA request” dated February 3,
2020, we have specifically inquired about this request, and the BOP has been unable to find any record of it.
Finally, in response to your request that we provide information about the issuance of new execution warrants, we will
let you know as soon as we learn of a new execution date, which will be when the Attorney General makes a decision.
Sincerely,
Brian P. Casey
Assistant United States Attorney
Western District of Missouri
400 E. Ninth Street, Room 5510
Kansas City, MO 64106
Phone: 816-426-4138
Fax: 816-426-3126

From: Fleming, Brian <bfleming@milchev.com>
Sent: Tuesday, April 14, 2020 4:52 PM
To: Casey, Brian (USAMOW) <BCasey@usa.doj.gov>
Cc: Hurst, John (USAMOW) <JHurst@usa.doj.gov>; Mahoney, Kate (USAMOW) <KMahoney@usa.doj.gov>; Wagner,
David (USAMOW) <DWagner@usa.doj.gov>; McAleer, Chas <CMcAleer@milchev.com>
Subject: PURKEY v. BARR - Case 1:19-cv-03570-TSC (D.D.C.)
Brian,
I hope you are well. Please see the attached correspondence relating to the above-referenced matter.
2

198a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 184 of 230
Best regards,
Brian
BRIAN J. FLEMING
Member | Miller & Chevalier Chartered
900 16th Street NW | Washington, DC 20006
bfleming@milchev.com | 202.626.5871 | millerchevalier.com
***
This electronic message contains information which may be legally confidential and/or privileged. The information
is intended solely for the individual or entity named above and access by anyone else is unauthorized. If you are
not the intended recipient, any disclosure, copying, distribution, or use of the contents of this information is
prohibited and may be unlawful. If you have received this electronic transmission in error, please reply
immediately to the sender that you have received the message in error, and delete it. Thank you.

3

199a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 185 of 230

Exhibit 38

200a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 186 of 230

From: Casey, Brian (USAMOW) <Brian.Casey@usdoj.gov>
Date: June 15, 2020 at 6:43:43 PM EDT
Subject: Purkey v. Barr, Case No. 1:19-cv-03570-TSC (D.D.C.)
To: McAleer, Chas <CMcAleer@milchev.com>,Fleming, Brian <bﬂeming@milchev.com>
Cc: Hurst, John (USAMOW) <John.Hurst@usdoj.gov>,Wagner, David (USAMOW)
<David.Wagner@usdoj.gov>,Mahoney, Kate (USAMOW) <Kate.Mahoney@usdoj.gov>
EXTERNAL
Dear Chas and Brian,
I am wri]ng to let you know that today the Director of the Bureau of Prisons, at the A_orney General’s
direc]on, scheduled Purkey’s execu]on for July 15, 2020. We will shortly be ﬁling a no]ce aler]ng the
Court to this development.
Regards,
Brian P. Casey
Assistant United States A_orney
Western District of Missouri
400 E. Ninth Street, Room 5510
Kansas City, MO 64106
Phone: 816-426-4138
Fax: 816-426-3126

Page 1 of 1

201a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 187 of 230

Exhibit 39

202a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 188 of 230
Monday, June 15, 2020 at 12:22:08 Central Daylight Time

Subject:
Re: Purkey- expert visita2on
Date:
Monday, June 15, 2020 at 10:54:15 AM Central Daylight Time
From:
Rebecca Woodman
To:
Katherine Siereveld
ADachments: Purkey FOIA re death watch video 2.3.2020.pdf, Purkey FOIA re medical records 2.3.2020.pdf,
Purkey FOIA re death watch protocols and video 2.3.2020.pdf, Purkey FOIA request death
watch protocols 10-9-2019.pdf, Purkey FOIA request medical records 10-9-2019.pdf, Purkey
limited FOIA request 10-9-2019.pdf
Katherine: I am wri2ng separately to request Mr. Purkey’s BOP records. These requests are not new, as we
have requested these records several 2mes previously, most recently this past February, but they have not
yet been honored. I am aVaching copies of all of our previous requests. These records, including Mr. Purkey’s
mental health, medical, and disciplinary records, are necessary in order for Dr. DeRight to review in his
evalua2on and assessment of Mr. Purkey, and without them, such assessment will be necessarily incomplete.
We are reques2ng that these records, updated to the present date, be provided to Mr. Purkey’s counsel
forthwith in order for Dr. DeRight to u2lize those records in his evalua2on and assessment of Mr. Purkey.
As always, please contact me if you have any ques2ons or wish to discuss these maVers.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Rebecca Woodman <rewlaw@outlook.com>
Date: Monday, June 15, 2020 at 8:38 AM
To: Katherine Siereveld <ksiereveld@bop.gov>
Subject: Purkey- expert visita2on
Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al
that Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and
extent of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A
leVer that I received from Dr. DeRight reques2ng the in-person evalua2on is aVached. In addi2on, Dr. DeRight
in his leVer is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to
assessing Mr. Purkey’s current abili2es and disease progression. I recall that we have discussed ways to
accomplish brain imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on
with Dr. DeRight’s evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Page 1 of 2

203a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 189 of 230

Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 2 of 2

204a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 190 of 230

Exhibit 40

205a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 191 of 230

From:
To:
Subject:
Date:

THP/SCU~
Michelle Law
Legal Visit w/ Purkey on 03-20-20 and 03-27-20
Friday, March 13, 2020 1:56:53 PM

Ms. Law,
Due to concerns pertaining to the COVID-19 outbreak, FCC Terre Haute staff have just been advised to postpone
all legal visits. Specifically, legal visits will be suspended for 30 days, at which time the suspension will be
reevaluated. Case-by-case approval at the local level and confidential legal calls will be allowed in order to ensure
access to counsel. If you would like to visit your client in the Special Confinement Unit (SCU) you are strongly
encouraged to contact a member of the SCU Unit Team via past practice as soon as possible. All requests will be
reviewed in the order received and as timely as possible. If approved, all legal representatives will be screened
prior to being admitted inside the facility.
Thank you in advance for your understanding in this matter.
T. Royer
SCU Unit Manager

206a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 192 of 230

Exhibit 41

207a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 193 of 230

From: Nicole McFarland <nmcfarland@bop.gov>
Sent: Friday, March 13, 2020 2:30 PM
To: Adam Johnson <a10johnson@bop.gov>; kirshner@clayro.com; David Pagon <David_Pagon@fd.org>;
Deirdre Vondornum <Deirdre_Vondornum@fd.org>; Jennifer Brown <Jennifer_Brown@fd.org>; Peggy CrossGoldenberg <Peggy_Cross-Goldenberg@fd.org>; nick.lewin@kklllp.com; paul.krieger@kklllp.com;
a.robin@londonrobin.com; tracy_miller@nysd.uscourts.gov; dawn_doino@nysp.uscourts.gov;
rriopelle@sercarzandriopelle.com; bc@sternheimlaw.com; Jeﬀrey Oestericher
<Jeﬀrey.Oestericher@usdoj.gov>; dbanders@wlrk.com
Cc: Holly Pratesi <hpratesi@bop.gov>; Lee Plourde <lplourde@bop.gov>; lindsaylewis@gmail.com;
snecheles@hnrlawoﬃces.com; richrosenberg@msn.com; edward_friedland@nysd.uscourts.gov;
jus1n.danilewitz@saul.com
Subject: MCC and MDC legal visi1ng
Effective immediately legal visits will be suspended for 30 days, at which time the suspension will be re-evaluated.
Case -by-case approval at the local level and confidential legal calls will be allowed in order to ensure access to
counsel.
This applies to MDC Brooklyn and MCC NY and across the BOP.
I am attaching a copy of the message going to inmates at both institutions.

Page 2 of 2

208a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 194 of 230

Exhibit 42

209a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 195 of 230
Wednesday, June 17, 2020 at 16:55:55 Central Daylight Time

Subject:
Re: COVID-19 Legal Visit Scheduling and Screening Policy
Date:
Monday, March 16, 2020 at 2:54:35 PM Central Daylight Time
From:
Katherine Siereveld
To:
Michelle Law
CC:
Elizabeth Vartkessian, THP/SCU~@bop.gov, Kathleen Cleary, rewlaw_outlook.com
AFachments: ATT00001.png
Hi Michelle,
As of now, the screening includes self-reporYng of symptoms and temperature checks based on current CDC guidance. When
you know the date you would like to visit, we ask that you minimize the number of people you wish to a[end, and let us know
as soon as possible. Any approved legal visit will be non-contact. If any of the individuals are symptomaYc based on the
guidelines available to the BOP at the Yme of the visit, they will not be allowed into the insYtuYon. AddiYonally, please
consider whether or not you can conduct the visit by phone conference. We would be happy to allow addiYonal Yme if
necessary. Current BOP informaYon is available here: h[ps://www.bop.gov/resources/news/20200313_covid-19.jsp.
Hope that helps.
Thank you,
Katherine
Katherine N. Siereveld
Senior A[orney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476
>>> Michelle Law <Michelle_Law@fd.org> 3/16/2020 3:22 PM >>>

Katherine:
We received noYce that our in-person legal visits with Mr. Purkey have been suspended for 30 days due to the
COVID-19 virus pandemic. The noYce indicated that during this Yme, legal visits may be approved at the local
level, but visitors will be “screened” before visiYng. In anYcipaYon that it may be necessary to visit Mr. Purkey
in person in the coming weeks, I am wriYng to request a copy of the COVID-19 visitaYon and screening policy
so we can arrange to comply with the policy before visiYng. We do not want to be in a posiYon where an inperson visit with Mr. Purkey is urgently needed, but an unanYcipated aspect of the COVID-19 policy prevents
us from visiYng.
Thank you –
Michelle

Michelle M. Law
Page 1 of 2

210a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 196 of 230
Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-9022
FAX: (417) 873-9038
*This e-mail contains PRIVILEGED and CONFIDENTIAL informaYon intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby noYﬁed that any disseminaYon or
copying of this e-mail is strictly prohibited. If you have received this e-mail in error, please noYfy us by reply email. Thank you for your cooperaYon.

Page 2 of 2

211a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 197 of 230

Exhibit 43

212a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 198 of 230
Wednesday, June 17, 2020 at 16:54:47 Central Daylight Time

Subject:
Re: Dr. Agharkar visit with Wes Purkey
Date:
Monday, March 16, 2020 at 8:54:12 AM Central Daylight Time
From:
Andrew SuHon
To:
Katherine Siereveld, Michelle Law
CC:
Elizabeth Vartkessian, Kathleen Cleary, rewlaw_outlook.com
AGachments: ATT00001.png
This was never scheduled and is now not considered under the circumstances.
>>> Andrew SuHon 3/3/2020 6:57 AM >>>
AwaiUng response...
A. SuHon
Special Conﬁnement Unit
CorrecUonal Counselor
FCC Terre Haute
812-244-4400
asuHon@bop.gov
I have no way of knowing the number of things that I said I would never forget, but have already forgoHen.
"This message is intended for oﬃcial use and may contain SENSITIVE informaUon. If this message contains SENSITIVE informaUon, it should be
properly delivered, labeled, stored, and disposed of according to policy."

>>> Andrew SuHon 2/27/2020 12:26 PM >>>
Do you have a court order for an evaluaUon?
A. SuHon
Special Conﬁnement Unit
CorrecUonal Counselor
FCC Terre Haute
812-244-4400
asuHon@bop.gov
I have no way of knowing the number of things that I said I would never forget, but have already forgoHen.
"This message is intended for oﬃcial use and may contain SENSITIVE informaUon. If this message contains SENSITIVE informaUon, it should be
properly delivered, labeled, stored, and disposed of according to policy."

>>> Michelle Law <Michelle_Law@fd.org> 2/27/2020 8:13 AM >>>

Katherine and Counselor SuHon:

Is March 31, 2020 available for Dr. Agharkar to visit Mr. Purkey? He would like to visit with Mr. Purkey from
11:30 a.m. – 2:30 p.m., and would require the same items as before -- his brief case, wriHen materials, and
pens/pencils. I will double check with him about a laptop, but I do not think he brought a laptop the last Ume
he visited Wes. Please let me know soon as Dr. Agharkar is holding open March 31, and would otherwise
schedule paUent visits on that day.
Please let me know if you have quesUons for me.
ThanksMichelle
Page 1 of 2

213a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 199 of 230

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-9022
FAX: (417) 873-9038
*This e-mail contains PRIVILEGED and CONFIDENTIAL informaUon intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby noUﬁed that any disseminaUon or
copying of this e-mail is strictly prohibited. If you have received this e-mail in error, please noUfy us by reply email. Thank you for your cooperaUon.

Page 2 of 2

214a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 200 of 230

Exhibit 44

215a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 201 of 230

From: Andrew SuPon <asuPon@bop.gov>
Sent: Monday, March 30, 2020 11:18 AM
To: Michelle Law <Michelle_Law@fd.org>
Subject: Purkey visits 4-13, 4-22, and 5-1
Good Afternoon,
Due to the ongoing concerns pertaining to the COVID-19 outbreak, FCC Terre Haute staff have been advised to
continue to postpone all legal and social visits. Specifically, all visits will be suspended through May 3, 2020, at
which time the suspension will be reevaluated. Case-by-case review, upon receiving request, with reasoning
why telephone conference is not adequate, and a verified court ordered deadlines, may be considered. If you must
request a visit your client in the Special Confinement Unit (SCU), you are strongly encouraged to contact a member
of the SCU Unit Team via email as soon as possible. All requests will be reviewed and verified, in the order received,
as timely as possible. If approved, all legal representatives will be screened prior to being admitted inside the facility.
All approved visits would be non-contact. We strongly encourage you to utilize telephone and written
correspondence during this difficult time.
Thank you in advance for your understanding in this matter.

A. Sutton

Page 1 of 2

216a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 202 of 230
Special Confinement Unit
Correctional Counselor
FCC Terre Haute
812-244-4400
asutton@bop.gov
I have no way of knowing the number of things that I said I would never forget, but have already forgotten.
"This message is intended for official use and may contain SENSITIVE information. If this message contains
SENSITIVE information, it should be properly delivered, labeled, stored, and disposed of according to policy."

Page 2 of 2

217a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 203 of 230

Exhibit 45

218a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 204 of 230

U.S. Department of Justice
Federal Bureau of Prisons

FOR IMMEDIATE RELEASE
March 31, 2020

Contact: Office of Public Affairs
202-514-6551

Bureau of Prisons COVID-19 Action Plan: Phase Five
WASHINGTON – Today, the Director of the Bureau of Prisons (BOP)
ordered the implementation of Phase 5 of its COVID-19 Action Plan,
effective tomorrow, April 1, 2020. In response to a growing number
of quarantine and isolation cases in our facilities, the BOP will
take the following actions immediately to further mitigate the
exposure and spread of COVID-19.
•

•

•

•
•

For a 14-day period, inmates in every institution will be
secured in their assigned cells/quarters to decrease the spread
of the virus.
This modification to our action plan is based
on health concerns, not disruptive inmate behavior.
During this time, to the extent practicable, inmates should
still have access to programs and services that are offered
under normal operating procedures, such as mental health
treatment and education.
In addition, the Bureau is coordinating with the United States
Marshals Service (USMS) to significantly decrease incoming
movement during this time.
After 14 days, this decision will be reevaluated and a decision
made as to whether or not to return to modified operations.
Limited group gathering will be afforded to the extent practical
to facilitate commissary, laundry, showers, telephone, and
Trust Fund Limited Inmate Computer System (TRULINCS) access.

Starting in January 2020, the BOP implemented its Pandemic Influenza
contingency plan, modified as an Action Plan for COVID-19.
The BOP
continues to revise and update its action plan in response to the
fluid nature of the COVID-19 pandemic, and in response to the latest
guidance from experts at the World Health Organization (WHO), the
Centers for Disease Control and Prevention (CDC) and the Office of
Personnel Management (OPM).
Background on Phases 1 – 4:
Phase 4: On March 26, 2020, the BOP implemented revised preventative
measures for all institutions. The agency updated its quarantine

219a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 205 of 230

and isolation procedures to require all newly admitted inmates to
BOP, whether in a sustained community transition area or not, be
assessed using a screening tool and temperature check. This
includes all new intakes, detainees, commitments, writ returns from
judicial proceedings, and parole violators, regardless of their
method of arrival. Asymptomatic inmates are placed in quarantine
for a minimum of 14 days or until cleared by medical staff.
Symptomatic inmates are placed in isolation until they test negative
for COVID-19 or are cleared by medical staff as meeting CDC criteria
for release from isolation.
These are the latest measures that follow the first three phases of
the Bureau’s action plan, which may be found here:
www.bop.gov/resources/news/pdfs/20200324 bop press release covid
19 update.pdf
The Bureau will continue to provide daily updates and information
on actions related to COVID-19 at www.bop.gov/coronavirus/

###

220a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 206 of 230

Exhibit 46

221a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 207 of 230
Wednesday, June 17, 2020 at 17:03:22 Central Daylight Time

Subject:
In-person visit follow-up
Date:
Wednesday, April 8, 2020 at 10:46:16 AM Central Daylight Time
From:
Michelle Law
To:
rewlaw_outlook.com
AEachments: image001.png
Checked with Laine and Larry about Kathleen visiLng Wes – the answer was a resounding no, as I thought it
would be. I think we should tell Wes that we are re-evaluaLng as we go, and we will schedule a visit as soon
as the experts tell us it is safe for everyone.

Michelle M. Law
Assistant Federal Public Defender
Western District of Missouri
Springﬁeld, MO 65806
Phone: (417) 873-9022
FAX: (417) 873-9038
*This e-mail contains PRIVILEGED and CONFIDENTIAL informaLon intended only for the use of the
addressee(s) named above. If you are not the intended recipient of this e-mail, or an authorized employee or
agent responsible for delivering it to the intended recipient, you are hereby noLﬁed that any disseminaLon
or copying of this e-mail is strictly prohibited. If you have received this e-mail in error, please noLfy us by
reply e-mail. Thank you for your cooperaLon.

Page 1 of 1

222a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 208 of 230

Exhibit 47

223a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 209 of 230

From:
To:
Subject:
Date:

Andrew Sutton
Michelle Law
Purkey Visits Canceled May 8th and 15th
Wednesday, April 15, 2020 5:39:32 AM

Ms. Law,
Due to concerns pertaining to the COVID-19 outbreak, FCC Terre Haute staff have just been advised to
further postpone all visits. Specifically, visits will be suspended until at least May 18th, 2020, at which time the
suspension will be reevaluated.
Thank you in advance for your understanding in this matter.
A. Sutton
Special Confinement Unit
Correctional Counselor
FCC Terre Haute
812-244-4400
asutton@bop.gov
I have no way of knowing the number of things that I said I would never forget, but have already forgotten.
"This message is intended for official use and may contain SENSITIVE information. If this message contains
SENSITIVE information, it should be properly delivered, labeled, stored, and disposed of according to policy."

224a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 210 of 230

Exhibit 48

225a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 211 of 230

From:
To:
Subject:
Date:

Andrew Sutton
Michelle Law
Purkey Legal Visits 5/20, 5/29, 6/17
Thursday, May 14, 2020 9:53:00 AM

Good Morning,
Due to ongoing concerns pertaining to the Wuhan Virus outbreak, FCC Terre Haute staff have just been advised
to further postpone all visits. Specifically, the Special Confinement Unit Team has just advised that there will not
be a resumption of visitation on May 18th, 2020. There is no date set that visiting will begin to resume. Therefore,
all visits scheduled for the rest of May and continuing through June are hereby postponed until further notice.
Thank you in advance for your understanding in this matter.
A. Sutton
Special Confinement Unit
Correctional Counselor
FCC Terre Haute
812-244-4400
asutton@bop.gov

Reference below:
4/15/2020 6:39 AM >>>
Due to concerns pertaining to the COVID-19 outbreak, FCC Terre Haute staff have just been advised to
further postpone all visits. Specifically, visits will be suspended until at least May 18th, 2020, at which time the
suspension will be reevaluated.
Thank you in advance for your understanding in this matter.

~ 3/13/2020 3:33 PM >>>
Due to concerns pertaining to the COVID-19 outbreak, FCC Terre Haute staff have just been advised to postpone
all legal visits. Specifically, legal visits will be suspended for 30 days, at which time the suspension will be
reevaluated. Case-by-case approval at the local level and confidential legal calls will be allowed in order to ensure
access to counsel. If you would like to visit your client in the Special Confinement Unit (SCU) you are strongly
encouraged to contact a member of the SCU Unit Team via past practice as soon as possible. All requests will be
reviewed in the order received and as timely as possible. If approved, all legal representatives will be screened
prior to being admitted inside the facility.
Thank you in advance for your understanding in this matter.

226a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 212 of 230

Exhibit 49

227a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 213 of 230

228a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 214 of 230

Exhibit 50

229a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 215 of 230
Wednesday, June 17, 2020 at 22:18:56 Central Daylight Time

Subject: Re: Execu)on no)ce for Wesley Purkey
Date: Tuesday, June 16, 2020 at 12:58:02 PM Central Daylight Time
From: Rebecca Woodman
To:
Katherine Siereveld, Michelle Law
Dear Katherine: I am interested in knowing what arrangements are being made with respect to access to our
client in terms of legal, social, and spiritual visits going forward, given the Covid situa)on. Are there wriQen
policies in this regard? If so, I would like to see them. The BOP website, for example, states that “all visi)ng at
this facility has been suspended un)l further no)ce,” so I wonder how we are to proceed. In addi)on to any
wriQen policies, I am happy to discuss these maQers further in a phone call if you would like to do so.
I would appreciate a prompt response in light of the brief window of )me. Thank you.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Monday, June 15, 2020 at 4:48 PM
To: Michelle Law <Michelle_Law@fd.org>, "rewlaw@outlook.com" <rewlaw@outlook.com>
Subject: Execu)on no)ce for Wesley Purkey
Dear Michelle and Rebecca:
Please see the aQached execu)on no)ce which was just provided to inmate Purkey. I will be available
tomorrow to discuss legal and social visits going forward. Do not hesitate to let us know if you have any
ques)ons.
Thank you,
Katherine
Katherine N. Siereveld
Senior AQorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

Page 1 of 1

230a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 216 of 230

Exhibit 51

231a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 217 of 230
Wednesday, June 17, 2020 at 22:26:22 Central Daylight Time

Subject: Re: Execu)on no)ce for Wesley Purkey
Date: Tuesday, June 16, 2020 at 12:59:45 PM Central Daylight Time
From: Katherine Siereveld
To:
Michelle Law, Rebecca Woodman
Hi Rebecca,
We do not have anything wriOen yet but I am working on it. Is there a number I can call you at and I can let you know what the
plan is?
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 1:58 PM >>>

Dear Katherine: I am interested in knowing what arrangements are being made with respect to access to our
client in terms of legal, social, and spiritual visits going forward, given the Covid situa)on. Are there wriOen
policies in this regard? If so, I would like to see them. The BOP website, for example, states that “all visi)ng at
this facility has been suspended un)l further no)ce,” so I wonder how we are to proceed. In addi)on to any
wriOen policies, I am happy to discuss these maOers further in a phone call if you would like to do so.
I would appreciate a prompt response in light of the brief window of )me. Thank you.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Monday, June 15, 2020 at 4:48 PM
To: Michelle Law <Michelle_Law@fd.org>, "rewlaw@outlook.com" <rewlaw@outlook.com>
Subject: Execu)on no)ce for Wesley Purkey
Dear Michelle and Rebecca:
Please see the aOached execu)on no)ce which was just provided to inmate Purkey. I will be available
tomorrow to discuss legal and social visits going forward. Do not hesitate to let us know if you have any
ques)ons.
Thank you,
Katherine
Katherine N. Siereveld
Senior AOorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

Page 1 of 1

232a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 218 of 230

Exhibit 52

233a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 219 of 230
Wednesday, June 17, 2020 at 22:26:51 Central Daylight Time

Subject: Re: Execu)on no)ce for Wesley Purkey
Date: Tuesday, June 16, 2020 at 2:43:32 PM Central Daylight Time
From: Katherine Siereveld
To:
Michelle Law, Rebecca Woodman
CC:
Andrew SuNon
We are s)ll working on a plan that will allow as much visita)on as possible while s)ll mi)ga)ng the risk of exposure to COVID19. I will have something in wri)ng for you by tomorrow, but you can begin to schedule your legal visits as soon as you wish.
The normal schedule will remain the same (M-F, 8-3), we are working on the addi)onal precau)ons re: COVID. Please note that
vending will not be available. Mr. SuNon has been copied on this email and can assist you in scheduling.
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 2:00 PM >>>

Yes, you can call me at the number below.
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 16, 2020 at 12:59 PM
To: Michelle Law <Michelle_Law@fd.org>, Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Execu)on no)ce for Wesley Purkey
Hi Rebecca,
We do not have anything wriNen yet but I am working on it. Is there a number I can call you at and I can let
you know what the plan is?
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 1:58 PM >>>
Dear Katherine: I am interested in knowing what arrangements are being made with respect to access to our
client in terms of legal, social, and spiritual visits going forward, given the Covid situa)on. Are there wriNen
policies in this regard? If so, I would like to see them. The BOP website, for example, states that “all visi)ng at
this facility has been suspended un)l further no)ce,” so I wonder how we are to proceed. In addi)on to any
wriNen policies, I am happy to discuss these maNers further in a phone call if you would like to do so.
I would appreciate a prompt response in light of the brief window of )me. Thank you.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com
Page 1 of 2

234a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 220 of 230

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Monday, June 15, 2020 at 4:48 PM
To: Michelle Law <Michelle_Law@fd.org>, "rewlaw@outlook.com" <rewlaw@outlook.com>
Subject: Execu)on no)ce for Wesley Purkey
Dear Michelle and Rebecca:
Please see the aNached execu)on no)ce which was just provided to inmate Purkey. I will be available
tomorrow to discuss legal and social visits going forward. Do not hesitate to let us know if you have any
ques)ons.
Thank you,
Katherine
Katherine N. Siereveld
Senior ANorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

Page 2 of 2

235a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 221 of 230

Exhibit 53

236a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 222 of 230
Sunday, June 21, 2020 at 22:23:23 Central Daylight Time

Subject: Re: Execu)on no)ce for Wesley Purkey
Date: Friday, June 19, 2020 at 10:04:23 AM Central Daylight Time
From: Rebecca Woodman
To:
Katherine Siereveld
CC:
Michelle Law, McAleer, Chas, Fleming, Brian, Casey, Brian (USAMOW)
Dear Katherine:
I wanted to follow up on our telephone conversa)on and emails of Tuesday, June 16, 2020. Speciﬁcally, you
indicated both in your emails and on the phone that wriYen policies to ensure full access to our client, Wes
Purkey, who is scheduled to be executed on July 15, 2020, for legal, social, and spiritual visita)on while also
protec)ng the safety of our team members, Mr. Purkey, and staﬀ from COVID-19, were being developed and
would be issued forthwith. In our telephone conversa)on on Tuesday, you stated that I would have those
wriYen policies within the next hour or two. In an email later in the day on Tuesday, you stated that I would
have the wriYen policies the following day. However, I have yet to receive any wriYen policy.
The safety measures that you men)oned in our telephone conversa)on on Tuesday – temperature checks,
ques)ons about symptoms, a mask (either one’s own or provided by the facility), and a preference for noncontact visits – are the same measures that were ins)tuted at USP Terre Haute back in March 2020 when the
impact of the COVID-19 pandemic was beginning to be felt in the United States. These measures were also
ins)tuted just before we were ﬁrst no)ﬁed on March 13, 2020 that all of our visits were cancelled un)l
further no)ce and the prison went into full lockdown, and thus are obviously insuﬃcient to ensure our safety
and protec)on from COVID-19. The homepage of USP Terre Haute’s website s)ll prominently displays a
banner sta)ng that “All visi)ng at this facility has been suspended un)l further no)ce.” BOP reports there has
been one death from COVID-19 and ﬁve posi)ve tests at USP Terre Haute, but I am aware of no regular
tes)ng regime of either prisoners or staﬀ at the facility, and the known COVID-19 transmission rates in closed
spaces like a prison is extreme.
Under the circumstances, we are concerned about the ability of USP Terre Haute to accommodate full access
to our client while protec)ng the safety of ourselves, Mr. Purkey, and staﬀ during the )me up to and including
the execu)on itself. In-person access to Mr. Purkey by ourselves and our experts is an essen)al part of our
ability to eﬀec)vely represent him, and is cri)cal as he is facing an execu)on date in less than one month. We
have been unable to conduct any in-person visita)on with Mr. Purkey since March. At the same )me, we
have team members who are high risk because they are medically vulnerable to COVID-19 or who care for
persons who are vulnerable to the virus.
Please provide by close of business today the wriYen policies of measures to protect our safety and the
safety of Mr. Purkey, while ensuring full in-person access to our client for legal, social, and spiritual visita)on
in the next now less than four weeks, up to and including the execu)on itself, as we need to schedule expert
and legal visits immediately.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com
Page 1 of 3

237a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 223 of 230

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 16, 2020 at 2:43 PM
To: Michelle Law <Michelle_Law@fd.org>, Rebecca Woodman <rewlaw@outlook.com>
Cc: Andrew SuYon <asuYon@bop.gov>
Subject: Re: Execu)on no)ce for Wesley Purkey
We are s)ll working on a plan that will allow as much visita)on as possible while s)ll mi)ga)ng the risk of
exposure to COVID-19. I will have something in wri)ng for you by tomorrow, but you can begin to schedule
your legal visits as soon as you wish. The normal schedule will remain the same (M-F, 8-3), we are working
on the addi)onal precau)ons re: COVID. Please note that vending will not be available. Mr. SuYon has been
copied on this email and can assist you in scheduling.
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 2:00 PM >>>
Yes, you can call me at the number below.
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 16, 2020 at 12:59 PM
To: Michelle Law <Michelle_Law@fd.org>, Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Execu)on no)ce for Wesley Purkey
Hi Rebecca,
We do not have anything wriYen yet but I am working on it. Is there a number I can call you at and I can let
you know what the plan is?
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 1:58 PM >>>
Dear Katherine: I am interested in knowing what arrangements are being made with respect to access to our
client in terms of legal, social, and spiritual visits going forward, given the Covid situa)on. Are there wriYen
policies in this regard? If so, I would like to see them. The BOP website, for example, states that “all visi)ng at
this facility has been suspended un)l further no)ce,” so I wonder how we are to proceed. In addi)on to any
wriYen policies, I am happy to discuss these maYers further in a phone call if you would like to do so.
I would appreciate a prompt response in light of the brief window of )me. Thank you.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
Page 2 of 3

238a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 224 of 230
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Monday, June 15, 2020 at 4:48 PM
To: Michelle Law <Michelle_Law@fd.org>, "rewlaw@outlook.com" <rewlaw@outlook.com>
Subject: Execu)on no)ce for Wesley Purkey
Dear Michelle and Rebecca:
Please see the aYached execu)on no)ce which was just provided to inmate Purkey. I will be available
tomorrow to discuss legal and social visits going forward. Do not hesitate to let us know if you have any
ques)ons.
Thank you,
Katherine
Katherine N. Siereveld
Senior AYorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

Page 3 of 3

239a

Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 225 of 230

Exhibit 54

240a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 226 of 230
Saturday, June 20, 2020 at 12:00:37 Central Daylight Time

Subject: Re: Execu)on no)ce for Wesley Purkey
Date: Saturday, June 20, 2020 at 11:55:22 AM Central Daylight Time
From: Rebecca Woodman
To:
Katherine Siereveld
CC:
Michelle Law, McAleer, Chas, Fleming, Brian, Casey, Brian (USAMOW)
Dear Katherine:
Thank you for your email regarding the issue of access to and visits with Mr. Purkey. We have several ini)al
reac)ons.
First and foremost, we believe the decision to schedule Mr. Purkey’s execu)on in the middle of a global
pandemic, at a )me when many states are experiencing severe outbreaks of the COVID-19 virus and prisons
in par)cular are veritable breeding grounds for the COVID-19 virus, is really outrageous and unreasonable.
The decision seems designed to deny Mr. Purkey the basic rights to which he is en)tled under the
circumstances. The fact that the decision to do so was made notwithstanding the pendency of li)ga)on over
Mr. Purkey’s cons)tu)onal rights is par)cularly disturbing.
Second, the rela)vely short no)ce given for his execu)on, i.e., 30 days, is patently unreasonable given all of
the visita)ons, examina)ons and tests that would need to be completed for purposes of the pending
li)ga)on and/or in advance of an execu)on even were there no pandemic. The logis)cal and scheduling
complica)ons caused by the coronavirus pandemic make the decision to proceed with the execu)on on this
accelerated )meline unconscionable.
Third, making the decision to execute Mr. Purkey and providing such short no)ce before the Bureau of
Prisons had developed a comprehensive, wri[en plan, policy or procedure to ensure )mely and safe visits
during the pandemic and thus protect inmates, staﬀ and visitors alike is u[erly reckless. Seman)cs aside, you
repeatedly promised this week to provide us a “wri)ng” that would set forth in detail the precise safety
protocol to protect counsel, our experts, spiritual advisors, family members, and any other person for whom
access to Mr. Purkey will be crucial in the next few weeks leading up to and including the execu)on. You s)ll
have not done so. Sequen)al comments in emails (such as your reference today to the possible installa)on
of a sheet or sheets of plexiglass in one room of the prison 10 days into the 30-day execu)on no)ce period)
does not come close to mee)ng the Bureau’s legal, ethical and moral obliga)ons to provide for the safety of
inmates, staﬀ and visitors, assuming any safety procedures would be suﬃcient to do so during this
pandemic. Moreover, your email comments do not even begin to address all logis)cal and physical aspects
implicated by a visita)on to an inmate. Indeed the absence of such a plan, policy or procedure also would
seem to render impossible a[endance at the execu)on of all required persons.
Fourth, your repeated encouragement this week that we can and should schedule visits seems more like
a disingenuous sugges)on that visita)ons are possible, safe and feasible at this )me, par)cularly since your
own website adamantly states that “All visi)ng at this facility has been suspended un)l further no)ce.” The
last )me you made us such assurances, your staﬀ informed us otherwise, cancelling and/or refusing to
schedule visits. Are all inmates capable of receiving visita)ons at this )me, or is the decision to allow visits to
Mr. Purkey simply a special “accommoda)on” to him individually to facilitate your desire to execute him on
July 15?
Fich, your statements regarding the availability of visits to Mr. Purkey is further meaningless given the
Bureau’s con)nued failure and refusal to provide us the records and informa)on we have been reques)ng for
months (through FOIA and otherwise) – records that would need to be received and reviewed in advance of
Page 1 of 5

241a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 227 of 230
visits with and examina)ons of Mr. Purkey if those visits and examina)ons are to be meaningful and suﬃcient
in any respect. By con)nuing to withhold the requested informa)on from us, you are deliberately ensuring
that any visits with and examina)ons of Mr. Purkey will be impaired and inadequate.
Given the foregoing, your statements regarding the availability of visits with Mr. Purkey are simply not
genuine, in good faith, reasonable, prac)cable, feasible or safe. But even were it otherwise, we cannot begin
to make evalua)ons about whether counsel and experts can safely visit Mr. Purkey without substan)al
addi)onal informa)on wholly apart from the safety plan, policy or protocol. For example, we would
immediately need informa)on about the scope of the outbreak at the Terre Haute facility, including
informa)on about all tes)ng conducted at Terre Haute within the last 30 days, including the number of
individuals who requested tests, the numbers tested, and the results of those tests. In addi)on, we need
informa)on about where the visita)ons will occur, the size of the plexiglass, the ven)la)on in that room, and
any other protec)ons the prison plans to oﬀer. These are just two examples of much more informa)on we
would need to make informed decisions about whether counsel and experts can safely visit Mr. Purkey, such
as the availability of personal protec)ve equipment (beyond a mask) to staﬀ, Mr. Purkey, and visitors from
our team; safety precau)ons taken within the pathways of travel to legal visits with Mr. Purkey generally and
on the day of execu)on; sanita)on and cleaning protocols between visits and between visitors; steps taken to
ensure adequate ven)la)on within the prison; and much more.
Given the urgency of this ma[er and Mr. Purkey’s upcoming execu)on, we request that you respond to this
email (including with the informa)on requested above) before Monday, June 22, 2020, at noon.
Sincerely,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Rebecca Woodman <rewlaw@outlook.com>
Date: Friday, June 19, 2020 at 10:04 AM
To: Katherine Siereveld <ksiereveld@bop.gov>
Cc: Michelle Law <Michelle_Law@fd.org>, "McAleer, Chas" <CMcAleer@milchev.com>, "Fleming,
Brian" <bﬂeming@milchev.com>, "Casey, Brian (USAMOW)" <Brian.Casey@usdoj.gov>
Subject: Re: Execu)on no)ce for Wesley Purkey
Dear Katherine:
I wanted to follow up on our telephone conversa)on and emails of Tuesday, June 16, 2020. Speciﬁcally, you
indicated both in your emails and on the phone that wri[en policies to ensure full access to our client, Wes
Purkey, who is scheduled to be executed on July 15, 2020, for legal, social, and spiritual visita)on while also
protec)ng the safety of our team members, Mr. Purkey, and staﬀ from COVID-19, were being developed and
would be issued forthwith. In our telephone conversa)on on Tuesday, you stated that I would have those
wri[en policies within the next hour or two. In an email later in the day on Tuesday, you stated that I would
have the wri[en policies the following day. However, I have yet to receive any wri[en policy.
The safety measures that you men)oned in our telephone conversa)on on Tuesday – temperature checks,
Page 2 of 5

242a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 228 of 230
ques)ons about symptoms, a mask (either one’s own or provided by the facility), and a preference for noncontact visits – are the same measures that were ins)tuted at USP Terre Haute back in March 2020 when the
impact of the COVID-19 pandemic was beginning to be felt in the United States. These measures were also
ins)tuted just before we were ﬁrst no)ﬁed on March 13, 2020 that all of our visits were cancelled un)l
further no)ce and the prison went into full lockdown, and thus are obviously insuﬃcient to ensure our safety
and protec)on from COVID-19. The homepage of USP Terre Haute’s website s)ll prominently displays a
banner sta)ng that “All visi)ng at this facility has been suspended un)l further no)ce.” BOP reports there has
been one death from COVID-19 and ﬁve posi)ve tests at USP Terre Haute, but I am aware of no regular
tes)ng regime of either prisoners or staﬀ at the facility, and the known COVID-19 transmission rates in closed
spaces like a prison is extreme.
Under the circumstances, we are concerned about the ability of USP Terre Haute to accommodate full access
to our client while protec)ng the safety of ourselves, Mr. Purkey, and staﬀ during the )me up to and including
the execu)on itself. In-person access to Mr. Purkey by ourselves and our experts is an essen)al part of our
ability to eﬀec)vely represent him, and is cri)cal as he is facing an execu)on date in less than one month. We
have been unable to conduct any in-person visita)on with Mr. Purkey since March. At the same )me, we
have team members who are high risk because they are medically vulnerable to COVID-19 or who care for
persons who are vulnerable to the virus.
Please provide by close of business today the wri[en policies of measures to protect our safety and the
safety of Mr. Purkey, while ensuring full in-person access to our client for legal, social, and spiritual visita)on
in the next now less than four weeks, up to and including the execu)on itself, as we need to schedule expert
and legal visits immediately.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 16, 2020 at 2:43 PM
To: Michelle Law <Michelle_Law@fd.org>, Rebecca Woodman <rewlaw@outlook.com>
Cc: Andrew Su[on <asu[on@bop.gov>
Subject: Re: Execu)on no)ce for Wesley Purkey
We are s)ll working on a plan that will allow as much visita)on as possible while s)ll mi)ga)ng the risk of
exposure to COVID-19. I will have something in wri)ng for you by tomorrow, but you can begin to schedule
your legal visits as soon as you wish. The normal schedule will remain the same (M-F, 8-3), we are working
on the addi)onal precau)ons re: COVID. Please note that vending will not be available. Mr. Su[on has been
copied on this email and can assist you in scheduling.
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 2:00 PM >>>
Yes, you can call me at the number below.
Rebecca E. Woodman
Page 3 of 5

243a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 229 of 230
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 16, 2020 at 12:59 PM
To: Michelle Law <Michelle_Law@fd.org>, Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Execu)on no)ce for Wesley Purkey
Hi Rebecca,
We do not have anything wri[en yet but I am working on it. Is there a number I can call you at and I can let
you know what the plan is?
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/16/2020 1:58 PM >>>
Dear Katherine: I am interested in knowing what arrangements are being made with respect to access to our
client in terms of legal, social, and spiritual visits going forward, given the Covid situa)on. Are there wri[en
policies in this regard? If so, I would like to see them. The BOP website, for example, states that “all visi)ng at
this facility has been suspended un)l further no)ce,” so I wonder how we are to proceed. In addi)on to any
wri[en policies, I am happy to discuss these ma[ers further in a phone call if you would like to do so.
I would appreciate a prompt response in light of the brief window of )me. Thank you.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Monday, June 15, 2020 at 4:48 PM
To: Michelle Law <Michelle_Law@fd.org>, "rewlaw@outlook.com" <rewlaw@outlook.com>
Subject: Execu)on no)ce for Wesley Purkey
Dear Michelle and Rebecca:
Please see the a[ached execu)on no)ce which was just provided to inmate Purkey. I will be available
tomorrow to discuss legal and social visits going forward. Do not hesitate to let us know if you have any
ques)ons.
Thank you,
Katherine
Page 4 of 5

244a
Case 1:19-cv-03570-TSC Document 23-6 Filed 06/22/20 Page 230 of 230

Katherine N. Siereveld
Senior A[orney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

Page 5 of 5

245a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 1 of 42

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

)

WESLEY IRA PURKEY,
Plaintiff,
V.

WILLIAM P. BARR, et al.,

Defendants.

)
)
)
)
)
)
)
)
)
)

No. 1:19-cv•03570-TSC

SUPPLEMENTAL DECLARATION OF REBECCA E. WOODMAN,
ATTORNEY AT LAW

Rebecca E. Woodman, pursuant to 28 U.S.C. §1746(2), declares as follows:

1.

I am an attorney representing Plaintiff Wesley I. Purkey ("Mr. Purkey" or

"Plaintiff') in the above-captioned action ("Civil Action"), admitted to the Court pro hac vice. I
am over eighteen (18) years old and competent to attest and declare to the matters set forth herein.
Unless otherwise stated, I have personal knowledge regarding the facts set forth herein.
2.

On June 22, 2020, I submitted a declaration detailing, in pertinent part, Mr.

Purkey' s defense team communications with Federal Bureau of Prisons C'BOP") Legal Counsel
concerning matters pertaining to Mr. Purkey, including various requests for BOP medical and
mental health records, "death watch" surveillance videos, the need for in-person expert visits and
evaluations of Mr. Purkey as well as certain medical tests and imaging, and requests for written
protocols, policies, and procedures concerning COVID-19 safety measures and testing at USP
Terre Haute that would ensure safe access to USP Terre Haute by members of Mr. Purkey's

defense team in the weeks leading up to his July 15, 2020 execution date. My previous declaration
was filed on June 22, 2020 at ECF No. 23-6 in this matter. This supplemental declaration provides

246a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 2 of 42

updated information concerning additional correspondence with BOP regarding the abovementioned matters since the date of my previous declaration.

As set forth in my previous

declaration, I possess the necessary qualifications to submit this supplemental declaration. R.
Woodman Dec. 111-3 (ECF No. 23-6).
3.

As stated in my previous declaration, on June 15, 2020, prior to receiving notice of

Mr. Purkey's new warrant, I emailed BOP Legal Counsel Siereveld regarding my outstanding
request for Mr. Purkey's BOP records, attaching copies of all of my previous requests and
emphasizing the importance of the records to the ability of our expert, Dr. Jonathan DeRight, to
accurately assess and evaluate Mr. Purkey's current mental state and the extent ofhis deterioration,
especially given Dr. DeRight last saw Mr. Purkey in August 2019. R. Woodman Dec. ,r,r 14-15,
Ex. 39 (ECF No. 23-6). In a separate email the same day, also prior to receiving notice of Mr.
Purkey's new warrant, I emailed BOP Legal Counsel Siereveld about the need for Dr. DeRight to
conduct an in-person follow up evaluation of Mr. Purkey. Ex. 1. I attached to the email a letter
from Dr. DeRight setting forth the need to review complete records and for an up to date MRl, an
EEG, and blood laboratory results which are necessary to assess Mr. Purkey's current abilities and
disease progression. Id As of June 22, 2020, the date of my previous declaration, I had received
no response from BOP Legal Counsel Siereveld or any other BOP personnel in response to either
of these outstanding requests.
4.

On June 23, 2020, BOP Legal Counsel Siereveld emai.led a response to my June 15

email regarding the testing set forth in Dr. DeRight's letter, stating that she "went ahead and had
our Medical start working on" getting Mr. Purkey scheduled for an MRl, EEG and blood work,
and that she would need the specific parameters of the blood work needed. Id The next day, I
responded to BOP Legal Counsel, reminding her of our previous requests for the "BOP written

2

247a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 3 of 42

safety plan/protocol/policy relating to COVID-19" in order to determine if and when it is safe to
schedule an expert visit, noting that I had requested these materials several times with no response,
and that the materials were necessary to make that determination. Ex. 2. I also expressed

appreciation for BOP's apparent openness to testing now, after previously refusing to allow this
type oftesting without a court order. 1d Further, I informed BOP Legal Counsel that, to the extent
such testing would be performed by BOP personnel, we would first need information about who
would be administering the testing, their qualifications, training, and experience, and the
equipment that would be used for the testing that we required. Id I also specifically set forth the
testing we required in the email. Given the brief window of time before Mr. Purkey's scheduled
execution date, I asked BOP Legal Counsel to provide this requested information before the close
of business on June 26, 2020. Id
5.

On June 24, 2020, I received a response email from BOP Legal Counsel

Siereveld, who referred me to the BOP website for "BOP's plan" for visitation during the
COVID-19 pandemic. Id. The link BOP Legal Counsel provided for this visitation "plan"
merely states that "[s]ocial visits are suspended" and that "[l]egal visits are suspended for 30
days, at which time the suspension vv-ill be re-evaluated." See id;
https://www.bop.gov/coronavirus/covidl9_status.jsp (last accessed July 2, 2020). The
information on the webpage, even today, remains unchanged from when BOP first suspended all
visitation in mid-March. It provides no information about safety measures for a scheduled and
approved visit apart from a link to the form used to screen incoming visitors. The form asks just
three questions: 1) have you traveled from or through China, Iran, South Korea, Italy, or Japan;
2) have you had close contact with anyone diagnosed with COVID-19 in the last 14 days; and 3)
do you currently have a fever, chills, cough, or shortness of breath. The form is dated March 13,

3

248a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 4 of 42

2020 and contains no indication of having been updated since BOP's original suspension of all
visitation on that date. See VisitorNolunteer/Contractor COVID- 19 Screening Tool, available at
https://www.bop.gov/coronavirus/docs/covidl 9_screening_tool.pdf (last accessed July 2, 2020).
BOP Legal Counsel's June 24, 2020 email reiterated mask availability at USP Terre Haute and
stated that "we have hand sanitizing stations available and plexiglass has been installed in the
contact visitation booth." Ex. 2. Apart from this extremely limited information, BOP Legal
Counsel provided no explanation for where and to whom the sanitizing stations would be
available or how social distancing will be enforced at the various stages of visitation, including
the process of checking in, going through security, and moving throughout the facility on the
way to and from the visiting rooms. Instead, she ended her communication on the topic of
COVID-19-related safety measures by stating, "[i] is unclear what additional protocols you are
seeking." Id
6.

Regarding the provision of medical testing, BOP Legal Counsel stated in this same

June 24, 2020 email that it remained BOP's position that "any medical or psychological testing
which is not clinically indicated (such as this) requires a court order" but that "recogniz[ing] the
urgency of the time frame," BOP was willing to make an "exception" to the court order
requirement ifwe did not yet obtain a court order- unless an order was issued denying our request
for outside testing. Id. BOP Legal Counsel stated further that BOP staff would not be performing
any ofthe tests, which would have to be performed by outside medical personnel, with the possible
exception of blood tests. Id. In an email sent the next day, June 25, 2020, BOP Legal Counsel
Siereveld advised that BOP "cannot order or pay for testing which is not clinically indicated." Ex.
3. Referring to an attached email chain on October 4, 2019 between herself and Michelle Law
regarding costs ofdifferent tests discussed at that time, BOP Legal Counsel stated she was working

4

249a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 5 of 42

to confirm that the estimated costs therein were consistent with what they would be today. She
also indicated that the security costs set forth in the earlier email correspondence with Ms. Law
would likely remain the same, but that she was "running that to ground as well." Id.; see also R.
Woodman Dec., 7, Ex. 17 (ECF No. 23-6). BOP Legal Counsel requested that I send her the
specific parameters of the additional testing so that she could provide cost estimates and begin
scheduling. Ex. 3.
7.

I sent an email response to BOP Legal Counsel Siereveld the same day, June 25,

2020, requesting further information with respect to COVID-19, given that the "plan" outlined in
all previous correspondence appeared to be materially unchanged from the plan that was
implemented prior to the COVID-19 lockdown and remained insufficient to address our concerns.
Ex. 4. I also requested further information regarding the medical testing of Mr. Purkey, including
the hospital that would conduct the testing, whether the hospital had the equipment and personnel
to conduct the requested testing, the logistics of transporting Mr. Purkey for the testing, and the
safety precautions for doing so in light of the ongoing pandemic. I. also confirmed the specific
blood tests we were requesting. Id. Finally, I reminded BOP Legal Counsel of our prior, repeated
requests for complete BOP medical records and videos that had been withheld. Id.
8.

On June 26, 2020, BOP Legal Counsel responded by email that "sanitizing stations"

'A'ill be placed "between the front entrance and the SCU [Special Confinement Unit]," but made

no mention of the availability of such stations inside the facility. Id BOP Legal Counsel also
stated for the first time that "our intent is to assign one visiting room to a particular inmate to
further reduce any possibility of cross-contamination" but acknowledged that there are only three
non-contact visiting rooms. Id. This response fails to account for the possibility that the visiting
rooms, even if apportioned in this way, would still be used by an unspecified number of different

5

250a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 6 of 42

individuals, given each prisoner would likely have visits from multiple people. BOP Legal Counsel
did not elaborate on how BOP' s "intent" would change in the event more than three prisoners have
scheduled visits. Additionally, BOP Legal Counsel's email implied this arrangement regarding

non-contact visits applied only to "social" visits. Id. Given BOP Legal Counsel's email the
previous week stating a "preference" for non-contact visits, it is still unclear what if any
arrangements the BOP is making for contact visits with members of the defense team, aside from
a brief reference to plexiglass having been installed in one contact visitation booth.
9.

With respect to our repeated and renewed requests for medical records and "death

watch" surveillance videos, all of which I attached in email correspondence to BOP Legal Counsel
as recently as June 15, 2020 (R. Woodman Dec.1114-15, Ex. 39 (ECF No. 23-6)), BOP Legal
Counsel c1aimed in her June 26, 2020 email that she was "unaware of any outstanding requests for
medical and psychological records[.]" Ex. 4. Despite having previously and repeatedly advised
us that, in order to obtain such records for Mr. Purkey, we should utilize the FOIA process, and
despite the fact that we did submit multiple FOIA requests, BOP Legal Counsel this time stated
that "the two quickest ways~' to obtain "medical and psych" files was to ask our client to request a
copy of his own records through BOP staff, or "through the discovery process." Id. Regarding
the requested testing, BOP Legal Counsel stated that the BOP "cannot provide you with specifics
as to the logistics for security reasons," and asked us to let her know how we would like to proceed.

Id.
10.

On June 30, 2020, I sent an email to BOP Legal Counsel Siereveld advising her

that we had identified University Hospital in Indianapolis as a location where all of our requested
testing could be performed, and that we were in the process of confirming which days during the
week of July 6, 2020 the hospital could perform the tests. Ex. 5. I informed BOP Legal Counsel

6

251a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 7 of 42

that we would provide that information to her once we confirmed it. Id. I also again requested
information that would assure us that Mr. Purkey's health would be suitably and adequately
protected during the process of transferring him to the hospital for the testing and again requested
further information about our pandemic-related concerns and inquiries, given that the information
we had received thus far remained insufficient to address those concerns regarding the safety of
visiting USP Terre Haute and the effort to conduct executions in the midst of the pandemic. Id I
further informed BOP Legal Counsel that her stated lack of knowledge of our outstanding records
request was neither credible nor made in good faith in light of my prior requests, and that her
assertion now that we could obtain these records through our client, whom BOP was seeking to
execute in the next two weeks, or through the discovery process, which defense counsel was
actively opposing, was not a good faith response. Id.
11.

On July 1, 2020, I emailed BOP Legal Counsel Siereveld and attached specific

testing orders written by our expert, Dr. Thomas Hyde, M.D., Ph.D., and stated that we were
seeking to confirm the testing at Methodist Hospital in Indianapolis for two days next week, on
July 7 and July 9, 2020. I further informed BOP Legal Counsel that we would confirm specific
scheduling with her so that necessary transportation arrangements for Mr. Purkey could be made.

Ex. 6. To date, I have received no further response from BOP Legal Counsel.
I DECLARE PURSUANT TO 28 U.S.C. §1746(2) AND UNDER PENALTY OF PERJURY
THAT THE FOREGOING FACTS ARE TRUE AND CORRECT.

DATED:

&,c,-4
~
REBEC EOODMAN

]-2.- Z-l>zo

ATTORNEY AT LAW
COUNSEL FOR MR. PURKEY

7

252a

Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 8 of 42

Exhibit 1

253a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 9 of 42
Wednesday, July 1, 2020 at 15:09:24 Central Daylight Time

Subject: Re: Purkey- expert visita2on
Date: Tuesday, June 23, 2020 at 12:48:07 PM Central Daylight Time
From: Katherine Siereveld
To:
Rebecca Woodman
Hi Rebecca,
Just following up on this. I know we discussed expert visits during our conversa2on, but I don't recall if you have made
arrangements for Dr. DeRight to come to the ins2tu2on? I did not see any follow up informa2on on these speciﬁc issues. I
went ahead and had our Medical start working on geTng him scheduled for an MRI and EEG, but we will need the parameters
the doctor is looking for in addi2on to the speciﬁc blood work he needs.
Thanks,
Katherine
Katherine N. Siereveld
Senior AYorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476
>>> Rebecca Woodman <rewlaw@outlook.com> 6/15/2020 9:38 AM >>>

Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al that
Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and extent
of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A leYer that I
received from Dr. DeRight reques2ng the in-person evalua2on is aYached. In addi2on, Dr. DeRight in his leYer
is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to assessing Mr.
Purkey’s current abili2es and disease progression. I recall that we have discussed ways to accomplish brain
imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on with Dr. DeRight’s
evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 1 of 1

254a

Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 10 of 42

Exhibit 2

255a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 11 of 42
Wednesday, July 1, 2020 at 15:08:45 Central Daylight Time

Subject:
Re: Purkey- expert visita2on
Date:
Wednesday, June 24, 2020 at 3:25:57 PM Central Daylight Time
From:
Katherine Siereveld
To:
Rebecca Woodman
CC:
Brian Fleming, Chas McAleer, Brian Casey
AGachments: WP.pdf, Scanning_Parameters_1.pdf
Hi Rebecca,
As discussed in our prior emails, the BOP's plan for legal visits can be found on the BOP
website, hVps://www.bop.gov/coronavirus/covid19_status.jsp. Addi2onally, the Terre Haute speciﬁc numbers you requested
can be found here: hVps://www.bop.gov/coronavirus/. I also advised that masks are to be worn at all 2mes in the facility. If
you do not have a mask, one will be provided to you. Addi2onally, we have sani2zing sta2ons available and plexiglass has been
installed in the contact visita2on booth. We have already begun successful visi2ng for the inmates who received execu2on
dates. It is unclear what addi2onal protocols you are seeking.
In the email chain you aVached between Ms. Law and I, it was clear that she was seeking a court order. While it is s2ll
our posi2on that any medical or psychological tes2ng which is not clinically indicated (such as this) requires a court order,
we recognize the urgency of the 2me frame and are willing to make an excep2on if you did not yet obtain a court order as
indicated in the email from 10/4/2019 unless an order was issued denying your request for the outside tes2ng. Did the Court
deny your request or was an order not sought?
BOP staﬀ will not perform any of these tests. All of the requested tests would need to be performed by outside medical
personnel. The only excep2on might be the blood tests. BOP personnel would likely draw the blood and then send to an
outside lab for the requested tests. Do you have a list of the tests? I believe the two aVached orders are all that I have from
October 2019.
Finally, I will be in a deposi2on tomorrow so you will likely receive an out of oﬃce reply from me. I will s2ll have access to email
and can step out to call if necessary.
Thank you,
Katherine
Katherine N. Siereveld
Senior AVorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476
>>> Rebecca Woodman <rewlaw@outlook.com> 6/24/2020 9:30 AM >>>

Dear Katherine:

We are wai2ng for the BOP wriVen safety plan/protocol/policy rela2ng to COVID-19 in order to determine if
and when it is safe to schedule an expert visit. I have requested these wriVen materials several 2mes now, and
I renew my request here. I appreciate that BOP now appears to be open to tes2ng by our experts aker
previously refusing to allow this type of tes2ng without a court order. (See aVached email correspondence.)
Does this cons2tute a reversal of BOP’s prior posi2on? In addi2on, were such tes2ng to be performed by BOP
personnel, we would ﬁrst need informa2on about who would be administering the tests, the precise
equipment that would be used, and the qualiﬁca2ons, training, and experience of the personnel who would be
administering the following tests that we require:
1.

An MRI with and without contrast,

Page 1 of 3

256a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 12 of 42
2.

Two types of PET scans

3.

An EEG

4.

A variety of blood tests

5.

A lumbar puncture and cerebrospinal ﬂuid assays (spinal tap)

6.

A DTI scan

Please provide the requested informa2on on or before close of business on Friday, June 26, 2020, so that we
can make an informed judgment about scheduling expert visits.

Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 23, 2020 at 12:48 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
Just following up on this. I know we discussed expert visits during our conversa2on, but I don't recall if you
have made arrangements for Dr. DeRight to come to the ins2tu2on? I did not see any follow up informa2on
on these speciﬁc issues. I went ahead and had our Medical start working on gepng him scheduled for an MRI
and EEG, but we will need the parameters the doctor is looking for in addi2on to the speciﬁc blood work he
needs.
Thanks,
Katherine
Katherine N. Siereveld
Senior AVorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/15/2020 9:38 AM >>>
Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al that
Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and extent
Page 2 of 3

257a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 13 of 42
of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A leVer that I
received from Dr. DeRight reques2ng the in-person evalua2on is aVached. In addi2on, Dr. DeRight in his leVer
is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to assessing Mr.
Purkey’s current abili2es and disease progression. I recall that we have discussed ways to accomplish brain
imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on with Dr. DeRight’s
evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 3 of 3

258a

Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 14 of 42

Exhibit 3

259a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 15 of 42
Wednesday, July 1, 2020 at 15:08:02 Central Daylight Time

Subject:
Re: Purkey- expert visita2on
Date:
Thursday, June 25, 2020 at 1:01:58 PM Central Daylight Time
From:
Katherine Siereveld
To:
Rebecca Woodman
CC:
Rick Winter, Brian Fleming, Chas McAleer, Brian Casey
AFachments: RE: Medical Imaging Tests for Wesley Purkey.eml
Hi Rebecca,
I have re-aRached the email chain between Michelle Law and myself regarding the costs of the diﬀerent tests which were
discussed at that 2me. As a reminder, the BOP cannot order or pay for tes2ng which is not clinically indicated. I am working to
conﬁrm that those costs are consistent with what they would be today. The security costs will likely remain the same, but I am
running that to ground as well. Please let me know as soon as possible the speciﬁc parameters of the addi2onal tes2ng which
was not previously iden2ﬁed so I can get cost es2mates to you and we can begin scheduling.
Thanks,
Katherine
>>> Katherine Siereveld 6/24/2020 4:25 PM >>>
Hi Rebecca,
As discussed in our prior emails, the BOP's plan for legal visits can be found on the BOP
website, hRps://www.bop.gov/coronavirus/covid19_status.jsp. Addi2onally, the Terre Haute speciﬁc numbers you requested
can be found here: hRps://www.bop.gov/coronavirus/. I also advised that masks are to be worn at all 2mes in the facility. If
you do not have a mask, one will be provided to you. Addi2onally, we have sani2zing sta2ons available and plexiglass has been
installed in the contact visita2on booth. We have already begun successful visi2ng for the inmates who received execu2on
dates. It is unclear what addi2onal protocols you are seeking.
In the email chain you aRached between Ms. Law and I, it was clear that she was seeking a court order. While it is s2ll
our posi2on that any medical or psychological tes2ng which is not clinically indicated (such as this) requires a court order,
we recognize the urgency of the 2me frame and are willing to make an excep2on if you did not yet obtain a court order as
indicated in the email from 10/4/2019 unless an order was issued denying your request for the outside tes2ng. Did the Court
deny your request or was an order not sought?
BOP staﬀ will not perform any of these tests. All of the requested tests would need to be performed by outside medical
personnel. The only excep2on might be the blood tests. BOP personnel would likely draw the blood and then send to an
outside lab for the requested tests. Do you have a list of the tests? I believe the two aRached orders are all that I have from
October 2019.
Finally, I will be in a deposi2on tomorrow so you will likely receive an out of oﬃce reply from me. I will s2ll have access to email
and can step out to call if necessary.
Thank you,
Katherine
Katherine N. Siereveld
Senior ARorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476
>>> Rebecca Woodman <rewlaw@outlook.com> 6/24/2020 9:30 AM >>>

Dear Katherine:

We are wai2ng for the BOP wriRen safety plan/protocol/policy rela2ng to COVID-19 in order to determine if
and when it is safe to schedule an expert visit. I have requested these wriRen materials several 2mes now, and
I renew my request here. I appreciate that BOP now appears to be open to tes2ng by our experts aler
Page 1 of 3

260a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 16 of 42
previously refusing to allow this type of tes2ng without a court order. (See aRached email correspondence.)
Does this cons2tute a reversal of BOP’s prior posi2on? In addi2on, were such tes2ng to be performed by BOP
personnel, we would ﬁrst need informa2on about who would be administering the tests, the precise
equipment that would be used, and the qualiﬁca2ons, training, and experience of the personnel who would be
administering the following tests that we require:
1.

An MRI with and without contrast,

2.

Two types of PET scans

3.

An EEG

4.

A variety of blood tests

5.

A lumbar puncture and cerebrospinal ﬂuid assays (spinal tap)

6.

A DTI scan

Please provide the requested informa2on on or before close of business on Friday, June 26, 2020, so that we
can make an informed judgment about scheduling expert visits.

Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 23, 2020 at 12:48 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
Just following up on this. I know we discussed expert visits during our conversa2on, but I don't recall if you
have made arrangements for Dr. DeRight to come to the ins2tu2on? I did not see any follow up informa2on
on these speciﬁc issues. I went ahead and had our Medical start working on gepng him scheduled for an MRI
and EEG, but we will need the parameters the doctor is looking for in addi2on to the speciﬁc blood work he
needs.
Thanks,
Katherine
Katherine N. Siereveld
Senior ARorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802

Page 2 of 3

261a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 17 of 42
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/15/2020 9:38 AM >>>
Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al that
Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and extent
of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A leRer that I
received from Dr. DeRight reques2ng the in-person evalua2on is aRached. In addi2on, Dr. DeRight in his leRer
is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to assessing Mr.
Purkey’s current abili2es and disease progression. I recall that we have discussed ways to accomplish brain
imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on with Dr. DeRight’s
evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 3 of 3

262a

Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 18 of 42

Exhibit 4

263a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 19 of 42
Wednesday, July 1, 2020 at 15:06:38 Central Daylight Time

Subject: Re: Purkey- expert visita2on
Date: Friday, June 26, 2020 at 12:34:12 PM Central Daylight Time
From: Katherine Siereveld
To:
Rebecca Woodman
CC:
Rick Winter, MichelleLaw, Brian Fleming, ChasMcAleer, Brian Casey
Hi Rebecca,
I think there may be some confusion regarding the COVID-19 tes2ng data you are seeking. You are correct that the
BOP webpage did not ini2ally have detailed data about the tes2ng, but that is no longer the case. If you scroll to the
sec2on aXer the facility-by-facility breakdown of ac2ve cases, you will see a sec2on which details the numbers of
completed tests, pending tests, and posi2ve tests. That data is shown both in the aggregate and for each facility. The
data is further explained on the webpage under the heading “About the Data” which I have copied here:

About the Data
These data are compiled from a variety of sources and reviewed by BOP Health Services staff before
documented for reporting. Not all tests are conducted by and/or reported to BOP. The number of positive
tests at a facility is not equal to the number of cases, as one person may be tested more than once. The
number of tests recorded per site reflects the number of persons at the specific facility who have been
tested, whether at that site or at a prior facility.
As for the sanita2on sta2ons, yes, those include hand sani2zer and individual sani2zing wipes liberally available at
points between the front entrance and the SCU. This is obviously in addi2on to the soap and water provided in the
restrooms, and any addi2onal sani2zer you wish to request from staﬀ. The individual visi2ng rooms are wiped down
before and aXer visits. Addi2onally, to the extent possible, we are a_emp2ng to assign visi2ng spaces to each inmate.
For example, we have 3 non-contact visi2ng rooms and have so far only had social visits requested for 3 inmates. Un2l
we have more than those three, our intent is to assign one visi2ng room to a par2cular inmate to further reduce any
possibility of cross-contamina2on.
I am unaware of any outstanding requests for medical and psychological records, but if you can let me know when and
how you requested them, that can help me track them down. As a general rule, the two quickest ways to receive
medical and psych ﬁles is for either your client to request a copy of his own records via a request to staﬀ, which he can
then forward to you; or, request those records through the discovery process.
With regard to the outside tes2ng you are now reques2ng, we cannot provide you with speciﬁcs as to the logis2cs for
security reasons. Once the tests are conﬁrmed, we will be able to advise that one or more facili2es will be able to
conduct the tes2ng you have requested within the diagnos2c parameters you have outlined. You will receive the
results which will have the names of the facili2es and medical personnel as part of the records. To that end, I will let
you know if any addi2onal informa2on is required to successfully schedule those tests.
The BOP does not pay for unnecessary outside tests on inmates which are not clinically indicated. Per our medical and
psychology staﬀ, a review of Mr. Purkey’s records reveals no clinical indica2on for the tes2ng you are reques2ng. Our
medical and psychology staﬀ simply cannot order tes2ng which they do not believe is necessary to the care of that
individual. Please let us know how you would like to proceed.

Page 1 of 6

264a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 20 of 42
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/25/2020 8:39 PM >>>

Hi Katherine:

Thank you for your emails dated June 24, 2020 (4:26 p.m.) and today at 1:02 p.m. In response, and further to
my prior emails on this topic, including in par2cular my email dated June 20, 2020 (12:55 p.m.), I respond as
follows.
Once again, your plan for visits at USP Terre Haute, which appears to be materially unchanged from the plan
that was implemented prior to the COVID-19 lockdown, remains insuﬃcient to address our concerns.
As I have stated numerous 2mes, in order for us to make informed decisions about the safety of any visita2on
at USP Terre Haute – whether by Mr. Purkey’s legal counsel, expert witnesses, spiritual advisors, friends or
family members -- we need much more informa2on. The cri2cal nature of the associated risks and the
essen2al role of data to make safety determina2ons should come as no surprise to you. Indeed, the need for
extensive informa2on to evaluate COVID-19 related health risks in prisons is the subject of virtually daily court
opinions (see the a_ached June 18, 2020, decision by the U.S. District Court for the District of Columbia) and
media exposes. See T. Thomas, “How U.S. Prisons Became Ground Zero for Covid-19,” Poli2co (June 25, 2020),
h_ps://www.poli2co.com/news/magazine/2020/06/25/criminal-jus2ce-prison-condi2ons-coronavirus-inprisons-338022.
For example, you s2ll have not provided all the tes2ng data we and our experts need to evaluate the risks
associated with visita2ons and to develop necessary mi2ga2on risks. We are well aware of the COVID-19
sta2s2cs repor2ng the number of conﬁrmed posi2ve cases posted on BOP’s website. We are reques2ng
cri2cal contextual informa2on about those posi2ve numbers, including informa2on about the numbers of
tests administered, the number of pending test results, and the numbers of posi2ve and nega2ve results. We
have requested this informa2on from you and in our court ﬁlings, but the answers have s2ll not been
forthcoming.
Addi2onally, we have no informa2on from you at this 2me about sanita2on, the frequency of surface cleaning
and disinfec2ng throughout the buildings from the front door entry point to the visita2on booths, and I have
no idea what you mean when you refer to “sani2zing sta2ons.” Is that shorthand for the hand sani2zer you’ve
men2oned in our previous correspondence? Nor is it clear what you mean by “successful visi2ng for the
inmates who have execu2on dates” – since COVID-19 has a 2-14 day incuba2on period following exposure to
the virus, the mere fact that a visita2on has taken place is in no way an indicator of “success,” however
deﬁned. (It is worth no2ng that the apparent con2nued prohibi2on on visita2ons with prisoners at USP Terre
Haute who are not facing execu2on is proof enough of the high risk to which prisoners, staﬀ and visitors are
exposed at the prison. “Excep2ng” certain prisoners for pre-execu2on visita2ons does not preclude that risk.)
Leaving aside what your willingness and apparent ability now to grant Mr. Purkey an excep2on to be tested

Page 2 of 6

265a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 21 of 42
says about your previous insistence on a court order (which we sought but were denied in prior li2ga2on
because there was not a Ford claim pending, which there now is in federal district court), many ques2ons
remain before we can go forward with any tes2ng. Speciﬁcally, we need to know the precise logis2cs of
accomplishing the tes2ng in the short 2me period available. In which hospital will the tes2ng take place? Does
the hospital have the equipment and personnel available to conduct the blood tests, MRI, DTI, two types of
PET scans (one using a radioac2ve tracer to measure glucose metabolism in regions of the brain , and a second
measuring the deposi2on of an abnormal protein in the brain called amyloid-b), and EEG that we are
reques2ng? We need to know the logis2cs of transpor2ng our client for the tes2ng, e.g., how will it be done
safely, when it can be done, what steps need to be taken in order to facilitate transporta2on, such as what sort
of paperwork will be required?
With respect to the issue of blood tests, and given that Mr. Purkey will need to be transported to a hospital for
the necessary imaging tests, it seems unnecessary for prison staﬀ to conduct the necessary blood tests, which
can be performed by hospital staﬀ. However, to respond to your inquiry, the necessary blood tests would
include the following (please excuse any layperson imprecision):
Complete Blood count and diﬀeren2al;
Fas2ng blood glucose;
Liver func2on tests AST ALT GGT;
Bilirubin level;
Renal func2on (BUN and crea2ne);
Thyroid;
Lyme;
Syphilis;
HIV;
B12; and
Folate.
Finally, we are not prepared to accept your denial of responsibility for the costs of tes2ng, par2cularly your
apparent jus2ﬁca2on that the requested tes2ng is not “clinically indicated.” We have submi_ed substan2al
evidence in the pending Ford li2ga2on to demonstrate that such tes2ng is, in fact, warranted and clinically
indicated, regardless of how such tes2ng might also inform adjudica2on of the pending li2ga2on. That
conclusion will become even more evident when we and our experts are able to review Mr. Purkey’s complete
medical records and video surveillance records, which we have been repeatedly reques2ng and which have
been withheld from us. Indeed, those records may demonstrate in further detail that the requested tes2ng
has been “clinically indicated” for some 2me but not administered by the Bureau of Prisons.
In closing, having conﬁrmed for you the necessary blood tests and imaging that need to occur, we will await
the details regarding how that tes2ng will be implemented. We will also await the full scope of COVID-19
related informa2on we have requested and, whether extant or not, the details of all of the safety protocols
necessary to protect the health of Mr. Purkey, prison staﬀ and visitors given the COVID-19 sta2s2cs and
condi2ons of the prison, on the basis of which we and our experts can determine whether and under what
circumstances visits with Mr. Purkey can be scheduled and safely conducted.

Page 3 of 6

266a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 22 of 42

Sincerely,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Thursday, June 25, 2020 at 1:02 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Cc: Rick Winter <rwinter@bop.gov>, Brian Fleming <bﬂeming@milchev.com>, Chas McAleer
<CMcAleer@milchev.com>, Brian Casey <Brian.Casey@usdoj.gov>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
I have re-a_ached the email chain between Michelle Law and myself regarding the costs of the diﬀerent tests
which were discussed at that 2me. As a reminder, the BOP cannot order or pay for tes2ng which is not
clinically indicated. I am working to conﬁrm that those costs are consistent with what they would be today.
The security costs will likely remain the same, but I am running that to ground as well. Please let me know as
soon as possible the speciﬁc parameters of the addi2onal tes2ng which was not previously iden2ﬁed so I can
get cost es2mates to you and we can begin scheduling.
Thanks,
Katherine
>>> Katherine Siereveld 6/24/2020 4:25 PM >>>
Hi Rebecca,
As discussed in our prior emails, the BOP's plan for legal visits can be found on the BOP
website, h_ps://www.bop.gov/coronavirus/covid19_status.jsp. Addi2onally, the Terre Haute speciﬁc numbers
you requested can be found here: h_ps://www.bop.gov/coronavirus/. I also advised that masks are to
be worn at all 2mes in the facility. If you do not have a mask, one will be provided to you. Addi2onally, we
have sani2zing sta2ons available and plexiglass has been installed in the contact visita2on booth. We have
already begun successful visi2ng for the inmates who received execu2on dates. It is unclear what addi2onal
protocols you are seeking.
In the email chain you a_ached between Ms. Law and I, it was clear that she was seeking a court order. While

Page 4 of 6

267a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 23 of 42
it is s2ll our posi2on that any medical or psychological tes2ng which is not clinically indicated (such as this)
requires a court order, we recognize the urgency of the 2me frame and are willing to make an excep2on if you
did not yet obtain a court order as indicated in the email from 10/4/2019 unless an order was issued denying
your request for the outside tes2ng. Did the Court deny your request or was an order not sought?
BOP staﬀ will not perform any of these tests. All of the requested tests would need to be performed by
outside medical personnel. The only excep2on might be the blood tests. BOP personnel would likely draw the
blood and then send to an outside lab for the requested tests. Do you have a list of the tests? I believe the
two a_ached orders are all that I have from October 2019.
Finally, I will be in a deposi2on tomorrow so you will likely receive an out of oﬃce reply from me. I will s2ll
have access to email and can step out to call if necessary.
Thank you,
Katherine
Katherine N. Siereveld
Senior A_orney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/24/2020 9:30 AM >>>
Dear Katherine:
We are wai2ng for the BOP wri_en safety plan/protocol/policy rela2ng to COVID-19 in order to determine if
and when it is safe to schedule an expert visit. I have requested these wri_en materials several 2mes now, and
I renew my request here. I appreciate that BOP now appears to be open to tes2ng by our experts aXer
previously refusing to allow this type of tes2ng without a court order. (See a_ached email correspondence.)
Does this cons2tute a reversal of BOP’s prior posi2on? In addi2on, were such tes2ng to be performed by BOP
personnel, we would ﬁrst need informa2on about who would be administering the tests, the precise
equipment that would be used, and the qualiﬁca2ons, training, and experience of the personnel who would be
administering the following tests that we require:
1.

An MRI with and without contrast,

2.

Two types of PET scans

3.

An EEG

4.

A variety of blood tests

5.

A lumbar puncture and cerebrospinal ﬂuid assays (spinal tap)

6.

A DTI scan

Please provide the requested informa2on on or before close of business on Friday, June 26, 2020, so that we
can make an informed judgment about scheduling expert visits.

Best,
Page 5 of 6

268a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 24 of 42

Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 23, 2020 at 12:48 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
Just following up on this. I know we discussed expert visits during our conversa2on, but I don't recall if you
have made arrangements for Dr. DeRight to come to the ins2tu2on? I did not see any follow up informa2on
on these speciﬁc issues. I went ahead and had our Medical start working on gewng him scheduled for an MRI
and EEG, but we will need the parameters the doctor is looking for in addi2on to the speciﬁc blood work he
needs.
Thanks,
Katherine
Katherine N. Siereveld
Senior A_orney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/15/2020 9:38 AM >>>
Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al that
Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and extent
of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A le_er that I
received from Dr. DeRight reques2ng the in-person evalua2on is a_ached. In addi2on, Dr. DeRight in his le_er
is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to assessing Mr.
Purkey’s current abili2es and disease progression. I recall that we have discussed ways to accomplish brain
imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on with Dr. DeRight’s

Page 6 of 6

269a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 25 of 42
evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 7 of 6

270a

Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 26 of 42

Exhibit 5

271a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 27 of 42
Wednesday, July 1, 2020 at 15:05:59 Central Daylight Time

Subject: Re: Purkey- expert visita2on
Date: Tuesday, June 30, 2020 at 6:15:34 PM Central Daylight Time
From: Rebecca Woodman
To:
Katherine Siereveld
CC:
Rick Winter, MichelleLaw, Brian Fleming, ChasMcAleer, Brian Casey
Dear Katherine:
Thank you for your email on June 26, 2020 (1:34 p.m.). I respond as follows:
1. With respect to the issue of tes2ng, we have already iden2ﬁed a facility at which all of the tes2ng we have
requested can be performed: the University Hospital at Indiana University in Indianapolis. We have
conﬁrmed that the hospital has the staﬀ and the equipment to perform all of the requested tests. We are
also conﬁrming what days next week the hospital can perform the tests. Once we have that conﬁrma2on, we
will let you know the days on which Mr. Purkey will need to be transported to the hospital. (The tests will
have to be performed over a two-day period, so Mr. Purkey will need to be returned to the hospital for the
second day of tes2ng.)
2. With respect to the details regarding Mr. Purkey’s transporta2on to the hospital, we understand there may
be security issues, which is why we are not reques2ng those details. However, we do want details regarding
how Mr. Purkey’s health will be protected during the transfer given COVID-19 factors and request assurances
that his health will be suitably and adequately protected during the process.
3. Leaving aside whether and to what extent the BOP should be responsible for paying or reimbursing the
costs of the requested tes2ng, the fact remains that, as far back as October 2019, Michelle Law made clear to
you in repeated conversa2ons and email communica2ons that the Oﬃce of the Federal Public Defender
would front the costs of the tests. That remains the case. Accordingly, the costs of the tests cannot be
properly raised by the BOP as an impediment to next week’s tests occurring.
4. With respect to our pandemic-related concerns and inquiries, the limited, general and vague informa2on
the BOP has provided regarding COVID-19 tes2ng and results remain insuﬃcient to address the ques2ons
and issues we have raised regarding USP Terre Haute. Indeed, we do not even know from you whether our
client has been tested, when he was tested and what the results of any such tests were.
5. The email descrip2ons you have provided regarding certain COVID-19 safety measures USP Terre Haute is
beginning to implement regarding visita2ons are similarly insuﬃcient to address the concerns we have
raised. You have not even indicated whether our client and any visitors will be permiaed and/or required to
u2lize full PPE protec2on during any visits, leaving aside the poten2al adverse impact on the eﬃcacy of
medical examina2ons and tes2ng performed with full PPE protec2on.
6. Your stated lack of knowledge “of any outstanding requests for medical and psychological records” is
simply not credible and belies any sugges2on of good faith engagement by the Bureau of Prisons on these
issues. At your sugges2on, we reiterated prior requests for medical records and surveillance informa2on
through FOIA requests in October 2019, and I speciﬁcally provided you with a copy of the FOIA requests prior
to their submission. Addi2onally, on June 15, 2020, I provided you again with copies of all of the wriaen
requests we have made. For you to disclaim any awareness of prior requests from us in your June 26, 2020
email is simply indefensible.

Page 1 of 7

272a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 28 of 42
7. Having previously directed us to make our requests through the FOIA process (which we were
subsequently told were being processed by the Bureau of Prisons on an expedited basis), your asser2on now
that our only two available avenues are through our client (whose life the Bureau of Prisons is aaemp2ng to
terminate in approximately two weeks) or the discovery process in this case (which defense counsel are
aggressively and ac2vely opposing) is not a good faith response.
Please let me know if you have any ques2ons regarding the foregoing.
Sincerely,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Friday, June 26, 2020 at 12:34 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Cc: Rick Winter <rwinter@bop.gov>, MichelleLaw <Michelle_Law@fd.org>, Brian Fleming
<bﬂeming@milchev.com>, ChasMcAleer <CMcAleer@milchev.com>, Brian Casey
<Brian.Casey@usdoj.gov>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
I think there may be some confusion regarding the COVID-19 tes2ng data you are seeking. You are
correct that the BOP webpage did not ini2ally have detailed data about the tes2ng, but that is no
longer the case. If you scroll to the sec2on aner the facility-by-facility breakdown of ac2ve cases, you
will see a sec2on which details the numbers of completed tests, pending tests, and posi2ve tests. That
data is shown both in the aggregate and for each facility. The data is further explained on the
webpage under the heading “About the Data” which I have copied here:
About the Data
These data are compiled from a variety of sources and reviewed by BOP Health Services staff
before documented for reporting. Not all tests are conducted by and/or reported to BOP.
The number of positive tests at a facility is not equal to the number of cases, as one person
may be tested more than once. The number of tests recorded per site reflects the number of
persons at the specific facility who have been tested, whether at that site or at a prior facility.
As for the sanita2on sta2ons, yes, those include hand sani2zer and individual sani2zing wipes liberally
available at points between the front entrance and the SCU. This is obviously in addi2on to the soap
and water provided in the restrooms, and any addi2onal sani2zer you wish to request from staﬀ. The
individual visi2ng rooms are wiped down before and aner visits. Addi2onally, to the extent possible,
we are aaemp2ng to assign visi2ng spaces to each inmate. For example, we have 3 non-contact
visi2ng rooms and have so far only had social visits requested for 3 inmates. Un2l we have more than
those three, our intent is to assign one visi2ng room to a par2cular inmate to further reduce any
possibility of cross-contamina2on.

Page 2 of 7

273a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 29 of 42

I am unaware of any outstanding requests for medical and psychological records, but if you can let me
know when and how you requested them, that can help me track them down. As a general rule, the
two quickest ways to receive medical and psych ﬁles is for either your client to request a copy of his
own records via a request to staﬀ, which he can then forward to you; or, request those records
through the discovery process.
With regard to the outside tes2ng you are now reques2ng, we cannot provide you with speciﬁcs as to
the logis2cs for security reasons. Once the tests are conﬁrmed, we will be able to advise that one or
more facili2es will be able to conduct the tes2ng you have requested within the diagnos2c parameters
you have outlined. You will receive the results which will have the names of the facili2es and medical
personnel as part of the records. To that end, I will let you know if any addi2onal informa2on is
required to successfully schedule those tests.
The BOP does not pay for unnecessary outside tests on inmates which are not clinically indicated. Per
our medical and psychology staﬀ, a review of Mr. Purkey’s records reveals no clinical indica2on for the
tes2ng you are reques2ng. Our medical and psychology staﬀ simply cannot order tes2ng which they
do not believe is necessary to the care of that individual. Please let us know how you would like to
proceed.
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/25/2020 8:39 PM >>>
Hi Katherine:
Thank you for your emails dated June 24, 2020 (4:26 p.m.) and today at 1:02 p.m. In response, and further to
my prior emails on this topic, including in par2cular my email dated June 20, 2020 (12:55 p.m.), I respond as
follows.
Once again, your plan for visits at USP Terre Haute, which appears to be materially unchanged from the plan
that was implemented prior to the COVID-19 lockdown, remains insuﬃcient to address our concerns.
As I have stated numerous 2mes, in order for us to make informed decisions about the safety of any visita2on
at USP Terre Haute – whether by Mr. Purkey’s legal counsel, expert witnesses, spiritual advisors, friends or
family members -- we need much more informa2on. The cri2cal nature of the associated risks and the
essen2al role of data to make safety determina2ons should come as no surprise to you. Indeed, the need for
extensive informa2on to evaluate COVID-19 related health risks in prisons is the subject of virtually daily
court opinions (see the aaached June 18, 2020, decision by the U.S. District Court for the District of
Columbia) and media exposes. See T. Thomas, “How U.S. Prisons Became Ground Zero for Covid-19,” Poli2co
(June 25, 2020),
haps://www.poli2co.com/news/magazine/2020/06/25/criminal-jus2ce-prison-condi2ons-coronavirus-inprisons-338022.

Page 3 of 7

274a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 30 of 42
prisons-338022.
For example, you s2ll have not provided all the tes2ng data we and our experts need to evaluate the risks
associated with visita2ons and to develop necessary mi2ga2on risks. We are well aware of the COVID-19
sta2s2cs repor2ng the number of conﬁrmed posi2ve cases posted on BOP’s website. We are reques2ng
cri2cal contextual informa2on about those posi2ve numbers, including informa2on about the numbers of
tests administered, the number of pending test results, and the numbers of posi2ve and nega2ve results. We
have requested this informa2on from you and in our court ﬁlings, but the answers have s2ll not been
forthcoming.
Addi2onally, we have no informa2on from you at this 2me about sanita2on, the frequency of surface
cleaning and disinfec2ng throughout the buildings from the front door entry point to the visita2on booths,
and I have no idea what you mean when you refer to “sani2zing sta2ons.” Is that shorthand for the hand
sani2zer you’ve men2oned in our previous correspondence? Nor is it clear what you mean by “successful
visi2ng for the inmates who have execu2on dates” – since COVID-19 has a 2-14 day incuba2on period
following exposure to the virus, the mere fact that a visita2on has taken place is in no way an indicator of
“success,” however deﬁned. (It is worth no2ng that the apparent con2nued prohibi2on on visita2ons with
prisoners at USP Terre Haute who are not facing execu2on is proof enough of the high risk to which
prisoners, staﬀ and visitors are exposed at the prison. “Excep2ng” certain prisoners for pre-execu2on
visita2ons does not preclude that risk.)
Leaving aside what your willingness and apparent ability now to grant Mr. Purkey an excep2on to be tested
says about your previous insistence on a court order (which we sought but were denied in prior li2ga2on
because there was not a Ford claim pending, which there now is in federal district court), many ques2ons
remain before we can go forward with any tes2ng. Speciﬁcally, we need to know the precise logis2cs of
accomplishing the tes2ng in the short 2me period available. In which hospital will the tes2ng take place?
Does the hospital have the equipment and personnel available to conduct the blood tests, MRI, DTI, two
types of PET scans (one using a radioac2ve tracer to measure glucose metabolism in regions of the brain ,
and a second measuring the deposi2on of an abnormal protein in the brain called amyloid-b), and EEG that
we are reques2ng? We need to know the logis2cs of transpor2ng our client for the tes2ng, e.g., how will it be
done safely, when it can be done, what steps need to be taken in order to facilitate transporta2on, such as
what sort of paperwork will be required?
With respect to the issue of blood tests, and given that Mr. Purkey will need to be transported to a hospital
for the necessary imaging tests, it seems unnecessary for prison staﬀ to conduct the necessary blood tests,
which can be performed by hospital staﬀ. However, to respond to your inquiry, the necessary blood tests
would include the following (please excuse any layperson imprecision):
Complete Blood count and diﬀeren2al;
Fas2ng blood glucose;
Liver func2on tests AST ALT GGT;
Bilirubin level;
Renal func2on (BUN and crea2ne);

Page 4 of 7

275a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 31 of 42
Renal func2on (BUN and crea2ne);
Thyroid;
Lyme;
Syphilis;
HIV;
B12; and
Folate.
Finally, we are not prepared to accept your denial of responsibility for the costs of tes2ng, par2cularly your
apparent jus2ﬁca2on that the requested tes2ng is not “clinically indicated.” We have submiaed substan2al
evidence in the pending Ford li2ga2on to demonstrate that such tes2ng is, in fact, warranted and clinically
indicated, regardless of how such tes2ng might also inform adjudica2on of the pending li2ga2on. That
conclusion will become even more evident when we and our experts are able to review Mr. Purkey’s
complete medical records and video surveillance records, which we have been repeatedly reques2ng and
which have been withheld from us. Indeed, those records may demonstrate in further detail that the
requested tes2ng has been “clinically indicated” for some 2me but not administered by the Bureau of
Prisons.
In closing, having conﬁrmed for you the necessary blood tests and imaging that need to occur, we will await
the details regarding how that tes2ng will be implemented. We will also await the full scope of COVID-19
related informa2on we have requested and, whether extant or not, the details of all of the safety protocols
necessary to protect the health of Mr. Purkey, prison staﬀ and visitors given the COVID-19 sta2s2cs and
condi2ons of the prison, on the basis of which we and our experts can determine whether and under what
circumstances visits with Mr. Purkey can be scheduled and safely conducted.
Sincerely,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Thursday, June 25, 2020 at 1:02 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Cc: Rick Winter <rwinter@bop.gov>, Brian Fleming <bﬂeming@milchev.com>, Chas McAleer
<CMcAleer@milchev.com>, Brian Casey <Brian.Casey@usdoj.gov>
Subject: Re: Purkey- expert visita2on

Page 5 of 7

276a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 32 of 42
Hi Rebecca,
I have re-aaached the email chain between Michelle Law and myself regarding the costs of the diﬀerent tests
which were discussed at that 2me. As a reminder, the BOP cannot order or pay for tes2ng which is not
clinically indicated. I am working to conﬁrm that those costs are consistent with what they would be today.
The security costs will likely remain the same, but I am running that to ground as well. Please let me know as
soon as possible the speciﬁc parameters of the addi2onal tes2ng which was not previously iden2ﬁed so I can
get cost es2mates to you and we can begin scheduling.
Thanks,
Katherine
>>> Katherine Siereveld 6/24/2020 4:25 PM >>>
Hi Rebecca,
As discussed in our prior emails, the BOP's plan for legal visits can be found on the BOP
website, haps://www.bop.gov/coronavirus/covid19_status.jsp. Addi2onally, the Terre Haute speciﬁc
numbers you requested can be found here: haps://www.bop.gov/coronavirus/. I also advised that masks
are to be worn at all 2mes in the facility. If you do not have a mask, one will be provided to you. Addi2onally,
we have sani2zing sta2ons available and plexiglass has been installed in the contact visita2on booth. We
have already begun successful visi2ng for the inmates who received execu2on dates. It is unclear
what addi2onal protocols you are seeking.
In the email chain you aaached between Ms. Law and I, it was clear that she was seeking a court
order. While it is s2ll our posi2on that any medical or psychological tes2ng which is not clinically indicated
(such as this) requires a court order, we recognize the urgency of the 2me frame and are willing to make an
excep2on if you did not yet obtain a court order as indicated in the email from 10/4/2019 unless an order
was issued denying your request for the outside tes2ng. Did the Court deny your request or was an order not
sought?
BOP staﬀ will not perform any of these tests. All of the requested tests would need to be performed by
outside medical personnel. The only excep2on might be the blood tests. BOP personnel would likely draw
the blood and then send to an outside lab for the requested tests. Do you have a list of the tests? I believe
the two aaached orders are all that I have from October 2019.
Finally, I will be in a deposi2on tomorrow so you will likely receive an out of oﬃce reply from me. I will s2ll
have access to email and can step out to call if necessary.
Thank you,
Katherine
Katherine N. Siereveld
Senior Aaorney
FCC Terre Haute

Page 6 of 7

277a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 33 of 42
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/24/2020 9:30 AM >>>
Dear Katherine:
We are wai2ng for the BOP wriaen safety plan/protocol/policy rela2ng to COVID-19 in order to determine if
and when it is safe to schedule an expert visit. I have requested these wriaen materials several 2mes now,
and I renew my request here. I appreciate that BOP now appears to be open to tes2ng by our experts aner
previously refusing to allow this type of tes2ng without a court order. (See aaached email correspondence.)
Does this cons2tute a reversal of BOP’s prior posi2on? In addi2on, were such tes2ng to be performed by BOP
personnel, we would ﬁrst need informa2on about who would be administering the tests, the precise
equipment that would be used, and the qualiﬁca2ons, training, and experience of the personnel who would
be administering the following tests that we require:
1.

An MRI with and without contrast,

2.

Two types of PET scans

3.

An EEG

4.

A variety of blood tests

5.

A lumbar puncture and cerebrospinal ﬂuid assays (spinal tap)

6.

A DTI scan

Please provide the requested informa2on on or before close of business on Friday, June 26, 2020, so that we
can make an informed judgment about scheduling expert visits.

Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 7 of 7

278a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 34 of 42

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 23, 2020 at 12:48 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
Just following up on this. I know we discussed expert visits during our conversa2on, but I don't recall if you
have made arrangements for Dr. DeRight to come to the ins2tu2on? I did not see any follow up informa2on
on these speciﬁc issues. I went ahead and had our Medical start working on gewng him scheduled for an
MRI and EEG, but we will need the parameters the doctor is looking for in addi2on to the speciﬁc blood work
he needs.
Thanks,
Katherine
Katherine N. Siereveld
Senior Aaorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/15/2020 9:38 AM >>>
Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al
that Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and
extent of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A
leaer that I received from Dr. DeRight reques2ng the in-person evalua2on is aaached. In addi2on, Dr. DeRight
in his leaer is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to
assessing Mr. Purkey’s current abili2es and disease progression. I recall that we have discussed ways to
accomplish brain imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on
with Dr. DeRight’s evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 8 of 7

279a

Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 35 of 42

Exhibit 6

280a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 36 of 42
Wednesday, July 1, 2020 at 17:05:38 Central Daylight Time

Subject:
Re: Purkey- expert visita2on
Date:
Wednesday, July 1, 2020 at 5:04:54 PM Central Daylight Time
From:
Rebecca Woodman
To:
Katherine Siereveld
CC:
Rick Winter, MichelleLaw, Brian Fleming, ChasMcAleer, Brian Casey
AGachments: Compila2on of Dr. Hyde Medical Orders[1].pdf
Dear Katherine:
Further to my email yesterday, Thomas M. Hyde, M.D., Ph. D., has issued the aUached medical orders for the
tes2ng and imaging we have previously iden2ﬁed to you. My understanding is that the speciﬁc facility within
the Indiana University Health System at which the tes2ng and imaging will be performed is the Methodist
Hospital in Indianapolis. We are seeking to conﬁrm the scheduling of the tes2ng and imaging for two days
next week, possibly Tuesday, July 7 and Thursday, July 9. We will conﬁrm with you the speciﬁc scheduling
once we have conﬁrma2on so that you can make the necessary transporta2on arrangements for Mr. Purkey.
In the mean2me, please let me know if you have any ques2ons regarding the foregoing.
Sincerely,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Friday, June 26, 2020 at 12:34 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Cc: Rick Winter <rwinter@bop.gov>, MichelleLaw <Michelle_Law@fd.org>, Brian Fleming
<bﬂeming@milchev.com>, ChasMcAleer <CMcAleer@milchev.com>, Brian Casey
<Brian.Casey@usdoj.gov>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
I think there may be some confusion regarding the COVID-19 tes2ng data you are seeking. You are
correct that the BOP webpage did not ini2ally have detailed data about the tes2ng, but that is no
longer the case. If you scroll to the sec2on afer the facility-by-facility breakdown of ac2ve cases, you
will see a sec2on which details the numbers of completed tests, pending tests, and posi2ve tests. That
data is shown both in the aggregate and for each facility. The data is further explained on the
webpage under the heading “About the Data” which I have copied here:
About the Data
These data are compiled from a variety of sources and reviewed by BOP Health Services staff
Page 1 of 7

281a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 37 of 42

before documented for reporting. Not all tests are conducted by and/or reported to BOP.
The number of positive tests at a facility is not equal to the number of cases, as one person
may be tested more than once. The number of tests recorded per site reflects the number of
persons at the specific facility who have been tested, whether at that site or at a prior facility.
As for the sanita2on sta2ons, yes, those include hand sani2zer and individual sani2zing wipes liberally
available at points between the front entrance and the SCU. This is obviously in addi2on to the soap
and water provided in the restrooms, and any addi2onal sani2zer you wish to request from staﬀ. The
individual visi2ng rooms are wiped down before and afer visits. Addi2onally, to the extent possible,
we are aUemp2ng to assign visi2ng spaces to each inmate. For example, we have 3 non-contact
visi2ng rooms and have so far only had social visits requested for 3 inmates. Un2l we have more than
those three, our intent is to assign one visi2ng room to a par2cular inmate to further reduce any
possibility of cross-contamina2on.
I am unaware of any outstanding requests for medical and psychological records, but if you can let me
know when and how you requested them, that can help me track them down. As a general rule, the
two quickest ways to receive medical and psych ﬁles is for either your client to request a copy of his
own records via a request to staﬀ, which he can then forward to you; or, request those records
through the discovery process.
With regard to the outside tes2ng you are now reques2ng, we cannot provide you with speciﬁcs as to
the logis2cs for security reasons. Once the tests are conﬁrmed, we will be able to advise that one or
more facili2es will be able to conduct the tes2ng you have requested within the diagnos2c parameters
you have outlined. You will receive the results which will have the names of the facili2es and medical
personnel as part of the records. To that end, I will let you know if any addi2onal informa2on is
required to successfully schedule those tests.
The BOP does not pay for unnecessary outside tests on inmates which are not clinically indicated. Per
our medical and psychology staﬀ, a review of Mr. Purkey’s records reveals no clinical indica2on for the
tes2ng you are reques2ng. Our medical and psychology staﬀ simply cannot order tes2ng which they
do not believe is necessary to the care of that individual. Please let us know how you would like to
proceed.
Thanks,
Katherine
>>> Rebecca Woodman <rewlaw@outlook.com> 6/25/2020 8:39 PM >>>
Hi Katherine:
Thank you for your emails dated June 24, 2020 (4:26 p.m.) and today at 1:02 p.m. In response, and further to
my prior emails on this topic, including in par2cular my email dated June 20, 2020 (12:55 p.m.), I respond as
follows.

Page 2 of 7

282a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 38 of 42
Once again, your plan for visits at USP Terre Haute, which appears to be materially unchanged from the plan
that was implemented prior to the COVID-19 lockdown, remains insuﬃcient to address our concerns.
As I have stated numerous 2mes, in order for us to make informed decisions about the safety of any visita2on
at USP Terre Haute – whether by Mr. Purkey’s legal counsel, expert witnesses, spiritual advisors, friends or
family members -- we need much more informa2on. The cri2cal nature of the associated risks and the
essen2al role of data to make safety determina2ons should come as no surprise to you. Indeed, the need for
extensive informa2on to evaluate COVID-19 related health risks in prisons is the subject of virtually daily
court opinions (see the aUached June 18, 2020, decision by the U.S. District Court for the District of
Columbia) and media exposes. See T. Thomas, “How U.S. Prisons Became Ground Zero for Covid-19,” Poli2co
(June 25, 2020),
hUps://www.poli2co.com/news/magazine/2020/06/25/criminal-jus2ce-prison-condi2ons-coronavirus-inprisons-338022.
For example, you s2ll have not provided all the tes2ng data we and our experts need to evaluate the risks
associated with visita2ons and to develop necessary mi2ga2on risks. We are well aware of the COVID-19
sta2s2cs repor2ng the number of conﬁrmed posi2ve cases posted on BOP’s website. We are reques2ng
cri2cal contextual informa2on about those posi2ve numbers, including informa2on about the numbers of
tests administered, the number of pending test results, and the numbers of posi2ve and nega2ve results. We
have requested this informa2on from you and in our court ﬁlings, but the answers have s2ll not been
forthcoming.
Addi2onally, we have no informa2on from you at this 2me about sanita2on, the frequency of surface
cleaning and disinfec2ng throughout the buildings from the front door entry point to the visita2on booths,
and I have no idea what you mean when you refer to “sani2zing sta2ons.” Is that shorthand for the hand
sani2zer you’ve men2oned in our previous correspondence? Nor is it clear what you mean by “successful
visi2ng for the inmates who have execu2on dates” – since COVID-19 has a 2-14 day incuba2on period
following exposure to the virus, the mere fact that a visita2on has taken place is in no way an indicator of
“success,” however deﬁned. (It is worth no2ng that the apparent con2nued prohibi2on on visita2ons with
prisoners at USP Terre Haute who are not facing execu2on is proof enough of the high risk to which
prisoners, staﬀ and visitors are exposed at the prison. “Excep2ng” certain prisoners for pre-execu2on
visita2ons does not preclude that risk.)
Leaving aside what your willingness and apparent ability now to grant Mr. Purkey an excep2on to be tested
says about your previous insistence on a court order (which we sought but were denied in prior li2ga2on
because there was not a Ford claim pending, which there now is in federal district court), many ques2ons
remain before we can go forward with any tes2ng. Speciﬁcally, we need to know the precise logis2cs of
accomplishing the tes2ng in the short 2me period available. In which hospital will the tes2ng take place?
Does the hospital have the equipment and personnel available to conduct the blood tests, MRI, DTI, two
types of PET scans (one using a radioac2ve tracer to measure glucose metabolism in regions of the brain ,
and a second measuring the deposi2on of an abnormal protein in the brain called amyloid-b), and EEG that
we are reques2ng? We need to know the logis2cs of transpor2ng our client for the tes2ng, e.g., how will it be

Page 3 of 7

283a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 39 of 42
we are reques2ng? We need to know the logis2cs of transpor2ng our client for the tes2ng, e.g., how will it be
done safely, when it can be done, what steps need to be taken in order to facilitate transporta2on, such as
what sort of paperwork will be required?
With respect to the issue of blood tests, and given that Mr. Purkey will need to be transported to a hospital
for the necessary imaging tests, it seems unnecessary for prison staﬀ to conduct the necessary blood tests,
which can be performed by hospital staﬀ. However, to respond to your inquiry, the necessary blood tests
would include the following (please excuse any layperson imprecision):
Complete Blood count and diﬀeren2al;
Fas2ng blood glucose;
Liver func2on tests AST ALT GGT;
Bilirubin level;
Renal func2on (BUN and crea2ne);
Thyroid;
Lyme;
Syphilis;
HIV;
B12; and
Folate.
Finally, we are not prepared to accept your denial of responsibility for the costs of tes2ng, par2cularly your
apparent jus2ﬁca2on that the requested tes2ng is not “clinically indicated.” We have submiUed substan2al
evidence in the pending Ford li2ga2on to demonstrate that such tes2ng is, in fact, warranted and clinically
indicated, regardless of how such tes2ng might also inform adjudica2on of the pending li2ga2on. That
conclusion will become even more evident when we and our experts are able to review Mr. Purkey’s
complete medical records and video surveillance records, which we have been repeatedly reques2ng and
which have been withheld from us. Indeed, those records may demonstrate in further detail that the
requested tes2ng has been “clinically indicated” for some 2me but not administered by the Bureau of
Prisons.
In closing, having conﬁrmed for you the necessary blood tests and imaging that need to occur, we will await
the details regarding how that tes2ng will be implemented. We will also await the full scope of COVID-19
related informa2on we have requested and, whether extant or not, the details of all of the safety protocols
necessary to protect the health of Mr. Purkey, prison staﬀ and visitors given the COVID-19 sta2s2cs and
condi2ons of the prison, on the basis of which we and our experts can determine whether and under what
circumstances visits with Mr. Purkey can be scheduled and safely conducted.
Sincerely,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 4 of 7

284a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 40 of 42

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Thursday, June 25, 2020 at 1:02 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Cc: Rick Winter <rwinter@bop.gov>, Brian Fleming <bﬂeming@milchev.com>, Chas McAleer
<CMcAleer@milchev.com>, Brian Casey <Brian.Casey@usdoj.gov>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
I have re-aUached the email chain between Michelle Law and myself regarding the costs of the diﬀerent tests
which were discussed at that 2me. As a reminder, the BOP cannot order or pay for tes2ng which is not
clinically indicated. I am working to conﬁrm that those costs are consistent with what they would be today.
The security costs will likely remain the same, but I am running that to ground as well. Please let me know as
soon as possible the speciﬁc parameters of the addi2onal tes2ng which was not previously iden2ﬁed so I can
get cost es2mates to you and we can begin scheduling.
Thanks,
Katherine
>>> Katherine Siereveld 6/24/2020 4:25 PM >>>
Hi Rebecca,
As discussed in our prior emails, the BOP's plan for legal visits can be found on the BOP
website, hUps://www.bop.gov/coronavirus/covid19_status.jsp. Addi2onally, the Terre Haute speciﬁc
numbers you requested can be found here: hUps://www.bop.gov/coronavirus/. I also advised that masks
are to be worn at all 2mes in the facility. If you do not have a mask, one will be provided to you. Addi2onally,
we have sani2zing sta2ons available and plexiglass has been installed in the contact visita2on booth. We
have already begun successful visi2ng for the inmates who received execu2on dates. It is unclear
what addi2onal protocols you are seeking.
In the email chain you aUached between Ms. Law and I, it was clear that she was seeking a court
order. While it is s2ll our posi2on that any medical or psychological tes2ng which is not clinically indicated
(such as this) requires a court order, we recognize the urgency of the 2me frame and are willing to make an
excep2on if you did not yet obtain a court order as indicated in the email from 10/4/2019 unless an order
was issued denying your request for the outside tes2ng. Did the Court deny your request or was an order not
sought?
BOP staﬀ will not perform any of these tests. All of the requested tests would need to be performed by
outside medical personnel. The only excep2on might be the blood tests. BOP personnel would likely draw
the blood and then send to an outside lab for the requested tests. Do you have a list of the tests? I believe
the two aUached orders are all that I have from October 2019.
Finally, I will be in a deposi2on tomorrow so you will likely receive an out of oﬃce reply from me. I will s2ll

Page 5 of 7

285a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 41 of 42
Finally, I will be in a deposi2on tomorrow so you will likely receive an out of oﬃce reply from me. I will s2ll
have access to email and can step out to call if necessary.
Thank you,
Katherine
Katherine N. Siereveld
Senior AUorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/24/2020 9:30 AM >>>
Dear Katherine:
We are wai2ng for the BOP wriUen safety plan/protocol/policy rela2ng to COVID-19 in order to determine if
and when it is safe to schedule an expert visit. I have requested these wriUen materials several 2mes now,
and I renew my request here. I appreciate that BOP now appears to be open to tes2ng by our experts afer
previously refusing to allow this type of tes2ng without a court order. (See aUached email correspondence.)
Does this cons2tute a reversal of BOP’s prior posi2on? In addi2on, were such tes2ng to be performed by BOP
personnel, we would ﬁrst need informa2on about who would be administering the tests, the precise
equipment that would be used, and the qualiﬁca2ons, training, and experience of the personnel who would
be administering the following tests that we require:
1.

An MRI with and without contrast,

2.

Two types of PET scans

3.

An EEG

4.

A variety of blood tests

5.

A lumbar puncture and cerebrospinal ﬂuid assays (spinal tap)

6.

A DTI scan

Please provide the requested informa2on on or before close of business on Friday, June 26, 2020, so that we
can make an informed judgment about scheduling expert visits.

Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 6 of 7

286a
Case 1:19-cv-03570-TSC Document 30-2 Filed 07/02/20 Page 42 of 42

From: Katherine Siereveld <ksiereveld@bop.gov>
Date: Tuesday, June 23, 2020 at 12:48 PM
To: Rebecca Woodman <rewlaw@outlook.com>
Subject: Re: Purkey- expert visita2on
Hi Rebecca,
Just following up on this. I know we discussed expert visits during our conversa2on, but I don't recall if you
have made arrangements for Dr. DeRight to come to the ins2tu2on? I did not see any follow up informa2on
on these speciﬁc issues. I went ahead and had our Medical start working on geyng him scheduled for an
MRI and EEG, but we will need the parameters the doctor is looking for in addi2on to the speciﬁc blood work
he needs.
Thanks,
Katherine
Katherine N. Siereveld
Senior AUorney
FCC Terre Haute
4200 Bureau Road North
Terre Haute, Indiana 47802
(812) 238-3476

>>> Rebecca Woodman <rewlaw@outlook.com> 6/15/2020 9:38 AM >>>
Dear Katherine: As you know, our expert neuropsychologist, Dr. Jonathan DeRight, conducted an in-person
evalua2on of Mr. Purkey last year and found that Mr. Purkey suﬀers from Alzheimer’s disease, a progressive
demen2a. Because it has been more than a year since Dr. DeRight last evaluated Mr. Purkey, it is essen2al
that Dr. DeRight conduct an in-person follow-up evalua2on to obtain a current assessment of Mr. Purkey and
extent of progression of his disease, and we would like to schedule this evalua2on as soon as possible. A
leUer that I received from Dr. DeRight reques2ng the in-person evalua2on is aUached. In addi2on, Dr. DeRight
in his leUer is reques2ng up-to-date neuroimaging and blood laboratory results, which are necessary to
assessing Mr. Purkey’s current abili2es and disease progression. I recall that we have discussed ways to
accomplish brain imaging tests previously, and we would like to be able to arrange such tes2ng in conjunc2on
with Dr. DeRight’s evalua2on.
Please let me know of upcoming dates and 2mes for Dr. DeRight to visit Mr. Purkey at USP-Terre Haute to
conduct an evalua2on, and the logis2cs of scheduling the requested brain imaging. And please don’t hesitate
to contact me if you have any ques2ons. Thanks so much.
Best,
Rebecca
Rebecca E. Woodman
Attorney at Law, L.C.
1263 W. 72nd Ter.
Kansas City, Missouri 64114
(785) 979-3672
rewlaw@outlook.com

Page 7 of 7

287a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 1 of 9
Appendix A to Plaintiff’s Reply in Further Support of Motion for Expedited Discovery in Wesley Ira Purkey v. William P. Barr, et al., 1:19-cv-03570-TSC (D.D.C.)
Chronology of Plaintiff’s Requests to Bureau of Prisons and Defense Counsel For Information, Records, Testing, and Imaging Relating to Claims and Issues in the Case
During the Period August 29, 2019–Present 1

Date of Request

Requestor

Requested Material

Addressee

Response

Aug. 29, 2019

Counsel for
Mr. Purkey
Michelle M.
Law

First Request for Bureau of Prisons
(“BOP”) death watch protocol
(R. Woodman Decl. ¶ 10, Ex. 3).

BOP Senior
Attorney
Katherine
Siereveld

Sept. 17, 2019

Counsel for
Mr. Purkey
Michelle M.
Law

First Request for preservation and
weekly disclosure of A Range
surveillance videos of Mr. Purkey’s
cell; offered storage device (R.
Woodman Decl. ¶ 11, Ex. 4).

BOP Senior
Attorney
Katherine
Siereveld

Sept. 24, 2019

Counsel for
Mr. Purkey
Michelle M.
Law

BOP Senior
Attorney
Katherine
Siereveld

Sept. 26, 2019 –
Oct. 4, 2019

Counsel for
Mr. Purkey
Michelle M.
Law

Second Request for disclosure of A
Range surveillance videos of Mr.
Purkey’s cell; offered storage device
again (R. Woodman Decl. ¶ 11, Ex.
5).
First Request for medically ordered
brain imaging (ordered by Dr.
Bhushan Agharkar) and inquired
about testing logistics; offered to pay
cost of testing. (R. Woodman Decl.
¶ 15, Exs. 16, 17).

Aug. 29, 2019: “I will have to do some further research
to see if we have anything that is releasable, but specific
directives such as that are usually found in Post Orders
which are Law Enforcement Sensitive and cannot be
released.” 2
(R. Woodman Decl. ¶ 10, Ex. 3).
Sept. 19, 2019: “We do not have a mechanism with
which to provide you ongoing footage. Additionally, the
preservation alone is quite voluminous, but can be
accomplished if necessary. Are there specific time frames
or days even that you are looking for? At that point we
could preserve what you need and then evaluate our
ability to provide it through a properly filed FOIA
request, discovery request, or subpoena.”
(R. Woodman Decl. ¶ 11, Ex. 4).
Sept. 24, 2019: “I forwarded this on to the appropriate
office to see how far back they can go preserving the
evening watch.” (R. Woodman Decl. ¶ 11, Ex. 5).

BOP Senior
Attorney
Katherine
Siereveld

1

Without citing any policy or other authority, Ms. Siereveld
imposed three conditions for the testing: (1) it had to be
done on-site with BOP contractors; (2) a court had to enter
an order for the testing; and (3) Mr. Purkey’s defense
counsel had to pay for the testing. (R. Woodman Decl. ¶
15).

Requested
Material
Received?
No

No

No

No

This chart is based on evidence previously submitted in support of Plaintiff’s Renewed Motion for Preliminary Injunction (“Renewed Motion”) dated June 22,
2020, evidence of additional relevant communications with the Bureau of Prisons or Defense Counsel that occurred after the filing of the Renewed Motion that are
the subject of and are attached to the Supplemental Declaration of Rebecca Woodman dated July 2, 2020, submitted with Plaintiff’s Reply in Support of the
Motion for Expedited Discovery, and evidence submitted through the Declaration of Katherine Siereveld dated June 29, 2020 submitted with Defendants’
Opposition to Plaintiff’s Motion for Expedited Discovery.
2

All instances of emphasis in the quotations contained in this chart have been added.

288a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 2 of 9
Date of Request

Requestor

Requested Material

Addressee

Response

Oct. 9, 2019

Counsel for
Mr. Purkey
Rebecca E.
Woodman

Third Request for A Range
surveillance videos of Mr. Purkey’s
cell; requested expedited processing
(R. Woodman Decl. ¶ 12, Exs. 6–8).

FOIA
Section,
BOP Office
of General
Counsel

Oct. 9, 2019

Counsel for
Mr. Purkey,
Rebecca
Woodman

Second Request for BOP death watch
protocol; requested expedited
processing (R. Woodman Decl. ¶ 12,
Exs. 6–8).

FOIA
Section,
BOP Office
of General
Counsel

Oct. 9, 2019

Counsel for
Mr. Purkey,
Rebecca
Woodman

First Request for Mr. Purkey’s
updated BOP medical and mental
health records; requested expedited
processing (R. Woodman Decl. ¶ 12,
Exs. 6–8).

FOIA
Section,
BOP Office
of General
Counsel

Oct. 11, 2019

Counsel for
Mr. Purkey
Rebecca E.
Woodman

Request for timeline on disclosure of
material requested through FOIA (R.
Woodman Decl. ¶ 13, Ex. 12).

BOP Senior
Attorney
Katherine
Siereveld

Oct. 25, 2019

Counsel for
Mr. Purkey
Rebecca E.
Woodman &
Michelle M.
Law

Second Request for medically
ordered brain imaging (ordered by Dr.
Bhushan Agharkar) (R. Woodman
Decl. ¶ 15, Ex. 18).

Ex parte
motion to
District
Court for
S.D. Ind.

Oct. 10, 2019: “This acknowledges our receipt of your
Freedom of Information Act (FOIA) request. . . . Your
request meets the requirement to be processed on an
expedited basis and will be expedited to the best of our
ability. . . . Processing this request may take up to six
months.” (R. Woodman Decl. ¶ 13, Ex. 10).
Oct. 10, 2019: “This acknowledges our receipt of your
Freedom of Information Act (FOIA) request. . . . Your
request meets the requirement to be processed on an
expedited basis and will be expedited to the best of our
ability. . . . Processing this request may take up to six
months.” (R. Woodman Decl. ¶ 13, Ex. 10).
Oct. 10, 2019: “This acknowledges our receipt of your
Freedom of Information Act (FOIA) request. . . . Your
request meets the requirement to be processed on an
expedited basis and will be expedited to the best of our
ability. . . . Processing this request may take up to six
months.” (R. Woodman Decl. ¶ 13, Ex. 10).
Oct. 16, 2019: “I understand your time constraints, but I
do not have the authority to circumvent the FOIA
process. I will follow up with our FOIA folks and see if
there is a more expedited time frame.” (R. Woodman
Decl. ¶ 13, Ex. 12).
Motion denied November 20, 2019, stating the request for
imaging was not made pursuant to a Ford claim. Purkey
v. United States, No. 2:19-cv-00414, ECF No. 76 (S.D.
Ind. Nov. 20, 2019).

Nov. 11, 2019

Counsel for
Mr. Purkey
Rebecca E.
Woodman

Fourth Request for A Range
surveillance videos; requested
expedited processing
(R. Woodman Decl. ¶ 13, Ex. 13).

BOP Senior
Attorney
Katherine
Siereveld

Feb. 3, 2020

Counsel for
Mr. Purkey
Rebecca E.
Woodman

Fifth Request for A Range
surveillance videos of Mr. Purkey’s
cell in the form of new FOIA request;
requested expedited processing (R.
Woodman Decl. ¶ 26, Ex. 28–30).

FOIA
Section,
BOP Office
of General
Counsel

Nov. 13, 2019: “I do not have the authority to
circumvent the FOIA process, but please be assured that
everyone involved is cognizant that time is of the essence.
I will forward your concerns along to the folks directly
involved in the FOIA process.” (R. Woodman Decl. ¶ 13,
Ex. 13).
Feb. 3, 2020: Email #1
“We determined the information you request is maintained
in a Privacy Act protected system of records and requires
written authorization from the subject of the record before
it can be released. . . . Your authorization was

Requested
Material
Received?

No

No

No

No

No

No

No

2

289a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 3 of 9
Date of Request

Requestor

Requested Material

Addressee

Response
incomplete because the date on the authorization was
more than three months old.” (R. Woodman Decl. ¶ 26,
Ex. 31).

Requested
Material
Received?

Feb. 3, 2020: Email #2
“Please disregard my previous message about the
outdated Certification of Identity. Upon further review it
looks like this is a duplicate request of 2020-00234. As
such, your request is not considered perfected and has
not been logged in or assigned a request number.
Additionally, your request was previously granted
expedited processing on October 10, 2019. A copy of the
letter is attached.” (R. Woodman Decl. ¶ 26, Ex. 32).

Feb. 3, 2020

Feb. 3, 2020

Counsel for
Mr. Purkey,
Rebecca
Woodman

Counsel for
Mr. Purkey,

Third Request for BOP death watch
protocol in the form of new FOIA
request; requested expedited
processing (R. Woodman Decl. ¶ 26,
Exs. 28–30).

Second Request for Mr. Purkey’s
updated BOP medical and mental
health records in the form of a new

FOIA
Section,
BOP Office
of General
Counsel

FOIA
Section,
BOP Office

Feb. 3, 2020: Email #3 (RE: FOIA Request 1)
Upon R. Woodman’s clarification, accepting the new
expedited requests and stating that “If a new Certification
of Identity is needed they will let you know.” (R.
Woodman Decl. ¶ 26, Ex. 34).
Feb. 3, 2020: Email #1
“We determined the information you request is maintained
in a Privacy Act protected system of records and requires
written authorization from the subject of the record before
it can be released. . . . Your authorization was
incomplete because the date on the authorization was
more than three months old.”
(R. Woodman Decl. ¶ 26, Ex. 31).
Feb. 3, 2020: Email #2
“Please disregard my previous message about the
outdated Certification of Identity. Upon further review it
looks like this is a duplicate request of 2020-00234. As
such, your request is not considered perfected and has
not been logged in or
assigned a request number. Additionally, your request
was previously granted expedited processing on October
10, 2019. A copy of the letter is attached.”
(R. Woodman Decl. ¶ 26, Ex. 32).
Feb. 3, 2020: Email #1
“Upon review it looks like this is a duplicate request of
2020-00234. As such, your request is not considered

No

No

3

290a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 4 of 9
Date of Request

Feb. 27, 2020

April 14, 2020

Requestor

Requested Material

Addressee

Response

Rebecca
Woodman

FOIA request; requested expedited
processing (R. Woodman Decl. ¶ 26,
Exs. 28–30).

of General
Counsel

perfected and has not been logged in or assigned a
request number. Additionally, your request was
previously granted expedited processing on October 10,
2019. . .” (R. Woodman Decl. ¶ 26, Ex. 33).

Counsel for
Mr. Purkey
Michelle M.
Law
Counsel for
Mr. Purkey
Brian J.
Fleming

June 15, 2020

Counsel for
Mr. Purkey,
Rebecca
Woodman

June 15, 2020

Counsel for
Mr. Purkey,
Rebecca
Woodman

June 15, 2020

Counsel for
Mr. Purkey

Request to schedule defense expert
Dr. Agharkar visit for examination of
Mr. Purkey (R. Woodman Decl. ¶ 34,
Ex. 43).
Sixth Request for A Range
surveillance videos of Mr. Purkey’s
cell sent in a letter responding to
Defendant’s reply to Mr. Purkey’s
opposition to the motion to dismiss:
“If timeliness and delay are matters of
concern to Defendants, the simple
solution would be for Defendants to
ensure that the relevant government
officials immediately and fully
provide the requested information and
documentation, as well as access for
testing.” (R. Woodman Decl. ¶ 28, Ex.
36).
Third Request for Mr. Purkey’s
updated BOP medical and mental
health records (R. Woodman Decl.
¶ 32, Ex. 39; R. Woodman Supp.
Decl. ¶ 3).
Third Request for medically ordered
brain imaging (requested by Dr.
Jonathan DeRight) (R. Woodman
Decl. ¶ 32, Ex. 39; R. Woodman
Supp. Decl. ¶ 3, Ex. 1).

BOP Senior
Attorney
Katherine
Siereveld
AUSA Brian
Casey

Request to schedule defense expert
Dr. DeRight visit for examination of
Mr. Purkey (R. Woodman Decl. ¶ 32,

BOP Senior
Attorney

Feb. 3, 2020: Email #2
“I will forward this message to the processor. If a new
Certification of Identity is needed they will let you know.”
(R. Woodman Decl. ¶ 26, Ex. 35).
Mar. 16, 2020 (From Andrew Sutton): “This was never
scheduled and is now not considered under the
circumstances.” (citing the COVID-19 pandemic)
(R. Woodman Decl. ¶ 34, Ex. 43).
April 22, 2020: “Responding to your accusations point-bypoint does not seem productive, so suffice it to say that we
have reviewed your letter carefully and disagree with your
assertions and conclusions. . .”

Requested
Material
Received?

No

No

“In response to your point that Ms. Woodman submitted
an ‘updated and renewed FOIA request’ dated February
3,2020, we have specifically inquired about this request,
and the BOP has been unable to find any record of it.”
(R. Woodman Decl. ¶ 29, Ex. 37).

BOP Senior
Attorney
Katherine
Siereveld

No Response

BOP Senior
Attorney
Katherine
Siereveld

June 23, 2020: “I know we discussed expert visits during
our conversation, but I don’t recall if you have made
arrangements for Dr. DeRight to come to the
institution? I did not see any follow up information on
these specific issues.” (R. Woodman Suppl. Decl. ¶ 3, Ex.
1).
June 23, 2020: “I know we discussed expert visits during
our conversation, but I don’t recall if you have made
arrangements for Dr. DeRight to come to the

No

No

No

4

291a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 5 of 9
Date of Request

June 16, 2020

Requestor

Requested Material

Addressee

Response

Rebecca E.
Woodman

Ex. 39; R. Woodman Supp. Decl. ¶ 3,
Ex. 1).

Katherine
Siereveld

Counsel for
Mr. Purkey
Rebecca E.
Woodman

First Request for official written
COVID-19 visitation policies by close
of business. (R. Woodman Decl. ¶ 37,
Ex. 50).

BOP Senior
Attorney
Katherine
Siereveld

institution? I did not see any follow up information on
these specific issues.” (R. Woodman Suppl. Decl. ¶ 4, Ex.
1).
June 16, 2020: Email #1
“We do not have anything written yet but I am
working on it.” (R. Woodman Decl. ¶ 37, Ex. 51).

June 19, 2020

Counsel for
Mr. Purkey
Rebecca E.
Woodman

Second Request for official written
COVID visitation policies (R.
Woodman Decl. ¶ 38, Ex. 54, at 2–3).

BOP Senior
Attorney
Katherine
Siereveld

June 20, 2020

Counsel for
Mr. Purkey
Rebecca E.
Woodman

Third Request for official written
COVID visitation policies (R.
Woodman Decl. ¶ 38, Ex. 54, at 1–2).

BOP Senior
Attorney
Katherine
Siereveld

Requested
Material
Received?

No

June 16, 2020: Phone call
Promised written official COVID-19 visitation policies
within the next hour or two. Safety measures include:
temperature checks, questions about symptoms, a mask
(either one’s own or provided by the facility), and a
preference for non-contact visits.” (R. Woodman Decl.
¶ 38, Ex. 53).
June 16, 2020: Email # 2
“We are still working on a plan that will allow as much
visitation as possible while still mitigating the risk of
exposure to COVID19. I will have something in writing
for you by tomorrow, but you can begin to schedule your
legal visits as soon as you wish. The normal schedule will
remain the same (M-F, 8-3), we are working on the
additional precautions re: COVID.”
(R. Woodman Decl. ¶ 38, Ex. 52).
June 19, 2020: “As we discussed earlier, I told you these
would not be ‘policies’ and that we were working as
quickly as possible to work out a safe option to allow for
as much of a contact visit possible under the
circumstances. While I regret that we have not been
able to send you more in writing as of yet, I encouraged
you to schedule your visits with the unit team so that your
schedule would not be adversely impacted.”
(K. Siereveld Decl., Ex. C).
June 22, 2020: “As you are aware, the BOP website makes
it clear that case-by-case exceptions for in-person legal
visits are permitted, so long as the visiting attorney
undergoes the same screening procedures as the staff.
SCU staff have advised that you did not request an
exception when your standing legal visit was canceled.”
(K. Siereveld Decl., Ex. B).

No

No

5

292a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 6 of 9
Date of Request

Requestor

Requested Material

Addressee

Response

June 20, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman
Counsel for
Mr. Purkey
Rebecca
Woodman

First Request for COVID testing data
beyond what is available on BOP
website (R. Woodman Decl. ¶ 38, Ex.
54, at 2).
Fourth Request for Mr. Purkey’s
updated BOP medical and mental
health records (R. Woodman Decl. ¶
38, Ex. 54, at 1–2).

BOP Senior
Attorney
Katherine
Siereveld
BOP Senior
Attorney
Katherine
Siereveld

June 24, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman

Fourth Request for official written
COVID visitation policies (R.
Woodman Suppl. Decl. ¶ 4, Ex. 2, at
1–2).

BOP Senior
Attorney
Katherine
Siereveld

June 24, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman

Fourth Request for medically
ordered brain imaging (and initial
request for blood tests) (R. Woodman
Suppl. Decl. ¶ 4, Ex. 2, at 1–2).

BOP Senior
Attorney
Katherine
Siereveld

June 24, 2020: “[T]he Terre Haute specific numbers you
requested can be found here:
https://www.bop.gov/coronavirus/.” (R. Woodman Suppl.
Decl. ¶ 5, Ex. 2).
June 26, 2020: “I am unaware of any outstanding
requests for medical and psychological records, but if
you can let me know when and how you requested them,
that can help me track them down. As a general rule, the
two quickest ways to receive medical and psych files is
for either your client to request a copy of his own
records via a request to staff, which he can
then forward to you; or, request those records through
the discovery process.” (R. Woodman Suppl. Decl. ¶ 9,
Ex. 4, at 1–2).
June 24, 2020: “[T]he BOP’s plan for legal visits can be
found on the BOP website,
https://www.bop.gov/coronavirus/covid19_status.jsp. . . I
also advised that masks are to be worn at all times in the
facility. If you do not have a mask, one will be provided to
you. Additionally, we have sanitizing stations available
and plexiglass has been installed in the contact visitation
booth. We have already begun successful visiting for the
inmates who received execution dates. It is unclear what
additional protocols you are seeking.” (R. Woodman
Suppl. Decl. ¶ 4, Ex. 2, at 1).
June 24, 2020: “While it is still our position that any
medical or psychological testing which is not clinically
indicated (such as this) requires a court order, we
recognize the urgency of the time frame and are willing to
make an exception if you did not yet obtain a court order
as indicated in the email from 10/4/2019 unless an order
was issued denying your request for the outside testing.
Did the Court deny your request or was an order not
sought? BOP staff will not perform any of these tests. All
of the requested tests would need to be performed by
outside medical personnel. The only exception might be
the blood tests.” (R. Woodman Suppl. Decl. ¶ 6, Ex. 2, at
1).

June 20, 2020

Requested
Material
Received?

No

No

No

No

June 25, 2020: “As a reminder, the BOP cannot order or
pay for testing which is not clinically indicated. I am

6

293a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 7 of 9
Date of Request

Requestor

Requested Material

Addressee

June 25, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman

Fifth Request for official written
COVID visitation policies (R.
Woodman Suppl. Decl. ¶ 7 Ex. 4, at
2–4).

BOP Senior
Attorney
Katherine
Siereveld

June 25, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman

Second Request for COVID testing
data beyond what is available on BOP
website (R. Woodman Suppl. Decl. ¶
7, Ex. 4, at 2–4).

BOP Senior
Attorney
Katherine
Siereveld

June 25, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman

Fifth Request for medically ordered
brain imaging (R. Woodman Suppl.
Decl. ¶ 7 Ex. 4, at 2–4).

BOP Senior
Attorney
Katherine
Siereveld

Response
working to confirm that those costs are consistent with
what they would be today.” (R. Woodman Suppl. Decl. ¶
6, Ex. 3, at 1).
June 26, 2020: “As for the sanitation stations, yes, those
include hand sanitizer and individual sanitizing wipes
liberally available at points between the front entrance and
the SCU. This is obviously in addition to the soap and
water provided in the restrooms, and any additional
sanitizer you wish to request from staff. The individual
visiting rooms are wiped down before and after visits.
“Additionally, to the extent possible, we are attempting to
assign visiting spaces to each inmate.
For example, we have 3 non-contact visiting rooms and
have so far only had social visits requested for 3 inmates.
Until we have more than those three, our intent is to assign
one visiting room to a particular inmate to further reduce
any possibility of cross-contamination.” (R. Woodman
Suppl. Decl. ¶ 8, Ex. 4, at 1–2).
June 26, 2020: “I think there may be some confusion
regarding the COVID-19 testing data you are seeking.
You are correct that the BOP webpage did not initially
have detailed data about the testing, but that is no
longer the case. If you scroll to the section after the
facility-by-facility breakdown of active cases, you will see
a section which details the numbers of completed tests,
pending tests, and positive tests. That data is shown both
in the aggregate and for each facility. The data is further
explained on the webpage under the heading ‘About the
Data.’” (R. Woodman Suppl. Decl. ¶ 8, Ex. 4, at 1–2).
June 26, 2020: “With regard to the outside testing you
are now requesting, we cannot provide you with
specifics as to the logistics for security reasons. Once
the tests are confirmed, we will be able to advise that
one or more facilities will be able to conduct the testing
you have requested within the diagnostic parameters
you have outlined. You will receive the
results which will have the names of the facilities and
medical personnel as part of the records. To that end, I will
let you know if any additional information is required to
successfully schedule those tests. The BOP does not pay
for unnecessary outside tests on inmates which are not

Requested
Material
Received?

No

No

No

7

294a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 8 of 9
Date of Request

Requestor

Requested Material

Addressee

June 25, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman

Fifth Request for Mr. Purkey’s
updated BOP medical and mental
health records (R. Woodman Suppl.
Decl. ¶ 9, Ex. 4, at 2–4).

BOP Senior
Attorney
Katherine
Siereveld

June 25, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman
Counsel for
Mr. Purkey
Rebecca
Woodman

Seventh Request for A Range
surveillance videos of Mr. Purkey’s
cell (R. Woodman Suppl. Decl. ¶ 7,
Ex. 4, at 3).
Sixth Request for medically ordered
brain imaging; requested logistics of
testing in light of COVID-19 (R.
Woodman Suppl. Decl. ¶ 10, Ex. 5, at
1–2).
Third Request for COVID testing
data beyond what is available on BOP
website (R. Woodman Suppl. Decl. ¶
10, Ex. 5, at 1–2).
Sixth Request for official written
COVID visitation policies (R.
Woodman Suppl. Decl. ¶ 10, Ex. 5, at
1–2).
Sixth Request for Mr. Purkey’s
updated BOP medical and mental
health records (R. Woodman Suppl.
Decl. ¶ 10, Ex. 5, at 1–2).
Seventh Request for medically
ordered brain imaging; (R. Woodman
Suppl. Decl. ¶ 11, Ex. 6, at 1).

BOP Senior
Attorney
Katherine
Siereveld
BOP Senior
Attorney
Katherine
Siereveld

June 30, 2020

June 30, 2020

June 30, 2020

June 30, 2020

July 1, 2020

Counsel for
Mr. Purkey
Rebecca
Woodman
Counsel for
Mr. Purkey
Rebecca
Woodman
Counsel for
Mr. Purkey
Rebecca
Woodman
Counsel for
Mr. Purkey

BOP Senior
Attorney
Katherine
Siereveld
BOP Senior
Attorney
Katherine
Siereveld
BOP Senior
Attorney
Katherine
Siereveld
BOP Senior
Attorney

Response
clinically indicated. Per our medical and psychology
staff, a review of Mr. Purkey’s records reveals no
clinical indication for the testing you are requesting.
Our medical and psychology staff simply cannot order
testing which they do not believe is necessary to the
care of that individual.” (R. Woodman Suppl. Decl. ¶ 9,
Ex. 4, at 1–2).
June 26, 2020: “I am unaware of any outstanding
requests for medical and psychological records, but if
you can let me know when and how you requested
them, that can help me track them down. As a general
rule, the two quickest ways to receive medical and
psych files is for either your client to request a copy of
his own records via a request to staff, which he can
then forward to you; or, request those records through
the discovery process.” R. Woodman Suppl. Decl. ¶ 9,
Ex. 4, at 1–2).
No Response

No Response

No Response

No Response

No Response

No Response

Requested
Material
Received?

No

No

No

No

No

No

No

8

295a
Case 1:19-cv-03570-TSC Document 30-1 Filed 07/02/20 Page 9 of 9
Date of Request

Requestor
Rebecca
Woodman

Requested Material

Addressee
Katherine
Siereveld

Response

Requested
Material
Received?

9

296a

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
I

)
)
)
)
)
)
)
)
)
)

WESLEY IRA PURKEY,
Plaintiff,
V.

WILLIAM P. BARR, et al. ,

Defendants.

No. 1:l 9-cv-03570-TSC

SECOND DECLARATION OF THOMAS M. HYDE, M.D., Ph.D.

Thomas M. Hyde, M.D., Ph.D., pursuant to 28 U.S.C. § 1746(2), declares as follows:
1.

My official residency is in the state of Maryland, and I am over 18 years of age. I

am competent to provide this declaration.
2.

Unless otherwise statl d below, the facts contained herein are based on my personal

knowledge and any opinions expressed herein are based on my professional experience and the
factual information presently available to me.
3.

This declaration is inJended to supplement my first declaration dated June 22, 2020
1

in the above-captioned action, a copy of which is attached as Exhibit A ("First Declaration").
4.

Mr. Purkey ' s counsel requested that I prepare this second declaration with respect

to the above-captioned action, as '!ell as any requests by Plaintiff for testing, interviews and
examinations of Mr. Purkey and/or for discovery.
5.

In reference to Paragrl phs 9 and 17 of my First Declaration, I still have been unable

to schedule a visit to see Mr. Purkey to date for the reasons set forth in my First Declaration.
6.

In reference to Paragraphs 8, 10 and 11 of my June 22, 2020 Declaration, I have
I

still not received up to date medical and psychological records of Mr. Purkey from the prison

297a

medical services provider and health care providers employed by the Federal Bureau of Prisons
("BOP"). A complete review of all medical and psychological records of Mr. Purkey remains
essential when trying to establish lhe longitudinal course of illness with dementia, which, by
definition, involves the progressive deterioration in memory and cognitive functions often with
real life correlates in compromised level of function. In the absence of a complete set of BOP
administrative, medical and psychological records and the opportunity to interview and examine
Mr. Purkey, I reiterate that I cannot reach a definitive conclusion as to his neurological status or
diagnosis, nor as to his level of capacity and competency.
7.

Within a reasonable degree of medical certainty, it remains my expert opinion that

Mr. Purkey needs to undergo a complete neurological evaluation in order to ascertain his current
cognitive status, symptomology and diagnosis. Without having interviewed and examined Mr.
Purkey and obtained the relevant diagnostic testing, I am unable to render a definitive opinion as
to his current level of cognitive impairment and diagnosis beyond those contained in my First
Declaration.

If and when a meeting with Mr. Purkey face-to-face and the necessary and

appropriate diagnostic testing described above can all be completed safely, fully and appropriately,
I would be able to render a definitive opinion as to his level of cognitive decline and neurological
impairment.
8.

With reference to Paragraph 8 of my First Declaration, I issued medical orders on

July 1, 2020 for the performance of the PET scans, MRI and EEG on Mr. Purkey described in my
First Declaration, as well as various blood tests. True and genuine copies of those medical orders
are attached hereto as Exhibit B. It is my understanding, on information and belief, that the first
PET scan, the MRI and the blood tests were scheduled by the Bureau of Prisons (BOP) to be
conducted on Wednesday, July 8, 2020 and that the second PET scan and EEG were scheduled by

2

298a

the BOP to be conducted on Friday, July 10, 2020. At 11 :30 a.m. on Tuesday, July 14, 2020, I
received by Federal Express from the BOP a package containing a compact diskette (CD) and a
thumb drive that, on information and belief, I understand contain the first PET scan and the MRI.
I have attempted to access the data on the CDs and thumb drive but have been unable to do so
because the images from the scans and/or images were sent on a disc and a thumb drive that is not
readily accessible in my home office using an Apple-based MacIntosh computer interface. Due to
the COVID-19 pandemic I have been working from home and do not have the programs on my
computer necessary to instantaneously access those scans and images. Due to the myriad ways in
which hospitals share these type of images, it is not possible for me to be able to read these images
without the assistance of IT. The CD and thumb drive sent by the BOP did not contain any
enabling programs that would allow me to access the data. I will need to work with my IT
consultant in order to access the scans and images for my review.
9.

I have been provided a written report or analysis of an MRI that was performed on

Mr. Purkey on July 8, 2020. I do not know the doctors or technicians who issued that written
report, including their training or experience in performing and analyzing MRis. I am also unaware
whether the written report or analysis was prepared by doctors or technicians at the facility that
administered the MRI on Mr. Purkey. I have not spoken with those persons. However, based on
my review of that written report or analysis, and within a reasonable degree of medical certainty,
my preliminary observation and conclusion regarding the data in that written report or analysis are
that it reveals significant structural abnormalities in the brain that are consistent with cognitive
impairment such as vascular dementia or other conditions. Specifically, the MRI scan of the brain
showed diffuse volume loss with specific involvement of the left hippocampus. Volume loss is
seen in pathological processes affecting the brain, including vascular dementia and chronic

3

299a

traumatic encephalopathy. Volume loss means that there is a significant loss of brain tissue, and
this manifests as cognitive impairment, particularly when the hippocampus is involved. The
hippocampus is the brain structure that is a vital component in learning and memory. In addition
to the volume loss (atrophy), the MRI scan showed lesions in the core of the brain (periventricular
and subcortical white matter).

Lesions in these regions of the brain interfere with the

communication between brain regions, and often are seen in vascular dementia. Mr. Purkey has a
strong family history of cerebrovascular disease, and is at higher risk for vascular dementia
because of this family history. Subcortical white matter lesions also have been seen on MRI in
individuals with chronic traumatic encephalopathy.
I DECLARE PURSUANT TO 28 U.S .C. § 1746(2) AND UNDER PENALTY OF
PERJURY THAT THE FOREGOING FACTS ARE TRUE AND CORRECT .

c ·--, _ _ _ _ 3<C-~---iii2s.
.,..

DATED: July 15, 2020

~-,

THOMAS M. HYDE, M.D., Ph.D.

4

